<html>
<title> - WIRELESS E-911 IMPLEMENTATION: PROGRESS AND REMAINING HURDLES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
     WIRELESS E-911 IMPLEMENTATION: PROGRESS AND REMAINING HURDLES

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2003

                               __________

                           Serial No. 108-27

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
87-492PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                      Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
PAUL E. GILLMOR, Ohio                RALPH M. HALL, Texas
JAMES C. GREENWOOD, Pennsylvania     RICK BOUCHER, Virginia
CHRISTOPHER COX, California          EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
  Vice Chairman                      BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
CHARLIE NORWOOD, Georgia             BOBBY L. RUSH, Illinois
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           ELIOT L. ENGEL, New York
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JAN SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
ERNIE FLETCHER, Kentucky
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho

                   Dan R. Brouillette, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                      Ranking Member
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      KAREN McCARTHY, Missouri
PAUL E. GILLMOR, Ohio                MICHAEL F. DOYLE, Pennsylvania
CHRISTOPHER COX, California          JIM DAVIS, Florida
NATHAN DEAL, Georgia                 RICK BOUCHER, Virginia
ED WHITFIELD, Kentucky               EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               BART GORDON, Tennessee
JOHN SHIMKUS, Illinois               PETER DEUTSCH, Florida
HEATHER WILSON, New Mexico           ANNA G. ESHOO, California
CHARLES W. ``CHIP'' PICKERING,       BART STUPAK, Michigan
Mississippi                          ELIOT L. ENGEL, New York
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
CHARLES F. BASS, New Hampshire       GENE GREEN, Texas
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Amarosa, Michael, Senior Vice President, Public Affairs, 
      Trueposition, Inc..........................................    51
    Callahan, James, President & Chief Operating Officer, Mobile-
      Tel, Inc...................................................    39
    Hatfield, Dale N., Adjunct Professor, Department of 
      Interdisciplinary Telecommunications, University of 
      Colorado at Boulder Engineering Center.....................    16
    Korsmo, Karl, Vice President of External Affairs, AT&T 
      Wireless Services..........................................    37
    Melcher, John, President, National Emergency Number 
      Association................................................    29
    Muleta, John B., Bureau Chief, Wireless Communications, 
      Federal Communications Commission..........................    21
    O'Connor, Michael, Director of Federal Regulatory Policy, 
      Verizon Communications.....................................    47

                                 (iii)




     WIRELESS E-911 IMPLEMENTATION: PROGRESS AND REMAINING HURDLES

                              ----------                              


                        WEDNESDAY, JUNE 4, 2003

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Stearns, Gillmor, 
Shimkus, Bass, Walden, Tauzin (ex officio), Markey, Rush, 
Boucher, Towns, Eshoo, Engel, Green, and Dingell (ex officio).
    Staff present: Will Norwind, policy coordinator; Howard 
Waltzman, majority counsel; William Carty, legislative clerk; 
Peter Filon, minority counsel; and Voncille Hines, minority 
research assistant.
    Mr. Upton. Good morning everyone. I will remind my 
colleagues that if they choose not to give an opening 
statement, they get extra time on the first round of questions. 
I will not do so.
    Good morning. Today's hearing is entitled Wireless E-911 
Implementation, Progress and Remaining Hurdles. Every one of us 
will remember where we were on September 11th. I was with 
Senator Burns and my good friend and colleague, Congressman 
Gene Green at an E-911 press conference over on the Senate 
side. The press conference was abruptly interrupted as we 
scurried into another Senator's office to watch the terrible 
events of that day unfold before our eyes on TV and none of us 
will ever forget that day.
    And I would say that among the many lessons learned on 
September 11th was that wireless E-911 not only is crucial for 
normal public safety emergencies, but also homeland security in 
the event, God forbid, of future terrorist attacks.
    The events that day ushered in a welcome new era of 
cooperation and a redoubling of efforts amongst all of the 
various stake holders in the wireless E-911 universe. And I 
must say that the outlook is much better than it was 2 years 
ago when this subcommittee held its last hearing on wireless E-
911. But make no mistake. We still have a ways to go and there 
are major hurdles ahead of us which we must clear.
    Failure is not an option. No one should rest on their 
laurels, and we will continue to hold everyone's feet to the 
fire. We need maximum effort and cooperation and all of this is 
what brings us together today. There's a lot of talk lately 
about road maps in the context of achieving peace in the Middle 
East. In the context of wireless E-911, we now have a road map 
provided by one of today's distinguished panelists, Professor 
Dale Hatfield. Among other things the Hatfield Report--Dale 
Hatfield. Among other things, the Hatfield Report observes the 
need for greater coordination in all levels of government, a 
lack of resources at the local level, and the fact that local 
exchange carriers are a critical piece of that puzzle.
    Among the Hatfield Report's numerous recommendations, I am 
particularly interested in creating a national E-911 Program 
Office within the Department of Homeland Security. This will 
ensure crucial, unified Federal leadership and coordination 
across the country. In addition, we should make a significant 
Federal investment through grants to States to assist local 
public safety answering points, PSAPs in completing their 
wireless E-911 systems.
    One of the starkest observations made in the Hatfield 
Report is that no matter how well the wireless carriers succeed 
in upholding their end of the bargain, if PSAP funding problems 
persist, deployment will be thwarted. Hence, Federal 
investments are crucial. However, we must stop States from 
raiding E-911 funds generated through E-911 surcharges on 
consumers' bills. So I propose that only those States which 
certify that they do not raid funds, would be eligible for 
these new Federal dollars. In addition, we need to further 
condition eligibility for such investments on the certification 
by States that they have, in fact, an E-911 Statewide 
Coordinator. The evidence suggests that those States with such 
coordinators have made much greater progress than those 
without. And such intrastate coordination should be a must.
    Finally, let me say a word about wireless local number 
portability. I support wireless LMP as a general proposition. 
However, I do have concerns about its implementation at a time 
when we are asking wireless carriers to make E-911 their top 
priority. E-911 is a greater priority in my book, and we need 
to carefully weigh that balance. In closing, I want to 
especially commend our colleagues, John Shimkus and Anna Eshoo 
for their effort to launch the House E-911 Caucus. Their 
leadership in this area is tremendous, and I look forward to 
working with each of them. It is my hope that we can craft 
bipartisan legislation to help make full wireless E-911 
deployment a reality.
    As the subcommittee Chair, I am committed to moving such 
legislation. Time is of the essence, and I yield now to the 
ranking member of the subcommittee, my friend Mr. Markey from 
Massachusetts.
    Mr. Markey. Thank you, Mr. Chairman, very much, and I want 
to commend you for calling this hearing this morning on 
wireless E-911 implementation. This is an issue that this 
subcommittee has been deeply involved in for a number of years, 
and today's hearing will provide an important opportunity to 
enhance our knowledge of that issue and to ensure that 
implementation continues and public safety is advanced.
    When the subcommittee first started examining this issue 
just a few years back, only 40 million consumers had wireless 
phones. Today that number is over 140 million. We know that for 
many customers, wireless service has become a fungible 
substitute for their traditional wireline phone and is no 
longer seen as an ancillary product. Increasingly, many 
consumers simply disconnect their wireline phone or they use 
their wireless phones almost exclusively, especially for long 
distance calls, which is why we are seeing the collapse of the 
long distance marketplace. The fact that more and more 
consumers see wireless telephones as a necessity, and less as a 
discretionary product, means that consumers will increasingly 
be relying on this technology. With over 140 million 
subscribers that is going to mean that an increasing number of 
emergency calls will be placed with wireless phones. Yet, it 
also holds out the prospect of dramatically reducing emergency 
response time, and as a result, saving many lives.
    This subcommittee took action in 1999 and enacted 
legislation that designated 911 as the universal emergency 
number across the country, and also put in place consumer 
privacy protections when wireless carriers utilize wireless 
location information. The FCC, for its part, required wireless 
carriers to implement E-911, and we are now in Phase II of this 
implementation process. Wireless E-911 Phase II rules were 
originally due to be implemented by October of 2001, but this 
requirement was revised by the commission due to various 
alleged technological and economic impediments or difficulties. 
This hearing will give the subcommittee an opportunity to gauge 
the progress in the E-911 implementation, review problems that 
have been identified, as well as recommendations for resolving 
the remaining difficulties. This is an issue that has clear 
homeland security implications and can literally be a life or 
death issue for our citizens. The bottom line is that we need 
all the elements of the emergency response system to work 
together, including the wireless carrier, the encumbered 
wireline telephone company, the public safety answering point, 
the State, and local law enforcement municipal authorities and 
the FCC. And we need all those parties to work as efficiently 
as possible and without needless delay.
    I thank you, Mr. Chairman, for calling this hearing.
    Mr. Upton. Thank you, Mr. Markey. Recognize the chairman of 
the full committee, Chairman Tauzin.
    Chairman Tauzin. Mr. Chairman, thank you very much. I want 
to thank you for this hearing and for the extraordinary way in 
which you and Mr. Markey have worked consistently. I think this 
is the second hearing since you assumed the Chair of the 
Telecommunications Subcommittee on this issue, and I applaud 
you for your continuing oversight. It is of extreme importance. 
I want to commend our friend Lieutenant Colonel John Shimkus 
for his leadership on this issue. As you know, he carried the 
bill through the House for this committee and deserves a lot of 
credit for it.
    We have been involved, as you know, a long time on this 
issue. And it basically boils down to the simple equation. Can 
we take the search out of search and rescue? The search is the 
biggest part of rescue, and in every hearing we have had in 
every public safety testimony we have heard about the ability 
to save lives on the highways, in accidents and other injuries 
that occur on our Nation's highways, the search is the 
costliest part of the equation. The time lost in finding the 
individual before we can get emergency response help to that 
situation is a critical time that lives are lost and limbs are 
lost permanently and injuries become permanent injuries instead 
of temporary injuries. It is the most critical thing we do in 
terms of saving lives on American highways, and additionally, 
helping to prevent all sorts of other grievous injuries to 
people in our society on the walkways and byways and places 
where joggers are assaulted and raped and murdered in many 
cases. The bottom line is, we can't wait much longer for the E-
911 to be fully implemented. And I want to commend the 
commission for being as tough as it has been on the wireless 
carriers to move them along, but we must recognize, as I know 
this oversight hearing is designed to do, that a great many of 
the promises that were made to us in E-911 technologies, have 
not yet been delivered.
    And we are waiting for those promises to be kept. Every day 
they are not kept, somebody loses a life. The cost of the 
search is too expensive and the recovery and the emergency 
response comes too late. It gets down to that simple equation. 
Someone's loved one is at stake every day that these promises 
are not kept.
    Finally, I want to say a word about cost recovery. PSAPs 
cannot buy E-911 services from local exchange carriers without 
proper resources. And I applaud Mr. Hatfield for identifying 
the importance of the LEC side of the equation in the E-911 
development deployment debate because if the lacks in PSAPs are 
not adequately resourced in the deployment of these services, 
even the promises of the technology will not answer the 
questions that this committee will continue to ask as we 
oversee the deployment of E-911 in America. We will not have 
the ubiquitous E-911 deployment if PSAPs simply do not have the 
resources and the services they need to receive the E-911 data. 
Now, PSAPs will be ready if States and localities stop raiding 
E-911 cost recovery mechanisms.
    Very soon on the House floor, our committee will take up 
the spectrum relocation trust fund, which we have worked out, 
now, with the Budget Committee and the Appropriations 
Committee. We set up a separate trust fund to make sure those 
funds are not raided. They are available to relocate spectrum, 
when spectrum is necessarily relocated for the benefits of 
services like emergency response services. But when we set up 
monies and set up resources for something as important as this 
to happen and then States and localities raid those funds, and 
delay the implementation of this kind of a system for America, 
then every decision to raid those funds is directly related to 
somebody's loss of life on the highway; to the inability of 
somebody to find somebody to get to them fast enough to take 
care of a serious problem. And somebody ought to think about 
that before they raid these funds. And I want to applaud the 
chairman and Mr. Markey and all the members of this committee 
for standing shoulder to shoulder to do what we can and make 
sure this raiding stops, the system gets deployed, the promises 
are kept, lives and limbs are saved again under the plan for 
the ubiquitous 911 coverage that we have been promised in this 
country.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you very much. We recognize the gentleman 
from----
    Chairman Tauzin. Mr. Chairman, if you don't mind, I missed 
doing something extremely important. I wanted to welcome James 
Callahan of MobileTel in my district in Larose. James, welcome. 
Larose is one of those little rural places that is desperately 
waiting along with most of America for this kind of a service. 
James, thanks for being here today to tell us your story from a 
very small little part of the Cajun country that's going to 
benefit when this committee gets its work done.
    Mr. Upton. He had a little influence of getting here.
    Would recognize the gentleman from the great State of 
Michigan, Mr. Dingell.
    Mr. Dingell. Mr. Chairman. Thank you. Good morning. Mr. 
Chairman, I commend you for holding this hearing. This will 
give the subcommittee a chance to take a critical look at how 
enhanced 911 service, known as E-911, for wireless telephones 
is being deployed in the United States. Enabling 911 talkers 
and public safety answering points, PSAPs, to determine the 
location of wireless 911 calls will not only save lives, but it 
will enhance the safety and security of every American.
    Deployment, unfortunately, has been delayed. And frankly, 
all stakeholders must do better. This subcommittee held a 
similar hearing 2 years ago. At that time, not one PSAP was 
able to determine the location of a wireless 911 call. Since 
then the public safety community and the wireless industry have 
made measured progress, but there is a lot left to do.
    Today, approximately half the 5,300 primary PSAPs comply 
with FCC's Phase I requirements, which means they receive the 
telephone number of the wireless phone from which a 911 call is 
being made, as well as the nearest cell site. This is critical 
information in the event that a call is disconnected 
prematurely. Eight States and the District of Columbia, 
however, are without a single PSAP that is able to receive 
Phase I information. Additionally, roughly 400 PSAPs across the 
country can now locate wireless callers as required under Phase 
II. But again, 24 States and the District of Columbia are 
without a single Phase II compliant PSAP.
    These figures are troubling. Many of the 135 million 
wireless phone users who have purchased wireless phones did so 
for safety reasons. Moreover, a growing number of wireless 
users are canceling wireline service to their homes and 
switching to wireless service. When most consumers dial 911 
from a wireless phone, they expect that the emergency 
responders will automatically locate them, just as if they had 
made the call from a wireline phone.
    There has been no shortage of excuses for delays in 
wireless E-911 deployment. In an effort to obtain an 
independent analysis of the true problems involved in the E-911 
deployment, the FCC commissioned Mr. Dale Hatfield, the former 
Chief of the Commission's Office of Engineering and Technology, 
to conduct a thorough analysis of this complex issue. We are 
fortunate to have Mr. Hatfield at the witness table today, as 
well as Mr. John Muleta Chief of the Commission's Wireless 
Telecommunications Bureau.
    Welcome gentlemen. Thank you. These witnesses will provide 
this committee with an update on the progress that has been 
made since the Hatfield Report was released last October. It is 
encouraging to see that there are other stakeholders here 
today. Everyone should know that this subcommittee is 
monitoring this issue to ensure that the difficulties 
encountered with the deployment of this life saving service 
will soon be resolved. I want to commend Representatives Eshoo 
and Shimkus for their fine work in establishing the 
Congressional E-911 Caucus. Their efforts have received and 
have raised the awareness of the significant number of issues 
involved in implementing E-911 and will help focus the 
attention of Congress on overcoming the challenges that have 
slowed the implementation of both wireless and wireline E-911 
across the United States.
    Thank you again, Mr. Chairman, for holding this hearing. I 
look forward to the testimony from each of the witnesses.
    Mr. Upton. Thank you. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. First of all, I would 
like to ask that--I would like to submit this letter from NENA 
that was sent to the E-911 Caucus for the record.
    Mr. Upton. Without objection.
    [The information referred to follows:]

              National Emergency Number Association
                                       Columbus, Ohio 43230
                                                     March 27, 2003
The Honorable Conrad Burns
United States Senate
187 Dirksen Senate Office Building
Washington, DC 20510-2603

The Honorable Hillary Rodham Clinton
United States Senate
476 Russell Senate Office Building
Washington, DC 20510-3203

The Honorable Anna Eshoo
United States House of Representatives
205 Cannon House Office Building
Washington, DC 20510-0514

The Honorable John Shimkus
United States House of Representatives
513 Cannon House Office Building
Washington, DC 20515-1319

    Dear Congressional E9-1-1 Caucus Co-Chairs: Those of us in the 
public safety community have long believed that development of a robust 
nationwide E9-1-1 system for wireless telephone calls is one of the 
most important components of a nationwide plan to promote national 
security and public safety. The accomplishment of this goal will 
require close coordination among public safety officials, the wireline 
and wireless telephone carriers, and relevant government officials.
    While there is much to applaud in the many ongoing efforts to 
implement E9-1-1, the goal of E9-1-1 ``anywhere and everywhere'' 
remains elusive. For this reason, we applaud your leadership and 
initiative in launching the Congressional E9-1-1 Caucus, to educate 
members of Congress and advance the deployment of ubiquitous E9-1-1 
service in our nation. For this same reason, we strongly encourage and 
support the Federal Communications Commission (FCC) in its efforts to 
provide resources and leadership to ensure a fully functional E9-1-1 
system.
    We believe that in supporting new telecommunications services and 
regulations, ubiquitous E9-1-1 deployment should always be our number 
one priority.
    In the current reality of heightened emergency risks and alertness, 
it is critical that we avoid imposing any non-safety regulations and 
requirements that might hinder the development and deployment of E9-1-1 
service. From the inception of new technology, to the detail and 
complexity of public policy, the safety and security of the public must 
be of paramount importance.
    As a nation, we have long demonstrated this priority. An example 
from the recent past was the deployment of resources and services to 
achieve a safe, smooth ``Y2K'' transition. Governments and industry 
were presented a monumental challenge with a hard deadline, but through 
the collaboration and hard work, we as a nation were able to ensure the 
safety and security of critical infrastructure and systems. Given that 
lives, property and our safety are at stake, E9-1-1 should be given the 
same level of priority.
    We do not oppose regulations or policies that are designed to 
enhance the convenience and service options available to consumers, 
private industry and others. But we are far more concerned about the 
safety of millions of Americans who may someday use their wireless 
phones in emergency situations.
    We urge the Congress to take steps to ensure that wireless E9-1-1 
is our number one priority before moving forward with non-public safety 
and homeland security telecommunications rules and regulations.
            Sincerely,
                                               John Melcher
                                                    NENA, President
cc: The Honorable John McCain
   The Honorable Ernest Hollings
   The Honorable W.J. ``Billy'' Tauzin
   The Honorable John Dingell
   Association of Public Safety Communications Officials International
   National State Nine One One Administrators
   Cellular Telecommunications and Internet Association
   United States Telecom Association

    Mr. Shimkus. And second, I would like to thank you for the 
hearing and its--we are obviously moving forward and that's 
what we need to do. We did form an E-911 Caucus, along with 
obviously my colleague Anna Eshoo and Senator Burns and Senator 
Clinton, which we rolled out earlier this year with great 
fanfare, and now it is time to get down to work.
    I also want to make sure that all members of this committee 
really look at joining the Caucus because that will continue to 
bring us strength. I know not all members are here, but many 
staffers are here, so they can get the word back to their 
member that Anna and I will be on the prowl trying to get more 
members to join the Caucus.
    I want to, really, also recognize Mr. Hatfield. And I 
talked to him before the hearing began. Had it not been for his 
report, I guess we would have moved forward but it was really 
one of those great opportunities for a report to really create 
some excitement, identify problems. And I think Mr. Chairman, 
as you mentioned in your opening statement, as we move 
legislation, a lot of it will be based upon what Mr. Hatfield 
did in his report. And I want to make sure I publicly commend 
him for that.
    We also have Steve Seitz here from NENA, who is not only 
doing the work up here, but he is actually working with the 
stakeholders throughout the country from the cellular 
companies, to the local exchanges, to the PSAPs and he has got 
some great success stories, and I look forward to this hearing. 
I will just end by saying I am concerned, as many people would 
know, about the local number portability issue, taking away 
capital for the role out of Enhanced-911. I mentioned it to the 
chairman. He said he would help me look at the issue and, 
hopefully, we can move on prioritizing our needs, and I think 
some of the comments will be raised on that issue.
    I am glad Mr. Callahan is here. I have a small rural 
company called First Cellular, Terry Addington is the 
President. The problem in rural America is that, first of all, 
we don't have full coverage in a lot of areas. I know I don't 
have in the deep part of southern Illinois, so as we try to get 
full ubiquitous coverage and then overlay location 
identification information, that's a great capital expense. We 
don't really always have the population to sustain that. So the 
question is funding and financing, and I hope we will get some 
ideas after this hearing.
    Thank you, Mr. Chairman, for joining with us to work 
diligently on this issue. It is a winner. It saves lives and it 
is an exciting time, and I look forward to moving legislation 
rapidly, and I yield back my time.
    Mr. Upton. Thank you. I would recognize Mr. Boucher.
    Mr. Boucher. Thank you very much, Mr. Chairman. I want to 
commend you for scheduling today's hearing on a very important 
public safety matter. Since the last hearing that our 
subcommittee held 2 years ago, there has been notable 
cooperation between the public safety authorities and the 
wireless carriers in both the Phase I and the Phase II 
development of E-911 services. And one thing that I think we 
can do today is congratulate these entities on the successes 
that they have achieved so far.
    Despite this progress, however, I have two concerns 
regarding the deployment that I would like to ask the members 
to consider, and I was pleased that the chairman of the 
subcommittee raised both of these matters during the course of 
his statement.
    First, I am concerned that public safety answering points 
are not receiving the funding that is necessary to carry out 
their work. Today there are many areas where E-911 has yet to 
be implemented, not because the wireless carriers are incapable 
of providing the information, but because the PSAPs are 
technically limited in their ability to receive the 
information. The PSAP community needs funding to upgrade 
systems to receive the precise location information from 
wireless calls. In some States, that funding has been made 
available. In too many States, the funding has been diverted to 
other projects or diverted for the purpose of balancing 
budgets. In order to assure that Phase II deployment continues 
in a timely way, Congress must ensure that the funding that is 
required is made available to the answering point entities.
    My second concern relates to the effect that implementation 
of wireless number portability may have on the ability of 
wireless carriers to deploy E-911 in a timely way. Frankly, I 
question the need for costly number portability mandates for 
wireless which is already a fully competitive 
telecommunications sector. No doubt, portability is a consumer 
convenience, but it is not required to promote the higher value 
of achieving competition in this industry as, perhaps arguably, 
it is for the wireline industry. And I have no doubt that a 
regulatory insistence on number portability will detract from 
the more urgent need to deploy E-911 services.
    Mr. Chairman, I would simply note these two concerns for 
the benefit of the subcommittee members. I hope that our 
witnesses perhaps will comment on these two matters during the 
course of their testimony today. And I want to thank you, 
again, for scheduling the hearing on a very timely subject.
    Thank you. I yield back.
    Mr. Upton. Thank you. Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman, and good morning to you 
and to all of my colleagues here today and to all of the 
witnesses. Thank you for being here.
    Mr. Chairman, I think that it is very important that you 
are holding this hearing, and I thank you for your leadership 
on it, and of course, to my cochair colleague of the E-911 
Caucus, John Shimkus. I want to salute him because he has been 
a terrific partner. And I think that it is important to state 
that he has been a long time partner on this, not just a recent 
E-911 person convert. But there is room for that as well on the 
committee and in the Congress.
    I have been working on this issue since 1996, and that is 
now some time ago. I introduced legislation then to ensure that 
public safety entities would have the same ability to locate a 
wireless call as they did a wireline call. And I would like to 
draw, and I think that others have as well, draw specific 
attention to that time line. It has been 7 years, 7 years since 
we first directed the attention of the Federal Government to 
this issue, so of course it is disappointing, it is 
understandable in some areas, but it is still overall 
disappointing that so much time has passed, and we still don't 
have widespread deployment of E-911. We know that there are 
consequences and the consequences are lives unnecessarily lost.
    In 1998, the committee held a hearing on E-911, and one of 
the things emphasized was the need for PSAPs to upgrade their 
equipment. That was 5 years ago. And PSAP readiness is still 
demanding our attention. So I think that even though we have 
talked about this for a long time, and there has been some 
attention that's been drawn to it, we have to really get into 
the kind of the messy mundane details of all of this so that we 
can launch legislation that will be fair to everyone but that 
there will, in fact, be deployment of this. Many, if not most, 
users of cell phones, especially I think women, buy phones for 
added security. So when they make a 911 call, it will bring 
help quickly. We all know this. And all we have to do is look 
to our own families and we understand it. There are over 
140,000 wireless 911 calls made each day in our country. That's 
a lot of telephone calls, 140,000 wireless 911 calls each day, 
representing over half of all 911 calls. Each one of them, I 
think, could be determined to be one of the most important 
calls that someone would make.
    So I think to summarize where we are right now, yes, we 
have an E-911 Caucus. Now, we know as members that there are 
lots of caucuses in the House. Many of them never meet. They 
may send out messages, there are a few that stand out that have 
really, and I am looking at my colleague, Rick Boucher and the 
Internet Caucus. I am not running down any other caucus, but we 
have really taken ahold of this issue and have had hearings, 
made sure that there is a counterpart in the Senate and there 
is a great deal of interest in this.
    So I think that that is important in terms of the interest 
of the Congress within our own organization, so to speak. We 
are looking at writing legislation that will authorize funding 
to enhance the public communication entities. Right now, the 
dollars that are collected on the bills that people pay, those 
dollars are really being siphoned off by many States. It is not 
the case in New York, where they have had corrective 
legislation, but I am sorry to say it is the case in my own 
State, in California. Now, if the infrastructure as it were, is 
not built and supported by a constant flow of dollars, then, 
most frankly, the system is not going to work. So Mr. Chairman, 
you have offered some ideas today. We want to work with you and 
all of our colleagues. We want you all to join the Caucus. No. 
1, we want you to be stepped up partners to legislation that is 
really going to put in place not only a homeland security 
system, but a hometown security system for our people. So I 
look forward to working with you on that, and I want to thank 
most especially Dale Hatfield for the extraordinary work that 
he has done out of his writings and his research and 
investigations. Both Chairman Shimkus and myself and others in 
the Caucus have taken his recommendations and built them into 
the legislation that we are offering.
    So thank you, again, for the hearing, and let's go. We 
don't want to go into the 8th year, the 9th year, the 10th 
year, the 11th year of this issue. I think that we have the 
capacity to get this done. Thank you.
    Mr. Upton. The gentlelady's time has expired. The gentleman 
from Florida, Vice Chairman, Mr. Stearns.
    Mr. Stearns. Good morning. And thank you, Mr. Chairman.
    Since our last hearing on this subject in June of 2001, we 
have witnessed dramatic events to say the least, that have 
highlighted the critical importance of Enhanced-911 services 
for local communities, States and our national security.
    We have seen significant progress in the roll out of E-911, 
but as we will hear from our witnesses today, numerous hurdles 
remain as we progress from Phase I to Phase II implementation 
of wireless E-911. Professor Hatfield, appearing before us 
today completed an exhaustive report on the various issues 
affecting the roll out of E-911. In particular, one of the 
problems he noted was a lack of State coordination. He notes 
that, ``A number of States have failed to establish a statewide 
coordination body and or appropriate cost recovery 
mechanisms.'' I believe this to be one of the greater hurdles 
facing E-911 for the most part. That particular issue is being 
addressed in my home State, however, of Florida. Florida is the 
largest State recently recognized by the public safety wireless 
network for the improvements in State interoperability in the 
past 2 years. Furthermore, despite budget constraints, Governor 
Bush appointed a statewide E-911 Coordinator and cost recovery 
mechanisms to distribute funds to local governments to upgrade 
their infrastructure.
    So far, all wireless carriers in 19 Florida counties have 
implemented Phase I, and six counties are underway with Phase 
II, the costliest phase. Though Florida is not the only 
proactive State in coordinating E-911 implementation, I believe 
it is a good example, Mr. Chairman of the need to establish 
wireless priorities and move in a pragmatic manner to ensure 
that the time needed to respond to a 911 emergency is not 
hindered due to technological or cost limitations, especially 
with the number of wireless 911 calls increasing among all 
emergency calls placed.
    Mr. Chairman, we are making progress and rolling out E-911 
and the hard work of the States and wireless companies, local 
exchange carriers and the Federal Government is beginning to 
show. I look forward to our testimony from our witnesses and 
their insight into how we can improve upon the on going efforts 
to ensure 911 responders are given the technological tools 
needed for public safety.
    Thank you, Mr. Chairman.
    Mr. Upton. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman for calling this hearing 
to push for progress on this critical public safety issue. I 
would like to sincerely thank all our panelists today, but 
particularly my friend John Melcher from Houston, President of 
the National Emergency Number Association. John and I have 
worked on 911 since, well since the early 1980's, I guess. 
First our local service in Houston, Harris County, then State 
coverage and now E-911. Having been involved in the creation of 
911 services for the greater Houston area from the beginning, I 
know that public attention to this issue has saved countless 
lives. With the explosion of wireless communications, Enhanced-
911 is a natural critical next step. My hometown of Houston is 
part of the greater Harris County 911 Emergency Network, a 
special emergency communication district encompassing 47 
cities, including Houston and our unincorporated areas also. As 
of February this year, Houston has the proud distinction, in 
large part to Mr. Melcher's efforts, to be the only major 
metropolitan area to have all six major wireless carriers 
providing location technology for wireless 911 calls. In Harris 
and Fort Bend counties, Phase II is completed. And again, 
knowing John for all of these years, it wasn't always an easy 
route to go. AT&T wireless, Cingular Wireless, Verizon, Nextel, 
Sprint and T-Mobile, along with our local exchange carrier, 
SBC, deserve credit for achieving this goal at a time of poor 
general economic performance and competing regulatory demands 
on their service.
    When the FCC considers additional requirements for wireless 
carriers, I hope they will keep their focus on E-911. Everyone 
should be able to agree that the primary focus should be the 
saving of lives. Wireless 911 does save lives. Mr. Dale 
Hatfield, a witness here today, in his report reveals that 
wireless 911 calls account for one third of the total, and 
callers often cannot provide their location. And as Chairman 
Upton said, on September 11, 2001, I was at that E-911 event 
with Senator Burns and after that terrible day, the need and 
Federal interest for E-911 for terrorist response has 
increased. Progress must be made.
    In our June 2001 hearing, we heard that 2005 was a good 
target for widespread implementation, at least in the urban and 
suburban areas. I look forward to learning whether we are on 
track nationwide, and what we can do to get it done faster. I 
would like to point out two conclusions and recommendations in 
the Hatfield Report that I think deserve extra attention today.
    The first is the conclusion that E-911 needs a Federal 
champion and the recommended solution of an office in the 
Department of Homeland Security. I completely agree that a more 
robust Federal coordinating effort is needed, but I am 
concerned that the Homeland Security office may be over 
burdened. In an agency that size, this office could easily be 
lost, and there are congressional oversight issues. Our 
Homeland Security Committee may already have a full plate.
    The second conclusion is that the wireless infrastructure 
that conventional and wireless networks rely on is antiquated 
in large parts of the country and may not withstand increasing 
volumes for many years. On this, I fully support Mr. Hatfield's 
recommendation that local exchange carriers be brought closer 
to the E-911 process in efforts to be made to address their 
recovery.
    Mr. Chairman, I look forward to hearing the panelists 
today, and again, thank you for having the hearing.
    Mr. Upton. Mr. Walden.
    Mr. Walden. Mr. Chairman, I am going to forgo an opening 
statement.
    Mr. Upton. Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman. Mr. Chairman, I want to 
commend you for holding this timely hearing on the progress and 
remaining hurdles of E-911. And I would also like to commend 
the FCC, the public safety community, the Congressional E-911 
Caucus and the wireless carriers for their leadership in making 
E-911 a reality.
    As you know, the wireless carriers are required under the 
commissions rules to deploy E-911 technology in accordance with 
set implementation deadlines. I am pleased to see that many 
carriers are well on their way in implementing Phase I and 
Phase II of the imposed deadline. However, it is quite clear 
that implementation of E-911 is not yet complete, due in large 
part to the readiness of PSAP equipment, ILEC capability, and 
the type of location technology being used.
    I believe that States can play an important role in the 
deployment of E-911 by making it a part of their statewide 
plans for deployment. In my State alone, the State of Illinois, 
we have made significant progress in both Phase I and Phase II 
because our State leaders made E-911 a priority. However, aside 
from this being a priority, there are still 21 counties in the 
State of Illinois that do not have basic E-911 services. So as 
you can see, we have much to do to make E-911 a reality. We 
must provide State and localities with the necessary funding to 
upgrade their PSAP. There still remains many challenges to the 
E-911 program, but we must not lose sight that E-911 saves 
lives. It is well documented that more than 30 to 50 percent of 
emergency calls are made from wireless phones, and it is not 
unreasonable to estimate that this percentage will only 
increase, thus it is imperative that we do all that we can to 
get this program implemented so that first responders are able 
to locate these 911 emergency callers.
    I look forward, Mr. Chairman, to hearing the views of our 
distinguished panelists, and I yield back the balance of my 
time.
    Mr. Upton. Thank you. Mr. Elliott. It is Mr. Engel. Elliott 
is recognized.
    Mr. Engel. Thank you, Mr. Chairman. You can call me 
whatever you like since we are friends. And I appreciate having 
the opportunity to give an opening statement.
    You know, I have just gotten back from North Korea, 13-hour 
time difference. In North Korea, an oppressive regime rules 
with an iron fist, so it feels really good to be back. I want 
to note this on the record because for the days that I was in 
North and South Korea, my cell phone didn't work because the 
Koreans use a different technology than we do, and I don't have 
a multisystem phone yet. But I hope to get one in the future.
    Mr. Upton. Did your Blackberry work?
    Mr. Engel. I left it home. Talk about a fish out of water. 
This hearing is about implementing a vital technology within 
the United States wireless phone industry. The Cellular 
Telephone Industry Association has done, in my opinion, an 
admirable job highlighting people across the country who have 
used their cell phones to call for help. As E-911 is 
implemented, it will enable emergency personnel to quickly and 
reliably respond. But this is a joint public-private effort.
    Recently, New York lost four young men who were adrift off 
City Island in the Bronx, where I am from. They were able to 
use the cell phone to call for help, but couldn't identify 
where they were. The locating technology was not available, 
and, sadly, four young lives were lost. They called and quickly 
were cutoff, and we believe if the technology had been in 
place, we think that their lives could have been saved. The 
emergency operator and supervisor of the center chose not to 
send help, and this was a terrible tragedy. A greater tragedy, 
of course, is that it could easily happen again.
    The National Emergency Number Association was kind enough 
to drop off a huge binder in my office. I have it here, 
detailing county by county, in New York, E-911 rollout in the 
entire State. Since my district encompasses three counties, I 
found that information very useful, but I also found it very 
disturbing. According to their data, six of the seven wireless 
carriers have Phase I service ready to go but--and it is a big 
but--there is not one PSAP in all of the Bronx that is E-911 
ready.
    My own State has collected hundreds of millions of dollars 
in taxes on cell phones. This money was supposed to be used for 
upgrading the public safety answering points with new cell 
phone technology. Instead, it was misappropriated and used for 
anything but. I request unanimous consent to enter into the 
record an audit by the New York State Controller of New York's 
E-911 funding.
    Mr. Upton. Without objection.
    [The audit report is available at http://
www.osc.state.ny.us]
    Mr. Engel. Thank you. So now it is appropriate that that 
the subcommittee is holding an oversight hearing, and I commend 
you for doing so, Mr. Chairman. We have been tough on the 
wireless industry on rolling out this technology and be sure, 
we will continue to do so. However, we must also be tough on 
the States and localities to do their part as well. This is no 
longer just a convenience issue. It is not just a life safety 
issue. This is a vital part of our efforts to secure our 
country. And I thank you very much, and I look forward to the 
testimony.
    Mr. Upton. Thank you Mr. Engel. At this point opening 
statements from the members are over. I will make a unanimous 
consent request that all members of the subcommittee will be 
able to put their opening statement into the record.
    Mr. Bass do you have an opening statement?
    [Additional statements submitted for the record follow:]
    Prepared Statement of Hon. Paul E. Gillmor, a Representative in 
                    Congress from the State of Ohio
    I thank the Chairman for the opportunity to address this important 
issue.
    The number of cell phone users continues to grow, currently 
standing at more than 140 million with an increasing amount of 
households replacing their wireline with wireless service. More 
importantly, a \1/3\ of 911 calls, representing up to 170,000 each day, 
come from a cell phone.
    Delays in implementing E911 capabilities persist emergency after 
accident across the country, even after many states have collected 
varying taxes to pay for such a service. We have all heard reports with 
regard to often unfortunate results when a local dispatcher is unable 
locate a cell phone user calling 911.
    Van Wert County in my rural Ohio district is currently implementing 
Phase I of E911, essentially providing a nearby dispatcher the caller's 
cell phone number and nearest cell tower, narrowing the person's 
location to a couple blocks in a city, or in my district, within a few 
square miles. Less than 3% of counties in Ohio have implemented Phase 
II deployments. While requiring extensive upgrades by wireless 
carriers, dispatchers, and local phone companies, with Phase II E911 a 
caller could be pinpointed within 160 to 330 feet.
    As there has been progress of late, I look forward to hearing more 
about the efforts of wireless carriers, local phone companies, 
dispatchers, and the FCC to further deploy these vital technologies.
    Again, I thank the Chairman and yield back the remainder of my 
time.
                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman.
    I would like to thank you for holding this hearing to assess where 
we are in the implementation of a fully-functioning wireless Enhanced 
911 system. With over 140 million Americans owning wireless phones 
today, there is no question that the deployment of wireless E-911 is a 
pressing priority and part of the foundation of homeland security. 
Additionally, with an increasing number of folks disconnecting their 
landline telephones, and being fully untethered, the benefits of 
America's mature wireline E-911 are available to fewer and fewer 
households each day.
    That's why I am looking forward to the testimony from our broad-
based panel about the hurdles that have impeded the rollout of 
ubiquitous E-911 coverage and how we can smooth the path going forward. 
I understand that the marketplace does not always meet a federal 
agency's timetable, especially when it involves technological 
innovation. But the availability of proven, reliable technology does 
not appear to be the only impediment to full rollout, but one of 
several that I've been told about from wireless companies in Wyoming 
and nationwide. The diversion of funds earmarked for E-911 to other 
state spending programs, the broad and affordable availability of the 
technological solutions to meet the programmatic deadlines, and the 
unique challenges that rural providers face are concerns to me as well.
    I am particularly pleased to be hearing from a Wyoming neighbor, 
Mr. Hatfield from the University of Colorado, who will present 
testimony on his findings and recommendations as the leader of an 
independent inquiry into the implementation of E-911. I am interested 
in hearing your comments on how rural America is proceeding in meeting 
these deadlines and how small, rural providers are faring in efforts to 
comply with FCC mandates.
    As a result of this hearing, I want to know what we can do now, in 
the 108th Congress, that can help companies run the last mile of this 
marathon and give wireless consumers the safety and peace of mind that 
wireless E-911 promises. I also want to ensure that there is not an 
antagonistic relationship between wireless carriers and the FCC. 
Instead, there needs to be cooperation among all of the stakeholders 
and the Commission to ensure the proper final implementation of 
wireless E-911 while preserving the rich variety of competitors 
providing wireless services across the nation.
    Thank you Mr. Chairman, I yield back the balance of my time.
                                 ______
                                 
 Prepared Statement of Hon. Bart Gordon, a Representative in Congress 
                      from the State of Tennessee
    Mr. Chairman, I commend your leadership and foresight in scheduling 
this very important hearing today on E-911.
    Every day, our nation's 911 operational centers and professionals 
save countless lives and improve long-term quality of life following 
emergencies through the work they do. The availability of wireless E-
911 has moved emergency response to a new level.
    Nationwide, more and more people are using wireless E-911 to help 
save a life or report a crime. Almost 50% of our nation's 911 calls now 
come from wireless phones. In my home state of Tennessee, more than 50% 
of 911 calls now originate from wireless phones. This calls attention 
to importance of ensuring that wireless E-911 is available to all 
wireless consumers, particularly those living in rural areas.
    I am very proud that Tennessee continues to be recognized as a 
national leader in E-911 deployment. Tennessee was one of the first 
states to have more than 90% of its counties ready to receive E-911 
Phase I data. As of today, 71 of 95 counties in my state are ready to 
receive and utilize E-911 Phase II data from wireless carriers. At 
least one wireless carrier is providing live Phase II data in 68 
counties. Our state 911 leadership expects to have near 100% of our 
counties E-911 ready by the end of this year. The impressive 
accomplishments of my state's 911 leaders are largely due to one single 
factor--commitment.
    Our state is vastly rural and its terrain very diverse. This poses 
great challenges in providing reliable wireless E-911 service. 
Notwithstanding these challenges, our state's 911 leadership conducted 
a trial in part of my district with multiple wireless companies using 
network and GPS E-911 solutions. The trial was a success--often 
surpassing the FCC location standard to within a few feet. The 
importance of this trial is that it was conducted in the Cumberland 
Plateau region, some of the most challenging terrain for receiving 
terrestrial and satellite-based signals east of the Mississippi River.
    Although we enjoy these successes in Tennessee, we still have work 
to do. Our state's 911 leadership will not rest until the job is done. 
New issues and challenges emerge every day. Some of those fall within 
the purview of the FCC and Congress. I look forward to working with our 
state's 911 leadership on these and other issues. I hope that our 
accomplishments may serve as some guidance or encouragement to other 
states and localities to commit to getting the job done.
                                 ______
                                 
 Prepared Statement of Hon. Albert Wynn, a Representative in Congress 
                       from the State of Maryland
    Mr. Chairman, thank you for holding this hearing.
    Enhanced 911 service, or E-911, is an emergency telephone service 
equipped with new features. The addition of Automatic Number 
Identification and Automatic Location Identification will allow 
emergency service personnel to respond more efficiently and more 
rapidly. As consumers move away from wire line phones due to high cost 
and lack of flexibility, these services become more vital to our way of 
life.
    My primary concern regarding E-911 is that it appears that many 
states are not making Phase II implementation a priority and are 
raiding their E-911 accounts. These funds, intended to prepare Public 
Safety Answering Points, or PSAPs, to utilize new location technology, 
are raised through wireless phone taxes. Unfortunately in the absence 
of significant federal aid, some states have used these accounts to 
supplement budgets and rainy day funds.
    The gap between the progress of E-911 technology and the PSAP site 
technology is preventing states from adequately investing in the 
system. Most wireless carriers are ready to bring wireless E-911 
technology online, but are unable to do so because the PSAPs do not 
have the tools to support available technology. This is distressing 
because the wireless industry has provided millions of dollars to 
purchase and install the technology.
    Public safety and saving lives must always be our first priority. 
E-911 technology can enable us to move into a new era for emergency 
search and rescue.
    It is time for state and local entities to provide sufficient 
resources to realize this essential service that will better equip us 
to more efficiently save lives.
    I look forward to hearing from our witnesses to learn more about 
the steps that are being taken to bring E-911 online sooner.

    Mr. Upton. We will now begin with our panel. And we have a 
very good number of folks that are here today, and we look 
forward--first of all, we appreciate you submitting your 
testimony on time so we were able to read it in advance. Your 
statements are made part of the record in their entirety, and 
we will limit your remarks, opening remarks, to 5 minutes and 
then we will begin with members here. We are joined by Mr.--
first by Mr. Dale Hatfield, Professor Department of 
Interdisciplinary Telecommunications at the University of 
Colorado at Boulder; Mr. John Muleta, Bureau Chief Wireless 
Telecommunications of the FCC; Mr. John Melcher, President of 
the National Emergency Number Association; Mr. Karl Korsmo, 
Vice President of External Affairs for AT&T Wireless; Mr. James 
Callahan, President and Chief Operating Officer of Mobile-Tel 
from Louisiana; Mr. Michael O'Connor, Director of Federal 
Regulatory Policy from Verizon; and Mr. Michael Amarosa, Senior 
Vice President for True Position.
    Mr. Hatfield, we will begin with you. Thank you for making 
the time to come out this way.

 STATEMENTS OF DALE N. HATFIELD, ADJUNCT PROFESSOR, DEPARTMENT 
OF INTERDISCIPLINARY TELECOMMUNICATIONS, UNIVERSITY OF COLORADO 
 AT BOULDER ENGINEERING CENTER; JOHN B. MULETA, BUREAU CHIEF, 
  WIRELESS COMMUNICATIONS, FEDERAL COMMUNICATIONS COMMISSION; 
JOHN MELCHER, PRESIDENT, NATIONAL EMERGENCY NUMBER ASSOCIATION; 
KARL KORSMO, VICE PRESIDENT OF EXTERNAL AFFAIRS, AT&T WIRELESS 
SERVICES; JAMES CALLAHAN, PRESIDENT & CHIEF OPERATING OFFICER, 
    MOBILE-TEL, INC.; MICHAEL O'CONNOR, DIRECTOR OF FEDERAL 
REGULATORY POLICY, VERIZON COMMUNICATIONS; AND MICHAEL AMAROSA, 
   SENIOR VICE PRESIDENT, PUBLIC AFFAIRS, TRUEPOSITION, INC.

    Mr. Hatfield. Thank you very much. Mr. Chairman and members 
of the committee, I greatly appreciate the opportunity to 
appear before you today to discuss issues relating to the 
rollout of wireless E-911 service in the United States.
    As you suggested, Mr. Chairman, I have submitted my full 
written statements for the record, and I will merely summarize 
that testimony now. Before I turn to the substance of my 
testimony, however, I want to emphasize that I am testifying 
here today solely on my own accord, as a private citizen, and 
that, consequently, the views I express, are strictly my own.
    As has been noted in early 2002, the Federal Communications 
Commission retained me to conduct an independent inquiry and to 
produce an accompanying report to the agency on the technical 
and operational rules issues impacting on the provision of 
wireless E-911. My report was submitted to the Commission in 
October of last year, and is available, along with public 
comments on its substance, on the agency's Website. In addition 
to certain background material, the report I prepared for the 
Commission consists of a set of findings and recommendations. 
In my written testimony, I present an overview and commentary 
on my original report, and then offer some concluding 
recommendations for your consideration.
    I will use the balance of my time here this morning to 
summarize those latter recommendations. In the findings section 
of the original report, I noticed a strong Federal interest in 
the nationwide availability of 911. The events of the recent 
past have clearly demonstrated that E-911 is not just an issue 
of safety of life and property on a local level, but one of 
critical importance to homeland security as well.
    As has been stated here several times this morning, given 
the ever increasing proportion of calls originating from 
wireless devices and the growing substitution of wireless 
phones for wireline phones, the need for rapid deployment of 
wireless E-911 becomes more obvious every day. Thus one of the 
key recommendations of my report was that the Commission work 
with the administration and the then nascent Department of 
Homeland Security to establish what I referred to as a National 
E-911 Program Office. My thought was that the proposed office 
within DHS would be a focus of E-911 activity in the executive 
branch and serve as a key resource and advocate for the 
Nation's first responders on issues related to E-911 
deployment. I am now even more convinced of the need for such 
an office. I should note that it was reported in the press that 
Chairman Powell has raised this issue of Secretary Ridge. 
However, in all candor, I have not had the opportunity to 
follow all of the subsequent developments in this area, nor to 
determine whether other institutional arrangements might be 
more appropriate. Congressman Green, in response to your 
comment, I think the key thing is the need for strong Federal 
leadership in this, and where the executive branch 
organizational set-up probably is less important than to make 
sure that it gets the attention it deserves.
    Second, on a related topic, in passing the E-911 Act, the 
Congress directed the Commission, ``to encourage each State to 
develop and implement coordinated statewide deployment plans 
through an entity designated by the Governor for the roll out 
of comprehensive end-to-end emergency communications 
infrastructure and programs.'' There is now evidence that 
suggests that such a statewide or regional coordinating entity 
is a key indicator of the success in the early deployment of 
wireless E-911.
    Despite the clear congressional direction and despite this 
increasing body of evidence, some States have still not created 
a statewide E-911 Coordinator or its equivalent. While I am not 
a lawyer, it seems to me that the Commission itself has limited 
ability to require States to create such an entity. And hence I 
would suggest this subcommittee revisit this issue, given the 
very clear congressional intent and the benefits that 
apparently are achieved when such an entity exists.
    Third, another of my key recommendations was that the 
Commission establish, or cause to have established, an advisory 
committee under the Federal Advisory Committee Act that would 
address the overall technical framework for the further 
development of an evolution of wireless E-911 systems. This 
recommendation was a reflection of, one, my finding that the 
responsibility for making critical decisions relating to 
network architecture were spread over a large number of 
stakeholders and multiple jurisdictions, and two, my concerns 
about the limitations of the current E-911 platform to evolve 
in response to new requirements and handle the growing volume 
of traffic.
    While I am well aware of, and in my prepared testimony I 
call explicit attention to other private and public sector 
coordination activities that address aspects of these larger, 
longer-time network architecture issues, I still have serious 
concerns in this area. For example, since the submission of my 
report, I have gained an even greater appreciation of the 
relationship of wireless E-911 to not only homeland security, 
but to the reliable and seamless delivery of other information 
involving vehicular and personal emergencies relaying that 
information to first responders. This information includes: A, 
hazardous material or HazMat truck incidents; B, auto 
emergencies including for example, information from automatic 
crash identification systems; C, severe weather events such as 
tornadoes and flash flooding. The proliferation of personal 
wireless devices and services including text messaging and PDAs 
with communications adds to the milieu. As another example, a 
product was recently described to me that will produce 
automatic notices of cardiac events with a latitude and 
longitude attached so that emergency personnel can be 
dispatched without delay. Similar devices can be used to find 
missing children or help prevent them from being lost in the 
first place.
    Subsequent to the publication of the report, I have sensed 
some reluctance on the part of stakeholders to embrace the 
notion of the formal advisory committee to address these 
longer-term overriding issues. I believe this reluctance stems 
from timing--more from timing and support and other logistical 
issues associated with the formation of a formal advisory 
committee, rather than the goal that I articulated in the 
report.
    However, my real concern is not the exact form of the 
institutional arrangements, as long as the decisionmaking takes 
place in a transparent process open to all stakeholders. In any 
event, I would urge the subcommittee to satisfy itself that the 
necessary institutional arrangements and resources are in place 
to address these longer-term issues.
    That, Mr. Chairman, completes my testimony, and I would be 
happy to answer any questions of you at the appropriate time.
    Mr. Upton. Again, we appreciate your appearance here, and, 
certainly, every member truly appreciates your hard work and 
the completion of the report. Very, very good.
    [The prepared statement of Dale N. Hatfield follows:]
 Prepared Statement of Dale N. Hatfield, Adjunct Professor, University 
                         of Colorado at Boulder
    Mr. Chairman and Members of the Subcommittee: thank you very much 
for the opportunity to appear before you today to discuss issues 
relating to the rollout of wireless E911 service in the United States. 
As you may be aware, the Federal Communications Commission (``FCC'' or 
``the Commission'') in early 2002 retained me to conduct an independent 
inquiry and to produce an accompanying report to the agency on the 
technical and operational issues impacting on the provisioning of 
wireless E911. In my testimony here today, I will summarize that report 
and provide some additional comments based upon developments that have 
occurred subsequent to its being released in October of last year. 
Before I turn to the substance of my testimony, however, I want to 
emphasize that I am testifying today solely as a private citizen and 
that, consequently, the views that I express are strictly my own.
    The focus of the inquiry that I undertook for the Commission was on 
the future of wireless E911 deployment, including any obstacles to 
deployment and the steps that might be taken to overcome or minimize 
them. My inquiry began in the spring of last year with a large meeting 
of stakeholders, including service providers, technology manufacturers, 
and members of the public safety community. Over the succeeding months, 
I participated in scores of meetings and met with several hundred 
stakeholders that are working very hard to increase the safety of the 
American public through the further development and deployment of 
wireless E911.
    As I mentioned a moment ago, my report was submitted to the 
Commission in October of last year and I have been deeply gratified 
with the generally positive response it has generated. The report--
along with public comments on its substance--is available on the 
Commission's website (www.fcc.gov).<SUP>1</SUP> Since the report has 
been available for some months and in the interests of time, I will not 
go into detail on my findings and recommendations. Rather, I will first 
present a brief overview and commentaries on what I feel are the most 
important points and then offer some concluding remarks based upon more 
recent developments.
---------------------------------------------------------------------------
    \1\ The direct link to the report is: http://gullfoss2.fcc.gov/
prod/ecfs/retrieve.cgi?native__
or__pdf=pdf&id__document=6513296239.
---------------------------------------------------------------------------
    In the findings section of the report, I noted the strong federal 
interest in the nationwide availability of E911 and, on that basis, 
recommended that there be increased coordination between and among the 
relevant federal agencies. The events of the recent past have clearly 
demonstrated that E911 is not just an issue of the safety of life and 
property on a local basis but one of critical importance to homeland 
security as well. Given the ever increasing proportion of calls 
originating from wireless devices and the growing substitution of 
wireless phones for wireline phones, the need for a rapid deployment of 
wireless E911 becomes more obvious every day.
    In the findings, I also raised concerns about the technical 
limitations associated with the existing wireline E911 infrastructure 
and--especially--with its ability to evolve smoothly and efficiently to 
address emerging requirements. Rather than delve into these limitations 
today, I would merely stress the need for a modern infrastructure that 
is not only capable of efficiently and effectively handling traditional 
wireline and wireless E911 calls, but one who's overall architecture 
facilitates the exchange of evolving types of emergency communications 
information between and among federal, state, and local agencies and 
the public that they serve. And, an architecture I might also stress 
that remains true to other public policy values such as competitive and 
technical neutrality and reliance on the competitive marketplace where 
possible.
    This last commentary leads me to another major finding of the 
report. When I undertook the independent inquiry on behalf of the 
Commission, I was generally aware--from my earlier tenure at the 
agency--of what was involved in rolling out wireless E911. As I dug 
into it deeper under my new assignment, what really struck me was the 
overall complexity of the undertaking. As I pointed out a moment ago, a 
variety of critical technical and operational choices--including 
critical decisions relating to network architectures--must be made to 
ensure the reliable and seamless E911 system contemplated by Congress 
when it passed the Wireless Communications and Public Safety Act of 
1999 (``E911 Act'').
    The complexity is exacerbated by the fact that there is no single 
decision-maker--no master architect--for emergency communications 
systems. Instead, decision-making of this type is spread over a large 
number of stakeholders and multiple jurisdictions. Because of the total 
number of stakeholders involved, the complexity of the inter-
relationships among the stakeholders, and the incentives and 
constraints on those stakeholders, I concluded--not surprising 
perhaps--that an unusually high degree of coordination and cooperation 
among public and private entities will be required if this nation is 
going to have the type of modern infrastructure I described and that I 
believe the Congress envisioned in passing the 911 Act. In the report, 
I pointed specifically to the need for coordination and collaboration 
among all stakeholders, public and private, in such areas as overall 
system engineering, project management, and the development and 
adoption of standards.
    In another of the findings, I expressed concern that the rollout of 
wireless E911 service was being hampered by the lack of funding and 
other resources for Public Safety Access Providers--PSAPs--in many 
jurisdictions around the country. I pointed specifically to the lack of 
cost recovery mechanisms in some states, the lack of a ``champion'' 
within the Federal government, and residual awareness and readiness 
issues within the PSAP community. Unfortunately, perhaps, in the 
report, I used the term ``PSAP fatigue'' in referring to some of these 
issues and this was seen by some as a criticism of PSAP efforts. 
Exactly the opposite was true. It was meant to point out they needed 
more support in shouldering an enormous burden.
    Another of the findings in the report related to the role of 
Incumbent Local Exchange Carriers (ILECs) in the provision of E911 
services. I found that, despite the central role that these carriers 
play in some implementations of wireless E911 services, their 
responsibilities had not been adequately defined both in terms of their 
technical requirements and in terms of cost recovery. As an aside, I am 
pleased to note that in the past year the Commission has acknowledged 
these concerns and has taken steps to rectify them.
    Lastly, I found that there appeared to be a lack of well-accepted, 
standardized tests for determining compliance with the Commission's 
location accuracy requirements, including issues regarding geographic 
averaging. I went on to express the concern that this uncertainty could 
ultimately prove to be an impediment to the more rapid deployment of 
wireless E911 systems.
    In light of my findings, I made several recommendations to the 
Commission and I will mention them briefly here.
    First, recognizing both the strong Federal interest in the 
nationwide availability of E911 and the somewhat limited scope of the 
Commission's jurisdiction, I recommended that the Commission work more 
closely with other Federal agencies to encourage a coordinated approach 
in dealing with issues associated with the deployment of wireless E911 
systems. More specifically, I recommended that it work with the 
Administration and, in particular, the then nascent Department of 
Homeland security to establish what I referred to as a ``National E911 
Program Office.'' As I envisioned it, the office within DHS would serve 
as a resource and advocate--or champion--for the Nation's first 
responders on the issue of E911 deployment.
    Second, I recommended that the Commission increase its own 
oversight efforts of E911 during this critical phase of deployment. To 
that end, I recommended that the Commission establish a formal advisory 
Committee that would address the technical framework and longer term 
network architecture issues associated with further E911 development 
and deployment.
    Third, noting that my findings suggested that, in at least some 
situations, deployment of wireless E911 may be hampered by a lack of 
coordination and dialog among the stakeholder groups, I recommended 
that the Commission establish an ``information clearinghouse''--for the 
lack of a better term--that would collect and disseminate information 
critical to deployment so that the stakeholders could better coordinate 
with one another. I also recommended that the Commission work with, and 
appropriately support, the efforts of public, private, and joint 
efforts aimed at speeding the rollout.
    In March of this year, the Commission acknowledged this 
recommendation and announced its E911 Coordination Initiative to bring 
together relevant stakeholders to share experiences and devise 
strategies for expediting E911 deployment. On April 29--about a month 
ago--I was pleased to participate in the first public meeting 
associated with that initiative. I was particularly interested in an 
announcement made by the Commission at the meeting regarding E911 
Tracking and Coordination Management. Since this effort is likely to be 
described in other testimony here today, I will simply say that it 
exemplifies the enhanced ``information clearinghouse'' role that I 
envisioned in my report.
    While I am on this topic, let me digress briefly to say that, since 
the publication of the report, I have been gratified to see what I 
perceive as an overall increase in such coordination and communication 
among stakeholders and an associated general increase in the level of 
priority and awareness of the importance of E911 among policy makers, 
industry and the general public. In addition to the Commission's own 
Wireless E911 Coordination Initiative which I just mentioned, other 
activities, which I believe you will also hear more about today, 
include the Department of Transportation's Wireless E911 Steering 
Council, the Emergency Services Interconnection Forum jointly sponsored 
by the Alliance for Telecommunications Industry Solutions --ATIS--and 
the National Emergency Number Association--NENA, the Association of 
Public Safety Communications Officers'--APCO's--Project Locate, and 
NENA's Strategic Wireless Action Team--SWAT--Initiative. The latter, 
for example, provides a forum for communications among public safety 
organizations, wireless carriers, wireline carriers, state 
representatives and other participants. As I understand it, the course 
of action that they are following is intended to build on the input of 
the various stakeholders and to develop consensus recommendations among 
the various parties. Significantly, in my mind, it includes the 
resources to conduct supporting analyses to inform and shape the 
process. While I cannot--and should not--endorse any of the results 
that they are obtaining, I do believe that it represents the sort of 
collaborative process which is required for sustainable progress in 
E911 deployment to occur in an extremely complex environment.
    Returning to my recommendations, my fourth suggestion was for the 
development of industry wide procedures for testing and certification 
of wireless E911 systems to ensure that they meet the Commission's 
accuracy requirements. I also recommended that the Commission undertake 
to more clearly define those requirements to eliminate any remaining 
uncertainty as to what constitutes compliance.
    I would like to close my testimony by making a few specific 
recommendations based upon the current situation in wireless E911 
deployment. These concluding recommendations are not intended to be 
comprehensive; rather, they reflect some areas that I believe--based 
upon my inquiry and subsequent events--would benefit from the 
Subcommittee's attention.
    First, as I noted earlier, one of the key recommendations of my 
report was that the Commission work with the Administration, and the 
then nascent Department of Homeland Security, to establish what I 
referred to as a ``National E911 Program Office.'' My thought was that 
the proposed office within DHS would be a focus of E911 activity in the 
Executive Branch and serve as a key resource and advocate for the 
Nation's first responders on issues related to E911 deployment. I am 
now even more convinced of the need for such an office. I should note 
that it was reported in the press that Chairman Powell has raised this 
issue with Secretary Ridge. However, in all candor, I have not had the 
opportunity to follow all of the subsequent developments in this area 
nor to determine whether other institutional arrangements might 
suffice. Because of its importance, I would further urge this 
Subcommittee in its oversight and legislative role to ensure that the 
needs I identified in my inquiry are being met within the Federal 
government.
    Second, on a related topic, in passing the E911 Act, the Congress 
directed the Commission to ``. . . encourage each state to develop and 
implement coordinated statewide deployment plans through an entity 
designated by the governor . . .'' for the rollout of ``. . . 
comprehensive end-to-end emergency communications infrastructure and 
programs . . .'' There is now evidence that suggests that such a 
statewide and/or regional coordinating entity is a key indicator of 
success in the early deployments of wireless E911. Despite the clear 
Congressional admonition and despite this increasing body of evidence, 
some states still have not created a statewide E911 coordinator or its 
equivalent. While I am not a lawyer, it seems clear that the Commission 
itself has limited ability to require states to create such an entity 
and, hence, I would urge this Subcommittee to revisit this issue given 
the clear Congressional intent and the benefits that apparently are 
achieved where such an entity exists. To my dismay, there have also 
been widely reported instances where state E911 cost recovery funds 
have been diverted to other, unrelated purposes. This is apparently 
true even though customers paying the itemized charge are likely to 
believe that the service is available to them. Again, I am unclear as 
to what jurisdiction, if any, the Commission has to deal with these 
instances but clearly it is an area that the Subcommittee may want to 
address.
    Third, another of my key recommendations was that the Commission 
establish, or cause to have established, an advisory committee (under 
the Federal Advisory Committee Act) that would address the overall 
technical framework for the further development and evolution of 
wireless E911 systems. This recommendation was a reflection of my 
finding that the responsibilities for making critical decisions 
relating to network architectures were spread over a large number of 
stakeholders and multiple jurisdictions. While I am well aware of--and 
earlier in this testimony explicitly called attention to--other private 
and public sector coordination activities that address aspects of these 
larger, longer term network architecture issues, I still have serious 
concerns in this area.
    For example, since the submission of the report, I have gained an 
even greater appreciation of the relationship of wireless E911 to not 
only homeland security but to the reliable and seamless delivery of 
other information relating to vehicular and personal emergencies to 
first responders--a point I alluded to earlier. This includes 
information involving (a) hazardous material (hazmat) truck incidents, 
(b) automobile emergencies including, for example, information from 
automatic crash notification systems, and (c) severe weather events 
such as tornadoes and flash flooding. The proliferation of personal 
wireless devices and services, including text messaging and personal 
digital assistants (``PDAs'') with communications capabilities, adds to 
the milieu. As another example, a product was recently described to me 
that will produce automatic notices of cardiac incidents--with latitude 
and longitude attached. Similar devices that can be used to find 
missing children--or to help prevent them from becoming missing in the 
first place--are envisioned.
    Subsequent to the publication of the report, I have sensed some 
reluctance on the part of stakeholders to embrace the notion of a 
formal advisory committee to address these longer term, over-arching 
issues. I believe this reluctance stems more from timing, support, and 
other logistical issues associated with a formal advisory committee 
rather than on the goal that I advocated. However, my real concern is 
not the exact form of the institutional arrangements as long as the 
decision-making takes place in an open and transparent process 
available to all stakeholders. In any event, I would urge the 
Subcommittee to satisfy itself that the necessary institutional 
arrangements and resources are in place to address these longer term 
issues.
    That, Mr. Chairman, completes my testimony and I would be happy to 
answer any questions at the appropriate time.

    Mr. Upton. Mr. Muleta, welcome back.

                   STATEMENT OF JOHN B. MULETA

    Mr. Muleta. Thank you. Good morning, Mr. Chairman, and 
members of the subcommittee. I appreciate this opportunity to 
appear before you on behalf of the FCC to discuss our work in 
support of deployment of wireless E-911.
    This hearing is an important opportunity to encourage 
progress in this critical public safety matter, and I commend, 
in particular, Representatives Shimkus and Eshoo and other 
members of the E-911 Caucus for their leadership in this area.
    Whether calling from a regular wireline phone or a mobile 
phone, Americans today demand assurances from public officials 
that 911 calls will result in immediate assistance. This fact 
makes all too clear the importance of a speedy deployment of 
technology to insure automatic location identification. It is a 
crucial element in responding to the emergency situations 
described earlier.
    Although few Americans even owned mobile phones prior to 
the last decade, public safety answering points, the PSAPs, now 
report that they receive 30 to 50 percent of emergency calls 
from wireless phones. Some PSAPs even reportedly receive up to 
60 or 70 percent of their calls from wireless phones. Unlike 
wireline phones, where the callers location is identified 
through the address associated with telephone number, wireless 
phones, which are mobile, present additional technological 
challenges with respect to automatic location identification. I 
am here today to report on the Commission's progress in 
ensuring rapid wireless E-911 deployment, and to convey the 
fact that the chairman, the commissioners, and I all have E-911 
implementation as one of our foremost priorities.
    In the past few months, additional strides toward wireless 
E-911 deployment have been made. The deployment of wireless E-
911 has never been intended to be a flash cut process, but a 
gradual phase-in over several years. Wireless E-911 is a very 
complex undertaking that presents new and unique technical 
challenges and requires a great deal of coordination among a 
very disparate group of governmental and commercial entities.
    Despite these challenges, wireless E-911 is now becoming a 
useful reality. Deployment of Phase I service is very well 
underway. Of the Phase I requests received from PSAPs, the six 
nationwide carriers have on average today fulfilled 
approximately 75 percent of these requests. This is information 
coming from the latest quarterly reports as of the end of April 
of this year. In terms of the Phase II, the rollout of Phase II 
of the E-911 service, that depends in large part on when this 
PSAP makes a request to the wireless carrier for Phase II 
service. PSAPs must have the ability to upgrade their systems 
to receive the location information and to also have cost 
recovery mechanisms in place before a wireless carrier must 
implement Phase II pursuant to the PSAP's request. 
Unfortunately, as has been noted this morning, many 
jurisdictions do not appear to have the funding required to 
upgrade their PSAP infrastructure so that they are 
technologically ready to support Phase II implementation. 
According to the reports submitted to the FCC by the nationwide 
wireless carriers, Phase II was deployed in 25 States as of the 
quarter ending this April. The six nationwide carriers have 
also implemented Phase II E-911 in approximately 400 markets 
covering approximately 800 unique PSAPs.
    Although this is a great development this represents only a 
fraction of the PSAPs that operate in the country. Multiple 
wireless carriers are also providing Phase II service to their 
customers in Metropolitan areas such as Houston, Dallas/Fort 
Worth, Chicago, East St. Louis, as well as Rhode Island. At 
least one wireless carrier has deployed Phase II service in 
cities such as Kansas City, Miami, Richmond, San Antonio, and 
Indianapolis. Mid-sized carriers have also begun deploying 
Phase II. These carriers have deployed in smaller cities such 
as Charlotte, North Carolina; Amarillo, Texas; and Bristol, 
Tennessee, as well as in rural areas of Arkansas, Alabama, 
Illinois, Kansas, Minnesota, Missouri, North Carolina, South 
Carolina, Tennessee, and Texas.
    Additionally, with respect to location-capable handsets, 
another part of the technology that needs to be in place, every 
nationwide carrier using a handset-based approach is offering 
at least one location-capable handset model in accordance with 
applicable benchmarks. Last month, for example, Verizon 
Wireless reported that it is offering its customers ten 
different GPS-enabled handset models. Sprint PCS is offering 15 
location-capable handset models. Sprint also reported that it 
sold over 8.8 million handsets, GPS-enabled handsets, into the 
marketplace. Midsize carriers are also offering these location-
capable handsets. AllTel, in one case, is currently selling 
eight models while United States Cellular has five GPS-enabled 
handsets for sale.
    The FCC's role in promoting successful implementation 
deployment of nationwide wireless E-911 is focused on four 
distinct areas. First implementation, second enforcement, third 
investigation of technical and operational challenges, and 
fourth outreach and coordination. Although we are focused on 
all four parts, in recent months it has become more apparent 
that the technical issues no longer represent a major barrier 
to wireless E-911 implementation. Instead it has become more 
important that we focus on greater coordination and for 
establishing greater funding certainty in the implementation of 
E-911. As a result, the Chairman and the Bureau's focus has 
increasingly turned to coordination and outreach efforts as 
essential components as part of FCC's efforts to facilitate E-
911 implementation.
    Most recently, the Commission embarked on the kick-off 
meeting of its E-911 Coordination Initiative held on April 29th 
at the Commission. This widely attended meeting provided us all 
a foundation for a new era of cooperation among all the 
entities. It did bring together all parties, including Federal, 
State, public safety community, and wireless carriers and ILECs 
to the table. We identified a number of issues that can be 
addressed on an ongoing coordination. We hope to have another 
coordination initiative meeting in the fall.
    We are also working closely with folks and all the 
technical scientific groups that are working to get all the 
hurdles out of the way.
    As a final matter, I would like to just emphasize that this 
E-911 implementation is a very important project for the 
Commission, and we are focussed on it, and we look to help the 
subcommittee and its members in any way we can to advance this 
interest.
    Thank you, Mr. Chairman.
    [The prepared statement of John B. Muleta follows:]
         Prepared Statement of John B. Muleta, Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission
    Good morning, Mr. Chairman and Members of the Subcommittee. I 
appreciate this opportunity to appear before you on behalf of the 
Federal Communications Commission (FCC) to discuss our work in support 
of the deployment of Enhanced 911 (E911) wireless services throughout 
the United States. This hearing is an important opportunity to 
encourage progress in this critical public safety matter, and I commend 
in particular Representatives Shimkus and Eshoo and the other members 
of the Congressional E911 Caucus for their leadership in this area.
                            i. introduction
    In recent years, we have seen a heightened sensitivity to the 
importance of crisis management and an emphasis on improving emergency 
response systems. The effectiveness of these systems is tied in part to 
the ability of the public to reach first responders in times of crisis. 
Whether calling from a regular wireline phone or a mobile phone, 
Americans today demand assurances from public officials that 911 calls 
will result in immediate assistance.
    Most Americans have long taken it for granted that their 911 phone 
calls automatically identify their location to emergency call takers. 
We know all too well that this is not the case in today's world, 
especially with wireless phones. This mistaken belief of the 
infallibility of 911 reception and location pinpointing highlights the 
importance of the speedy deployment of technology to ensure automatic 
location identification.
    Although few Americans even owned mobile phones prior to the last 
decade, Public Safety Answering Points (PSAPs) now report that they 
receive 30 to 50 percent of emergency calls from wireless phones. Some 
PSAPs reportedly receive upwards of 60 or 70 percent of their 911 calls 
from wireless phones. Unlike wireline phones, where the caller's 
location is identified through the address associated with the 
telephone number, mobile phones, present additional technological 
challenges with respect to automatic location identification.
    Ensuring that each American using a wireless phone has enhanced 911 
capabilities has been an important goal of the FCC's for at least the 
past seven years. The Commission developed wireless E911 rules to 
mandate the development and deployment of wireless 911 automatic 
location identification technology prior to commercial demand for that 
product. The FCC's initial decision in 1996 to impose an E911 
requirement on mobile wireless carriers was not based on any statutory 
mandate, nor was it based on any tangible technological showing. 
Nonetheless the Commission believed such a requirement served the 
public interest.
    Congress confirmed that assessment and added momentum to the 
Commission's activities with the passage of S. 800, the Wireless 
Communications and Public Safety Act of 1999. This legislation mandated 
911 as the universal number for emergency calls and aided E911 
implementation by addressing key issues such as privacy and carrier 
liability. It also required the FCC to continue coordination efforts in 
this area, which we have done most recently through the E911 
Coordination Initiative.
    The Commission launched its E911 Coordination Initiative in 
response to the need for greater coordination among all stakeholders, 
including the FCC, wireless carriers, PSAPs, location technology 
vendors, incumbent local exchange carriers (ILECs), local and state 
governments, equipment manufacturers, and 911 service providers. The 
purpose of the Coordination Initiative is to complement current efforts 
by those parties to speed and rationalize the E911 deployment process, 
and to ensure that all parties and the public have clear expectations 
about the roles of the respective parties and their deployment plans. 
Implementation is an extremely complex process, and the Commission has 
taken firm steps to require that wireless carriers assume their 
responsibility in ensuring that the deployment of wireless E911 is not 
unnecessarily delayed.
    It is important to note that not all aspects of E911 deployment are 
within the Commission's control. For example, financial support and 
assistance from state and local authorities to provide funding to the 
PSAPs for their part in this important initiative is also imperative. 
We know that members of Congress and particularly members of this 
Subcommittee share the Commission's goal that the entire Nation should 
have access to wireless E911 services as soon as practicable. We intend 
to work actively to facilitate E911 deployment as quickly and 
efficiently as possible.
                      ii. wireless e911 deployment
    The deployment of E911, because of technological and other 
challenges, was never intended to be a flash-cut process, but a gradual 
phase-in over several years. The Commission's initial E911 decision in 
1996 was based in large part on a consensus agreement developed by the 
wireless carrier and public safety communities and established two 
phases of E911 deployment. Phase I requires carriers to deploy a 
service that provides the telephone number of the 911 caller and the 
location of the cell site or base station receiving the 911 call. Phase 
II service requires wireless carriers to provide precise location 
information for wireless E911, within certain accuracy parameters.
    Despite the challenges inherent in effectuating rollout for between 
5,000 and 7,000 diverse PSAPs nationwide, wireless E911 is becoming a 
reality. Deployment of Phase I service is well under way. Of the Phase 
I requests received from PSAPs, the six nationwide carriers have, on 
average, fulfilled approximately 75 percent of these requests. Phase II 
has required special attention. Because of technological challenges 
associated with Phase II deployment, the FCC has allowed nationwide 
wireless carriers to commit to individual compliance plans. Where 
wireless carriers have violated the terms of their compliance plans, 
these violations have led to enforcement actions.
    The precise rollout of Phase II service, like that of Phase I, 
depends in large part on when the PSAP makes a request to the wireless 
carrier for Phase II service. PSAPs must have the ability to upgrade 
their systems to receive location information and have cost-recovery 
mechanisms in place before a wireless carrier must implement Phase II 
pursuant to a PSAP request. Unfortunately, many jurisdictions appear 
not to have the required funding to upgrade their PSAPs so that they 
are technologically ready to support Phase II implementation.
    Phase II implementation requires wireless carriers to select either 
a handset-based or network-based solution. Wireless carriers that use 
network-based solutions must deploy Phase II capability to 50 percent 
of the PSAP's coverage area or population within six months of a valid 
request, and to 100 percent of the PSAP's coverage area or population 
within 18 months of a PSAP request, unless the parties agree upon a 
different schedule. Wireless carriers choosing a handset-based solution 
must complete any necessary upgrades to their systems within six months 
of a PSAP request. Additionally, the rules provide for specific 
benchmark dates by which these carriers must begin to sell and activate 
a certain percentage of handsets that provide location information. By 
December 31, 2005, these carriers must ensure that 95 percent of their 
customers' handsets are location-capable.
    The 2005 date is popularly referred to as the final implementation 
date of Phase II wireless E911. It is worth noting, however, that the 
December 31, 2005 date requires only that carriers choosing a handset-
based Phase II solution ensure that at least 95 percent of their 
subscribers have location-capable handsets. By that date, the FCC also 
anticipates that carriers using network-based solutions will have 
deployed Phase II at many more PSAPs, but precisely when each PSAP 
becomes Phase II capable is dependent on the timing of the PSAP request 
and the PSAP's readiness. As the Commission does not have jurisdiction 
over PSAPs, there is no corresponding requirement that PSAPs actually 
be able to receive Phase II data at that time.
    According to reports submitted to the FCC by the nationwide 
wireless carriers, Phase II has been deployed in 25 states, to 
approximately 400 localities across the country, and more than 800 
PSAPs. Multiple wireless carriers are providing Phase II service to 
their customers in metropolitan areas such as Houston, Dallas/Fort 
Worth, Chicago, East St. Louis, as well as Rhode Island. At least one 
wireless carrier has deployed Phase II service in cities such as Kansas 
City, Miami, Richmond, San Antonio, and Indianapolis. Mid-sized 
carriers have also begun deploying Phase II. These carriers have 
deployed in smaller cities such as Charlotte, North Carolina, Amarillo, 
Texas, and Bristol, Tennessee, and in rural areas of Arkansas, Alabama, 
Illinois, Kansas, Minnesota, Missouri, North Carolina, South Carolina, 
Tennessee, and Texas.
    Additionally, with respect to location-capable handsets, every 
nationwide carrier using a handset-based approach is offering at least 
one location-capable handset model, in accordance with applicable 
benchmarks. Last month, Verizon Wireless reported that it is offering 
its customers ten different GPS-enabled handset models, and Sprint PCS 
is offering fifteen location-capable handset models. Sprint reported 
that it has sold over 8.8 million GPS-enabled handsets.
          iii. fcc actions promoting continued e911 deployment
    To further promote the successful implementation and deployment of 
nationwide E911, the FCC has engaged in four major areas of activity: 
(1) enforcement, (2) implementation, (3) investigation of technical and 
operational challenges, and (4) outreach and coordination. As discussed 
below, all four areas are essential to ensure that E911 deployment 
moves forward as swiftly and effectively as possible.
A. Enforcing FCC Directives
    The FCC has not hesitated to use its enforcement power when 
wireless carriers are not justified in failing to meet the FCC's 
requirements. When the FCC reported to the House Telecommunications 
Subcommittee on the status of E911 in 2001, we indicated that 
individual compliance plans for the nationwide carriers were in place. 
Since that time, the Commission has taken the following actions where 
carriers have failed to comply with these plans:

<bullet> Entered into consent decrees with AT&T Wireless (June 2002) 
        and Cingular Wireless (May 2002) regarding deployment of E911 
        over their Time-Division Multiple Access (TDMA) Networks, 
        notwithstanding the fact that both carriers plan to phase out 
        much of their TDMA networks as they transition to the Global 
        System for Mobile Communications (GSM) standard. These consent 
        decrees require AT&T Wireless and Cingular Wireless each to 
        make a $100,000 voluntary contribution to the U.S. Treasury, to 
        deploy E911 Phase II technology at their TDMA cell sites, and 
        to provide Phase II service in response to PSAP requests by 
        specified benchmark dates. The consent decrees also require the 
        carriers to make automatic penalty payments for failure to 
        comply with deployment benchmarks and to submit periodic 
        reports on the status of their compliance efforts. Both 
        carriers have met their benchmarks to date: AT&T Wireless has 
        deployed Phase II technology to over 2,000 cell sites, with 
        nearly 1,200 of those sites currently providing Phase II 
        service, and Cingular has deployed Phase II technology at over 
        2,400 cell sites, with Phase II operational in nearly 1,700 of 
        those sites.
<bullet> After issuing a Notice of Apparent Liability against AT&T 
        Wireless for apparent E911 violations concerning its GSM 
        network, the Commission and AT&T Wireless entered into a 
        consent decree in October 2002 to address these apparent 
        violations. This decree requires AT&T Wireless to make a $2 
        million voluntary contribution to the U.S. Treasury, to deploy 
        E911 Phase II technology at its GSM cell sites and provide 
        Phase II service in response to PSAP requests by specified 
        benchmark dates. The consent decree also requires AT&T to make 
        automatic penalty payments for failure to comply with 
        deployment benchmarks and to submit periodic reports on the 
        status of its compliance efforts. AT&T Wireless has met its 
        benchmarks to date, reporting that it has deployed Phase II 
        technology to 2,000 cell sites on its GSM network.
<bullet> In March, the FCC issued a Notice of Apparent Liability 
        against T-Mobile for apparent E911 violations relating to its 
        Phase I deployment, finding T-Mobile apparently liable for a 
        forfeiture in the amount of $1,250,000.
<bullet> Recently, the Enforcement Bureau initiated an investigation 
        into Cingular Wireless's and T-Mobile's deployment of E911 
        Phase II with respect to their GSM networks and will make a 
        recommendation to the FCC shortly on how to proceed. We hope to 
        have compliance plans and schedules in place soon.
    The Commission continues to monitor each carrier's progress in 
deploying Phase I and Phase II E911 and to investigate alleged failures 
to meet FCC-mandated benchmarks. Where warranted, the FCC will continue 
to take quick action to ensure that wireless carriers comply with the 
FCC's E911 rules and regulations. In other cases where the public 
interest warrants, we have provided additional flexibility in 
situations where delayed compliance is beyond the wireless carrier's 
control. Such cases are carefully scrutinized and reviewed.
    It is worth noting that the three wireless carriers deploying GSM 
networks have experienced difficulties in meeting their benchmarks due 
to technology problems. The Commission has met repeatedly with these 
carriers to emphasize the seriousness of the existing benchmarks. 
Further, these carriers were referred to the FCC's Enforcement Bureau. 
Within the past several months, all three carriers have announced their 
decision to switch location technologies to ensure more rapid 
deployment and improved performance of their E911 systems.
B. Moving Towards Full Implementation
    Although significant progress is being made, we still have a long 
way to go before wireless E911 is deployed across the Nation. In 
addition to actively enforcing the existing rules, the FCC is also 
looking at new ways to help speed and smooth E911 implementation. To 
this end, over the past year, the FCC has made a number of E911-related 
rulings, including:

<bullet> Setting a deployment schedule for smaller, including many 
        rural, non-nationwide carriers to begin to provide E911 
        service. Under this schedule, mid-sized carriers were required 
        to begin deployment by March 1, 2003 and small carriers are 
        scheduled to begin deployment this fall. Like the nationwide 
        carriers, mid-sized carriers must report regularly on their 
        E911 deployment progress, and smaller carriers must provide a 
        report outlining their plans for E911 deployment later this 
        summer.
<bullet> Clarifying PSAP readiness issues and providing for a 
        certification process for wireless carriers where wireless 
        carriers have completed all necessary steps toward E911 
        implementation that are not dependent on PSAP readiness.
<bullet> Providing guidance on cost recovery issues regarding the 
        demarcation point between PSAPs and carriers.
<bullet> Issuing a Further Notice of Proposed Rulemaking seeking public 
        comment on whether and how the 911 and E911 rules should apply 
        to technologies not currently covered by the rules, such as 
        Mobile Satellite Service, telematics services, and emerging 
        voice services and devices; and seeking updated information on 
        issues involved with the delivery of callback and location 
        information on 911 calls from stations served by Multi-Line 
        Telephone Systems, such as PBXs. This item provides an early 
        forum for the possible extension of our 911 and E911 rules.
    In other instances, the Commission directly responded to concerns 
raised by several of the national public safety organizations regarding 
the unnecessary diversion of PSAP resources to respond to unintentional 
or harassing 911 calls from wireless phones. In October 2002 and 
pursuant to a specific public safety request, the Commission issued a 
public notice clarifying that its 911 call-forwarding rule does not 
preclude wireless carriers from blocking fraudulent 911 calls from non-
service initialized (NSI) phones pursuant to state and local laws. The 
public notice highlighted the waste of public safety resources that 
results from fraudulent 911 calls made from NSI handsets, which lack a 
call back number. The Commission continues to look at the issue of NSI 
wireless phones through an ongoing proceeding.
    In December 2002, the Commission released a Staff Report on 
unintentional wireless 911 calls, which occur when a consumer 
accidentally dials 911, often through use of a pre-programmed auto-dial 
key. The report confirmed that unintentional wireless 911 calls pose a 
significant problem for PSAPs, and outlined steps that industry 
participants can and should take to address the problem. For example, 
the major wireless carriers have requested that their vendors cease 
shipping phones with an active, auto-dial 911 feature. In nearly all 
cases, wireless phones distributed by these carriers have not had an 
auto-dial 911 feature since at least February of 2002. In addition, the 
Cellular Telecommunications and Internet Association (CTIA) has 
modified its handset certification program such that certified handsets 
may not be pre-programmed with an auto-dial 911 feature.
    The FCC has also received a commissioned report of an independent 
expert, Dale Hatfield, which examined the technical and operational 
issues affecting wireless E911 implementation. Mr. Hatfield, a widely 
respected telecommunications expert with nearly four decades of 
experience, met with interested parties to elicit more detailed 
information regarding E911 deployment issues. In October 2002, he 
released a report to the Commission containing his findings and 
recommendations. The Commission sought public comment on the Hatfield 
Report late last year.
    In his report, Mr. Hatfield made a number of findings identifying 
obstacles to E911 deployment, which include:

<bullet> Wireless carrier implementation issues
<bullet> ILEC cost recovery and technical issues
<bullet> Cost recovery and PSAP funding issues
<bullet> Ongoing need for PSAP education, assistance, and outreach
<bullet> Lack of comprehensive stakeholder coordination
    While the FCC had already become aware of many of the issues raised 
in the Hatfield Report and was working on potential solutions, the 
Hatfield Report suggested many novel approaches, which the FCC is 
actively studying and, in some cases, implementing. For instance, the 
Commission is taking a greater role in formal coordination through the 
FCC's E911 Coordination Initiative.
C. Overcoming Technical and Operational Challenges
    The Hatfield Report confirmed that ILECs play a critical role in 
the deployment of wireless E911 service. ILECs generally serve as 911 
system operators, providing trunks, facilities, and services necessary 
to connect wireless carriers and PSAPs. For Phase II, they also provide 
the Automatic Location Identification (ALI) databases that are used for 
wireline 911 and must be upgraded to accommodate wireless ALI data. The 
FCC has sought cooperation from the ILECs to fulfill their E911 
implementation role. In response to concerns from both the PSAP and 
wireless communities, late last summer, the FCC requested additional 
information from the six major ILECs regarding their role in E911 
deployment, including specific information on technical issues and cost 
recovery plans.
    Additionally, Commission staff has been working with state 
commissions, wireless carriers, PSAPs, and ILECs regarding specific 
cost issues that have been brought to our attention. In one instance, 
the Commission staff issued a letter regarding a dispute over 
responsibility for the costs to upgrade ALI databases for purposes of 
deploying wireless E911 Phase II service. We fully intend to take 
action where appropriate to ensure that actual wireless E911 deployment 
is not delayed because of perceived regulatory disputes. In an Order 
released last fall, the Commission similarly expressed concern over the 
potential for delay due to a lack of cooperation by the ILECs and noted 
that it would consider enforcement actions or additional regulatory 
obligations, if necessary.
    The Hatfield Report also confirmed that there continue to be E911 
implementation issues beyond the Commission's purview. Specifically, we 
note that PSAP funding continues to be a significant barrier to 
deployment. Although cost recovery mechanisms are in place in a number 
of states, these funds have on occasion been diverted for other uses 
unrelated to E911. If PSAPs do not have funds in place to upgrade their 
systems, Phase II service will not be implemented in those areas. We 
know that this issue already has been raised by the Congressional E911 
Caucus, and we applaud its efforts to resolve this critical issue. This 
issue was one of the numerous issues addressed at the E911 Coordination 
Initiative's April 29 meeting.
    Other issues that have been raised with the FCC include E911 
compliance following the implementation of Local Number Portability and 
how to overcome related technical difficulties, and E911 accuracy 
concerns associated with rural carriers, particularly those with TDMA 
networks. We are currently evaluating these issues, and hope to have 
further guidance on these issues later this year.
D. Coordination and Outreach
    Wireless E911 implementation is a highly complex process that 
requires an enormous amount of coordination. Both coordination and 
outreach are essential components in the Commission's ongoing effort to 
facilitate E911 implementation. Most recently, the Commission kicked-
off of the E911 Coordination Initiative on April 29, 2003.
    This widely attended meeting brought together representatives from 
the federal government, the public safety community, wireless carriers, 
ILECs, and other interested stakeholders to share experiences and 
devise strategies for expediting E911 deployment. All of the 
Commissioners participated in the event, as did Dale Hatfield, who gave 
a brief oral report.
    The meeting addressed ongoing implementation issues such as PSAP 
funding, wireless carrier implementation and prioritization, issues 
relating to LECs, and challenges faced by rural carriers. Panelists 
shared their success stories on the various topics, in order to inform 
other similarly situated stakeholders how to overcome deployment 
obstacles. The stakeholders addressed a number of themes, including:

<bullet> Strong leadership and vision is essential to ensure swift E911 
        deployment
<bullet> State or regional E911 points of contact are critical for 
        carriers to ensure swift deployment
<bullet> For PSAP readiness, cost recovery and proper management and 
        distribution of funds are key steps toward ensuring wireless 
        E911 rollout
    This meeting was the first in a series of more formal coordination 
efforts to allow the Commission to facilitate E911 deployment. The next 
meeting of the E911 Coordination Initiative will take place in the 
fall.
    In addition to the Coordination Initiative, both my Bureau and the 
Consumer & Governmental Affairs Bureau (CGB) have provided ongoing 
outreach to consumers, public safety, tribal governments and state 
legislators on E911 issues. CGB staff will be meeting with the National 
Association of Regulatory Utility Commissioners, the National Congress 
of American Indians and the National Conference of State Legislators 
this summer to discuss the FCC's E911 Coordination Initiative and to 
discuss ways we can work together to speed E911 implementation. To 
educate the public, CGB recently established a Consumer Alert on 
unintentional 911 calls and WTB has established a web page focused 
solely on 911 and E911 issues.
    The FCC has also established points of contact designated by the 
Governors in all 50 states and three of the U.S. territories to work 
jointly to identify E911 funding and deployment solutions. The FCC 
expects to hold an E911 roundtable later this year with the Governors' 
designees as part of an ongoing dialogue to discuss E911 options and 
identify solutions. Additionally, the FCC intends to engage its Local 
and State Government Advisory Committee to work on the development of a 
state-by-state funding and implementation survey. The Commission also 
will continue working with tribal governments to facilitate the 
deployment of E911 on tribal lands. Through these cooperative efforts, 
the FCC seeks to facilitate the expeditious deployment of E911.
    We also have been monitoring the E911 coordination efforts of other 
organizations to enhance stakeholder coordination and applaud the joint 
efforts of industry and public safety. For example, public safety 
outreach efforts such as the National Emergency Numbering Association's 
Strategic Wireless Action Teams Initiative and the Association of 
Public-Safety Communications Officials' Project Locate have been 
instrumental in ensuring that local PSAPs are aware of their 
responsibilities and assisting with on-the-ground implementation 
efforts. Additionally, the joint industry and public safety group, 
Emergency Services Interconnection Forum (ESIF), an arm of the Alliance 
for Telecommunications Industry Solutions, has worked to develop and 
refine technical and operational interconnection issues to ensure 
wireless 911 will be available to everyone.
    Earlier this year, ESIF submitted to the Commission a PSAP 
Readiness Package, which was developed through the joint efforts of 
wireless carriers, 911 service system providers, and public safety 
organizations. This serves as a useful tool for PSAPs that are 
unfamiliar with the E911 request process. The Department of 
Transportation (DOT) has also established a Wireless E-911 Initiative, 
which includes efforts to bring national leadership and attention to 
the E911 issue, to provide technical assistance and guidance and 
training to accelerate PSAP readiness, and to engage the Nation's 
leading information technology experts in a reexamination of the 
technological approach to E911. FCC and DOT staffs have been actively 
involved in coordination; FCC staff has attended DOT's Wireless E-911 
Initiative Steering Council meetings and DOT in turn participated in 
the FCC's Coordination Initiative meeting. Most recently, DOT issued a 
Wireless E911 Initiative Priority Action Plan outlining six urgent 
priorities to E911 deployment, and I commend the DOT for its efforts.
                             iv. conclusion
    Wireless communications have become increasingly important to our 
national communications infrastructure and in our everyday lives. The 
United States is the only nation in the world that has required that 
all wireless calls have E911 capability to assist the public safety 
community in performing their vital work. All the stakeholders who have 
worked on this process--Congress, the public safety community, wireless 
carriers, ILECs, state and local governments, equipment vendors, 
technology vendors, and the Commission--should be proud of this 
accomplishment. These very same stakeholders must continue to be 
diligent in completing the availability of Nationwide E911 in the near 
future.
    For its part, the Commission continues to make wireless E911 
deployment one of its highest priorities. We have come a long way, and 
through some difficult times, but we are optimistic about the future of 
wireless E911. We appreciate Congress's efforts, and in particular, the 
efforts of members of this Subcommittee, to keep this issue in the 
forefront. We plan to continue our efforts on various fronts, but 
especially, the E911 Coordination Initiative, to ensure that E911 
deployment continues apace.
    I would like to thank the Subcommittee for this opportunity to 
provide information on wireless E911. I look forward to hearing your 
views and answering any questions you may have.

    Mr. Upton. Thank you again for your leadership on that 
issue.
    Mr. Melcher.

                    STATEMENT OF JOHN MELCHER

    Mr. Melcher. Good morning, Mr. Chairman. I would like to 
join my colleagues on the panel in applauding your efforts and 
especially in holding this hearing, but even more so for your 
leadership and getting involved in what traditionally and 
historically has been a local effort which brings us to why we 
are here today. Because of the local nature of 911 as it grew 
up, there has been such a disparity in the way 911 systems are 
built and in place around the country today. And 911 is no 
longer a local phenomena. It is now a global phenomena, and 
that is why this kind of hearing is very, very important that 
we bring the educational aspects of what the intricacies are to 
light. On September 11th, as you well remember, that fateful 
morning when we were holding the Report Card to the Nation 
Press Conference that NENA was hosting, and as I was 
introducing all of you to give comments and make remarks about 
the data that we had uncovered, and that our lives changed 
significantly and forever, I am particularly struck by some of 
the same faces that have been involved for so many years on 
this issue, and I think the incredible amount of success that 
we have had so far is worthy of applause, but we also have so 
many challenges. I would like to speak to a few of those.
    Our 911 systems are truly the Nation's first responders' 
first responder, if you will, and they have to be robust enough 
to face the challenge. NENA recently signed a memorandum of 
understanding with NORAD because it occurred to them that not 
all threats may appear on their radar screens. The airborne 
threat may actually be reported by a citizen who sees the 
cruise missile coming across the beach and would whip out their 
cell phone and dial 911 because that's the number they know in 
times of crisis. So our scope has changed significantly.
    It is not just that our job has gotten more difficult. It 
is also a little bit more complex, but the team that you see in 
front of you, and I think this is an incredibly well-put-
together panel because it represents the true stakeholders that 
are involved in making wireless E-911 and future technologies 
in 911 a reality.
    The PSAP readiness issue has been brought up so many times, 
and the funding has been talked about and spoken to by almost 
every member this morning. Some of the panel members will speak 
to that, but you should know that PSAP readiness has been a 
little bit of a situation that has morphed and changed over the 
last few years. Many States have been putting aside money to 
pay for wireless Phase II and building up that savings account 
and only recently, and I mean NENA in the last few months, have 
all of the incumbent local exchange carriers gotten their 
tariffs actually out and settled in some capacity so that local 
PSAPs could start buying the services.
    So as the funds were being built up, there were truly 
things that were happening to make this a reality. 
Unfortunately, due to economic times a large balance sitting 
there in some States was just too much temptation for the local 
legislators, State legislators, and those funds have now 
disappeared. So now that the tariffs are in place, technologies 
in place, everything's ready to go, now the money is gone, and 
so that is a huge problem, and it gets a lot into States' 
rights. So I think it shows a lot of courage on your part to 
try to address these very sensitive issues.
    I think what is important, from a NENA perspective, in 
public safety is to let you know what we are doing about it. 
NENA formed the strategic wireless action team, the SWAT team 
that you heard referenced here this morning, to bring all of 
the stakeholders together in probably the most comprehensive 
effort to date. We applaud CTIA for doing this back in 1995 and 
1996, and we have found need to get back together again. We 
have got all the wireless carriers, major carriers and some of 
the rural carriers involved. We have all the major local 
exchange carriers, incumbents. Obviously the FCC is a 
stakeholder in this, as well as the public safety folks and the 
State legislative groups, and Governors' association and all 
kinds of people that have gotten together on this, but it is 
about telecommunications and public safety. This is as much as 
a Homeland Security cast can be compared to this. It is really 
a telecom/public safety issue.
    So we had to come together to figure out what we could do 
about it and what answers we could bring back. There are some 
things we can do on our own with outside assistance not 
necessary. There are some things we are going to require 
outside assistance. And that report, that consensus document 
that we are working so hard to obtain closure on, will be back 
in front of you folks in the fall of this year. We are shooting 
for an October timeframe to present it back to you after the 
recess. So that is going to give some recommendations, tell you 
what we can do without help. But we are also going to are 
require some help, and I think funding is going to be part of 
the Federal Government's role.
    Mr. Hatfield talked about the technology and the 
infrastructure. We are in an antiquated infrastructure 
environment. I will draw just a minor contrast. AT&T Long 
Distance Network today, that processes long distance calls, we 
are told does so with about 85 to 90 switches. They are called 
long distance tandems.
    In the 911 world, we have tandems as well. They are called 
selective routing tandems. Throughout the Nation there are 
almost 800 of these selective routing tandems. That number is 
growing. It shouldn't be growing. It should be reduced. The 
contrast is that each and every one of those 800 some switches 
don't talk to each other. Where in the AT&T long distance 
environment, they all talk to each other, and if one fails, 
they all back each other up. Ours are sitting out there as 
isolated entities that do not have redundancy, robustness and 
true integration. There are some mated tandems, but that is not 
true interoperability, and that is 800 units of cost to the 
local exchange carriers, which is passed on to the local public 
safety folks that could be reduced significantly. So we are 
very concerned about that.
    I do have two pieces of survey data that I wanted to share 
with you this morning and you see the posters up there now. 
With our engagement of the monitor group and the SWAT 
initiative, we did a poll, and we found that nearly 60 percent 
of the Americans, if you notice the one in red on top, feel 
that the focus on homeland security has increased the 
importance of 911 emergency number services, especially 
wireless. And if you will notice all respondents, and we break 
them down to wireless subscribers and those who previously 
called 911, the statistical difference is negligible and 
everybody is feeling that this is a priority.
    The second piece of information we thought was incredibly 
significant that you really needed to see this morning was upon 
hearing a description of how wireless 911, and remember we had 
to describe this to a lot of people because William Shatner had 
them convinced when you dial the magic three digits things 
happen automatically, but once they understood, the respondents 
indicated that they believed improving the technology was very, 
very important and of great importance, and if you will notice, 
the majority of them thought it was of great importance with 
the remainder of them, almost a 100 percent, thinking it was at 
least fairly important. So I think your efforts this morning 
are truly reflected in the community's view and our Nation's 
view as to how important this stuff really is.
    We have got to address things like staffing and training. 
That's very important. We have got to address future proofing 
and make sure that we are not going to have the next 
technologies that Mr. Hatfield talk about, the personal safety 
devices, the automatic crash notification--we have got that up 
and running in Houston. Those types of technologies have got to 
be addressed aforethought and not as an after thought. We don't 
want to go back here in front of you 2 years from now trying to 
address a different question as to why telematics or some other 
device wasn't integrated into the system.
    And last, it is working through our constituents and our 
colleagues. The U.S. Department of Transportation and their 
Safety Initiative, the Secretary has been very active in 911 
issues. There are appropriations bills coming up that are going 
to be potential sources of funding we hope that you will look 
at. But the final thought that I would like to leave you with 
is that the teamwork involved is the most important thing. The 
people that you see represented in front of you and some others 
are the ones that are going to make it happen. We are the ones 
that do this for a living, and it has got to be a true team 
effort. It takes everybody involved, and it has got to be about 
what they can do, not what they can't do.
    [The prepared statement of John Melcher follows:]
   Prepared Statement of John Melcher, President, National Emergency 
                           Number Association
    Mr. Chairman, members of the Committee, Congressman Upton, thank 
you very much for providing me with this opportunity to appear before 
you today. My name is John Melcher, and I serve as the President of the 
National Emergency Number Association (NENA) and Deputy Executive 
Director of the Greater Harris County, Texas 9-1-1 District.
    It gives me great pleasure to appear before the Subcommittee today. 
Three months ago I had the honor of testifying before the Senate 
Committee on Commerce, Science, and Transportation Subcommittee on 
Communications. That day, like today, was an opportunity for those of 
us on the frontlines of 9-1-1 to update the Congress on our progress 
and activity to deploy wireless E9-1-1. We appreciate your keen 
interest and great willingness to help make America and its residents 
and visitors safer.
    In that spirit Mr. Chairman, I would like to acknowledge and thank 
you and a few of your colleagues for their dedicated leadership to 
improve our nation's 9-1-1 systems.
    First, Mr. Chairman, I would like to recognize two of the founding 
Members of the Congressional E9-1-1 Caucus, Congressman John Shimkus 
and Congresswoman, Ann Eshoo. Both have demonstrated a strong 
commitment to advancing the goals of public safety and the importance 
of 9-1-1 in every device, everywhere. I thank them for their leadership 
and tireless advocacy.
    I would also like to acknowledge Congressman Gene Green, a great 
Texan and strong advocate on these issues before your Committee. 
Congressman's Green dedication goes beyond Washington, as he has been a 
great friend to the Greater Harris County 9-1-1 District for many 
years. I would add that many of our advancements in Greater Harris 
County would not be possible without the likes of Gene Green.
    And finally, Mr. Chairman I would like to acknowledge you and your 
staff for the work all of you do each and everyday to better understand 
and advance these issues. Just a couple of weeks ago, I found myself in 
your home state, at the Michigan National Emergency Number Association 
state chapter conference. The conference, which is similar to 
conferences that occur in almost every state in the Union, brings 
together local and state 9-1-1 officials to learn, listen and interact 
with national experts. I was delighted to see that one such expert, Mr. 
Will Norwind, came from your staff. Upon further inquiry, I found out 
that you had attended the conference the year before, visiting a local 
PSAP, riding along on an emergency call and seeing first hand the 
challenges we face in wireless and wireline 9-1-1.
    I applaud your leadership and commitment to further educate your 
staff and yourself about the issues E9-1-1 presents us all. In these 
many efforts, you have been a passionate supporter of technology, 
communications, first responders and 9-1-1. I extend my personal 
gratitude and the thanks of the 9-1-1 industry and nation for your work 
and dedication.
    We encourage your colleagues in the Committee to follow your lead 
and work closely with the 9-1-1 community, scheduling visits to local 
PSAPs and your state NENA chapters to keep current on the issues facing 
us all, and the many opportunities to improve our citizen-activated 
emergency response capabilities.
                                progress
    We are delighted to see the participation of Mr. Dale Hatfield at 
today's hearing. As an independent expert, Mr. Hatfield was able to 
identify some of the myriad of technical and operational challenges 
impeding progress. His evaluation, submitted to the FCC last fall and 
commonly referred to as the ``Hatfield Report,'' has proven to be an 
important roadmap to progress in wireless E9-1-1 and a prescription for 
improving the dialogue among all parties.
    The FCC's E9-1-1 Coordination Initiative, on April 29, provided 
additional illustration of the need for all of us to come together to 
better understand what can be achieved in E9-1-1 implementation.
    This activity is both consistent and vital to serving the goals and 
objectives of the Wireless Communications Public Safety Communications 
Act of 1999, an important foundation for improving emergency 
communications, and specifically for deploying wireless E9-1-1.
    In the short time between the Senate and House hearing, our nation 
has defeated a tyrannical dictator, raised Homeland Security threat 
levels several times, and unfortunately experienced several 9-1-1 
failure-related tragedies, demonstrating further the need for a 
dependable E9-1-1 phone system.
    Three months ago, in my testimony before the Senate, I stated my 
organization's focus on solutions, progress and implementation. I added 
that, to the extent that barriers exist, we must work together in a 
committed and coordinated way to overcome them. I brought forward 
NENA's most recent effort to keep all the parties at the table, to 
address specific institutional barriers, challenges in technology, PSAP 
readiness and the funding of our nation's 9-1-1 system. At that time, I 
shared the first ``chapter'' of the NENA Strategic Wireless Action Team 
(SWAT) process, to examine and address the global and systemic 
challenges affecting E9-1-1 implementation.
    Understanding that we as a nation and community are still at a 
crossroads of implementation, NENA has convened national leaders and 
technical and operational experts to identify priorities, and determine 
the systemic changes needed to improve our nation's 9-1-1 system. 
Specifically, we are bringing together all the relevant constituents--
wireless and wireline telecommunications companies, state and local 
organizations, and the nations leading Public Safety groups: NENA, APCO 
and NASNA--in a cooperative effort to address--and resolve--the 
critical barriers to ubiquitous E9-1-1 implementation.
    Focused on solutions and results-based outcomes, SWAT is 
interjecting new dialogue, energy, and resources where others have 
become exhausted. Moreover, SWAT is recognizing the necessity for a 
comprehensive public/private cooperative effort to address the many 
issues that are affecting the 9-1-1 system--one dealing with solutions, 
not barriers and contention.
    While the nation's 9-1-1 service providers struggle with deploying 
location technology for wireless telephone sets, nearly 400 counties do 
not even have basic 9-1-1. SWAT recognizes the disparity and diversity 
our nation's emergency response capabilities and is working with 
individuals as well as communities to address the most basic to the 
most complex requests.
    As segments of our nation rely more on two-way messaging devices, 
automatic crash notification services, etc., NENA SWAT recognizes that 
the 9-1-1 system must be modernized to accommodate emerging 
technologies and interconnected to accommodate the transfer of digital 
information across the country. More than anything, SWAT is an approach 
to resolve the coordination and funding issues systemically by 
increasing the alignment of all critical stakeholders involved in 
deploying E9-1-1.
    SWAT is our opportunity to do it right. (1) Organize leaders on a 
national level, (2) get the right experts in a room apply appropriate 
resources and guidance and (3) identify technologies, tools, and 
expertise needed to assure the consistent delivery of 911 systems 
throughout the U.S. SWAT is designed to look at the components of 
wireless E9-1-1, along with the environment in which it operates, and 
identify and deploy the kind of focused resources necessary to truly 
foster wireless deployment. It's about getting the right people, the 
right information to solve wireless E9-1-1 problems.
                        stakeholders initiative
    Building from the findings of Dale Hatfield in his FCC-commissioned 
report on E9-1-1, NENA SWAT recognized a need to bring all parties 
together in a special undertaking to examine the possibility for a new 
consensus, the E9-1-1 Stakeholders' Initiative. This initiative joins 
all the relevant stakeholders--including the front-line companies in 
the wireless and wireline telecommunications industry, and the relevant 
state and local bodies and organizations--in a cooperative effort to 
address and resolve the critical issues facing E9-1-1 deployment. In 
the interest of third party objectivity, this effort is being organized 
and facilitated with support from the Monitor Group, a preeminent 
management consultant firm, and the PSAP Readiness Fund.
    Next week, on June 12th here in Washington, public safety advocates 
and leaders will join with representatives of wireline E9-1-1 system 
service providers and wireless companies in a ``Call to Action,'' a 
press briefing affirming the need for this collaborative process, to 
keep all parties at the table, in an open dialogue, and to truly make 
our nation's 9-1-1 system a top public policy priority.
    A key area of progress thus far, is the establishment of a platform 
for exploring consensus. Through ongoing dialogue, countless interviews 
and serious debate we have identified a wide range of potential options 
and solutions to improve deployment. In March 2003 and again in May 
2003, we held ``Constituent Roundtables''--meetings of the executive 
leadership of the SWAT Stakeholders Initiative constituents--to discuss 
the most contentious and complex issues involved with potential 
solutions. At these Roundtables, several important areas of consensus 
have begun to emerge, allowing us to focus on several key areas of 
ongoing debate.
    The first complex challenge is the lack of coordinated resources, 
funding and incentives shared among all the fragmented stakeholders in 
the E9-1-1 equation. The second challenge is pure diversity. Our 
nation's 5,300 PSAPs are highly decentralized, while our nation's 
telecommunications providers are increasingly national. This makes cost 
models difficult to construct. Consistent follow-though between parties 
has become a challenge in itself. Third, but not least, it comes down 
to pure political will. In communities where there is strong political 
will around E9-1-1 issues and the deployment of location based services 
we see more favorable results.
    In fact, some of the survey results from the Stakeholders 
Initiative suggest that the people may be ahead of their local and 
state elected and appointed officials in recognizing the importance of 
identifying and locating emergency callers. For example, nearly 60 
percent of Americans feel that the focus on homeland security has 
increased the importance of 9-1-1. Upon hearing a description of 
enhanced 9-1-1 for wireless callers, 99 percent said it was important 
that this technology be provided as rapidly as possible. In other 
words, that's unanimous public support for this vital public safety and 
anti-terrorism measure. The majority of survey respondents (59%) rate 
9-1-1 as ``Much or somewhat more important'' than other public safety 
priorities such as ``more police and fire patrols,'' or more ``training 
for police'' or more ``police and fire equipment.'' The American public 
also views 9-1-1 issues as at least as important as a number of other 
policy issues, including education (59% say 9-1-1 is more important), 
universal health insurance (65%), highway maintenance (75%), and 
homeland security (75%). And the vast majority of the surveyed public 
is willing to pay for it, quoting acceptable consumer user costs for 
improving their ability to call for help, and improve the safety and 
security of all Americans.
                           remaining hurdles
    Making 9-1-1 one of our nation's top public policy priorities is 
responsible policy for today and tomorrow.
    While there is increased public and government awareness for the 
need to accelerate the deployment of E9-1-1, ubiquitous E9-1-1 service 
unfortunately remains elusive. Large hurdles need to be overcome in 
addressing ``PSAP readiness,'' funding and resources of our nation's 
E9-1-1 system, and the ability to plan for the future.
    One of the hurdles most often cited by wireless carriers is the 
issue of ``PSAP readiness'' and the FCC-mandated implementation 
deadlines that affect the timing and pace of deployment. In fact, some 
of my colleagues in the wireless industry have made comments and 
observations that their industry will be ready to deliver E9-1-1 well 
before the entire public safety community will be ready to receive this 
information.
    While it's true that there are PSAPs that are not ``ready,'' and 
some may take a long time to become ``ready,'' there are a growing 
number that are prepared. It should also be emphasized that PSAP 
readiness is not just a direct PSAP concern. E9-1-1 implementation 
depends upon the timely and coordinated production and availability of 
Phase II capable handsets, other location technology, appropriate 
network infrastructure upgrades, PSAP support technologies and other 
technical enhancements.
    Product development and infrastructure upgrades presumably depend 
upon timely orders from customers, as well as the willingness and 
understanding of the supplier of what is expected and what is needed in 
project management expertise. In the interest of emergency services for 
wireless customers and the public in general, best efforts by all 
parties should always be the expectation. Sadly this is often not the 
case, and in some instances we are confronted with a conspicuous 
absence of engagement.
    Ultimately wireless 9-1-1 calls must be routed to a PSAP on the 
network infrastructure of a landline telephone company. This ``9-1-1 
System Service Provider'' is usually an incumbent local exchange 
telephone company (ILEC). A critical stakeholder in the process, ILEC's 
have been for the most part absent from both the original planning and 
FCC rule making on this subject. Subsequent regulatory actions have 
considered the ILEC simply a vendor to the PSAP, in spite of their 
central position in the interconnection/interface complexities uniquely 
generated in wireless E9-1-1. This is untenable for the public safety 
community. That is why our Stakeholder Dialogue and the NENA SWAT 
project have given ILECs an important seat at the table.
    In this environment, PSAP readiness is more of an issue of 
leadership with equal recognition of diversity of PSAPs. It requires 
productive, timely and efficient relationships between the wireless 
carrier, ILEC and PSAP, along with other vendors and decision makers. 
Constant communication among the parties, project management, and 
forecasting of needs are critical. Landline trunking must be ordered 
and provisioned, technical interface issues addressed, and overlapping 
database functions coordinated. Much of this must occur within a 
diverse and complicated regulatory environment at the federal and state 
levels. And it needs to be paid for. If all of this doesn't work well, 
the pace of deployment can be materially impacted.
    Without a doubt, it's easy to point fingers and lay blame, but all 
parties can and should agree that PSAP readiness is an issue that 
reaches beyond the bricks and mortar of the PSAP. It's a systemic issue 
for all parties to address in a sense of common purpose, the public 
interest, frequent communications and cooperative spirit.
    PSAP readiness is about keeping all the parties at the table, 
communicating on a regular basis, so that we can better address and 
prepare for challenges as they arise, not as they pass us by.
                         resources and funding
    Closely linked to the issues of technology and PSAP readiness is 
the availability of sustained resources and funding to deploy wireless 
E9-1-1.
    FCC Docket 94-102, requires that wireless carriers provide location 
information from wireless phones by December 31, 2005 in any case where 
a valid PSAP request has been received. In order to do such, many PSAPs 
require sustained resources to be able to first accept, and then 
process Automatic Number Identification and Automatic Location 
Information (ANI/ALI) from wireless phones, through upgrades of 
technology and recovery of basic costs. Unfortunately, in far too many 
of our nation's communities, these E9-1-1 needs are not being met 
simply because 9-1-1 funds and resources are not being allocated for 9-
1-1 use.
    The costs of maintaining and operating a 9-1-1 system are 
significant and necessary. Technical, operational and financial 
resources are required from both the public and private sector. 
Reliability, redundancy, innovations and challenges in modern 
communications are constantly re-defining 9-1-1 costs and economies of 
scale.
    Training of dispatchers and turnover of highly skilled employees 
remains a challenge and obstacle for most PSAPs. Tight budgets and 
scarce resources makes it that much more difficult to retain highly 
skilled employees. New technologies require more focus on education and 
training, while simultaneously creating a more skilled work force that 
requires additional resources for wages, training and employee 
retention. Dispatchers and call takers are dedicated public servants, 
but they need resources and skills to appropriately answer the call for 
help. .
    In the days of the Bell monopoly many of these costs were included 
in a consumer's basic service. Early 9-1-1 cost recovery mechanisms 
relied on costs being passed directly to the consumer in the form of 
surcharges and fees on phone bills. Understanding that 9-1-1 is a 
benefit to the public as a whole, these fees and surcharges were to be 
used for direct 9-1-1 expenditures for both the public and private 
sector. As new communications technologies emerged, such as mobile 
telephony, similar surcharges were adopted for wireless phone bills. 
However, these new surcharges, implemented for wireless E9-1-1, haven't 
always stayed with 9-1-1.
    Boosting revenues for strained government budgets and programs, 9-
1-1 funding has become an easy target. Subsequently, without 
appropriate funding and resources our 9-1-1 systems become antiquated, 
obsolete and unable to handle new communications technologies being 
used by the public. This results in missed deadlines, under-funded 
systems or no deployments at all.
    While I'm not questioning the right of state policy makers to make 
critical public policy decisions regarding their budgetary needs, this 
alarming trend is, at best, slowing our progress towards truly 
universal 9-1-1 service, and, at worst, outright endangering its 
implementation. While the nature of emergency services will always be 
local, the access to those services is a national expectation. This 
expectation and need was acknowledged in the Wireless Communications 
and Public Safety Act of 1999.
    We would ask the Members of Congress to do everything in their 
collective and individual power to protect and support 9-1-1 monies for 
9-1-1 purposes. This is a principle and policy agenda that federal, 
state and local governments can and should all agree on.
                          future path planning
    Our collective job today is also about planning for our future. 
While this hearing specifically speaks to wireless E9-1-1 
implementation and progress, I can not overemphasize the importance of 
future proofing our nation's 9-1-1 infrastructure. I say this with a 
word of caution and concern, because if we don't, we'll be back here 
year after year, dealing with the challenges of new and emerging forms 
of communications.
    Earlier this year, the FCC sought comment on a notice of proposed 
rulemaking, asking whether its regulations on access to emergency 
service communications networks and systems should be expanded to 
address a variety of other devices and services, including mobile 
satellite service (``MSS''), telematics (in-vehicle) services, multi-
line telephone systems (``MLTS''), resold cellular and PCS services; 
pre-paid calling services; ``disposable'' phones; automated maritime 
telecommunications systems (``AMTS''); and ``emerging voice services 
and devices.'' This is an important and necessary first step. Much more 
will need to be done.
    Preparing for our next challenge, NENA's Future Path Plan is 
integrating the growing variety of non-traditional ways to access 9-1-1 
by adding components and functions to the overall 9-1-1 system to 
ensure that new methods are more effective, more dependable, and/or 
more economical than what we have, or than other alternatives. This 
technical plan for future 9-1-1 systems is providing a long-term 
direction for development to support new call sources and needs. VoIP 
is already here. Who knows what the future will bring.
                             final thoughts
    The deployment of E9-1-1 services, coupled with new technologies, 
has dramatically improved personal safety and security and given new 
promise to what is possible. What was once a dream is now a reality in 
643 jurisdictions nation wide.
    In these jurisdictions, wireless 9-1-1 callers are being located, 
new technologies are being introduced, lives and resources are being 
saved.
    Earlier this week, NENA sent individual wireless E9-1-1 state 
deployment profiles to each committee member. The profiles, which have 
been made possible by the United States Department of Transportation 
(USDOT)/NENA Wireless Implementation Program; as we are presently 
surveying State and County 9-1-1 coordinators to provide national 
information on readiness of states, counties and PSAPs for wireless E9-
1-1. I I owd In the coming weeks, as you and your colleagues return 
home for recess, I would ask that you review the status of E9-1-1 
implementation in your state, share the information with your 
colleagues, local leaders and constituents. [This information can be 
found on the NENA website at the following: http://dot.nena.org/]
    The 9-1-1 Call to Action is simple, help us make wireless E9-1-1 a 
top public policy priority in your community, state and our nation.

    Mr. Upton. Thank you very much.
    Mr. Korsmo.

                    STATEMENT OF KARL KORSMO

    Mr. Korsmo. Good morning and thank you, Mr. Chairman, for 
inviting AT&T Wireless to share our E-911 implementation 
experience with you.
    I am Karl Korsmo, Vice President of External Affairs, and I 
am responsible for E-911 in our company. AT&T has approximately 
22 million customers in the United States. We are using a 
network-based E-911 solution for our TDMA or second generation 
network to provide Phase II location for E-911 calls. This TDMA 
network today provides service to the majority of our 
customers. In the third quarter of 2002, we decided to deploy 
that same network-based solution to our new GSM network. 
Network-based location systems use equipment installed in our 
wireless cell sites to locate callers rather than GPS receivers 
and phones. As a result, our wireless customers will not need 
to purchase new handsets to take advantage of Phase II E-911 
when it becomes available in their area.
    AT&T Wireless and our partners in public safety are making 
great strides in deployment of wireless E-911 service, first on 
our TDMA network. We have hundreds of PSAPs with Phase II 
deployed and having service today on our network, hundreds, and 
more every day. We have Phase II service active with PSAPs in 
over 20 States today. We are meeting our milestones that we 
have committed to the FCC. By the end of June, we will have 
over 4,000 of our TDMA cell sites providing Phase II location 
to PSAPs. Locally, here in the Washington, DC area, we have 
integrated our Phase II service with PSAPs in Louden, 
Arlington, Prince William, and Stafford counties and 
Alexandria, Virginia, and in Fairfax County, Virginia. And in 
Ann Arundel County, we have installed the Phase II equipment 
and are ready to hook it up to the PSAPs. On our new GSM 
network, we have been deploying GSM capable location equipment 
in our cell sites for the past 5 months, as soon as it was 
available from our vendor. We have equipped well over 3,000 GSM 
cell sites already with this equipment, and in this, we are 
also meeting the FCC milestones that we have committed to. We 
have completed testing on GSM in our Nokia infrastructure. We 
have integrated that GSM today with the PSAP in Fort Myers, 
Florida, and we have begun rolling out on our Nokia 
infrastructure GSM Phase II on those thousands of pre-equipped 
cell sites. We are still working to complete the testing on the 
rest of our GSM non-Nokia systems, and we expect that testing 
to be completed shortly.
    Vendor delays have severely compressed our schedule for 
meeting our next FCC milestone, but let me stress to you AT&T 
wireless has done everything possible and continues to do 
everything possible to speed the delivery of Phase II on GSM. 
We have GSM integrations with PSAPs scheduled in six States for 
this month and in 12 States, an additional 12 States for the 
next month.
    I wanted to share today three lessons learned by AT&T 
Wireless in deployment of AT&T's Phase II service. First, we 
and our vendors are getting very experienced at deploying Phase 
II. On TDMA, the speed of our network design and installation 
has been improving so that the critical path issues on Phase II 
deployment are not usually the wireless technology but rather 
procedural and coordination issues such as getting trunk orders 
processed by local exchange carriers, end-to-end integration 
testing, and obtaining permits for new antennas.
    Second, we find that State and regional leadership by 
public safety officials speeds Phase II deployment 
significantly. Kansas City is a good example. The Metropolitan 
Area Regional Council or MARC prepared for this for a long 
time, and when we were ready to hook up our Phase II system in 
Kansas City, MARC officials had over 30 PSAPs scheduled and 
ready. Likewise in Indiana, State leadership by both elected 
and public safety officials provided key leadership in 
education and funding. Other States such as Texas, North 
Carolina, California, Tennessee, New Jersey, Minnesota, and 
Illinois are examples of widespread Phase II implementation 
today due to foresight by State public safety leaders.
    I am going to skip to my conclusion. Finally, carriers and 
public safety together should do more to make deployments more 
efficient. Having done hundreds of successful Phase II 
deployments today, carriers and public safety officials should 
do more to apply our learning to the benefit of the remaining 
areas of the country. However, we organize it through the NENA 
SWAT process that John mentioned or State by State. I know from 
experience that Phase II implementation will become more 
efficient as our cooperative efforts increase.
    Thank you, Mr. Chairman.
    [The prepared statement of Karl Korsmo follows:]
Prepared Statement of Karl Korsmo, Vice President of External Affairs, 
                             AT&T Wireless
                              introduction
    Good morning and thank you Mr. Chairman for inviting AT&T Wireless 
to share our E911 implementation experience.
    AT&T Wireless is the largest independent wireless provider in the 
U.S. with approximately 22 million customers. AT&T Wireless is using a 
network-based E911 solution in our TDMA second generation network to 
provide Phase 2 location of calls to 9-1-1. This network today provides 
service to the majority of our customers. In the third quarter of 2002 
we decided to deploy that same network-based solution in our new GSM 
network. Network-based location systems use equipment installed in 
wireless cell sites, rather than GPS receivers in phones, to estimate 
the latitude and longitude of a caller. As a result, AT&T Wireless 
customers will not need to purchase new handsets to take advantage of 
Phase 2 E911 when it becomes available in their area.
                            making progress
    AT&T Wireless and our partners in Public Safety are making great 
strides in deployment of wireless E911 service. First, on our TDMA 
network, over 1,300 requesting PSAPs receive Phase 1 service today, 
which includes the caller's phone number and location of the serving 
cell site. Approximately 340 of these PSAPs also requested and receive 
Phase 2 service, which provides a more precise estimate of the caller's 
location. We have dozens of requesting PSAPs in various stages of 
deployment, and we are integrating Phase 2 service with additional 
PSAPs nearly every week.
    We have Phase 2 service now in 20 states, with service in more 
states scheduled in the next several months. By the end of June, we 
will have over 4,000 TDMA cell sites providing Phase 2 location to 
PSAPs. Locally, we have integrated our Phase 2 service with PSAPs in 
Loudon, Arlington, Prince William and Stafford Counties and Alexandria, 
Virginia. In Fairfax County, Virginia and Anne Arundel County, 
Maryland, we have installed Phase 2 equipment and are ready for 
integration.
    On our new GSM network, we have been deploying GSM capable 
locations equipment in our cell sites for the past five months, as soon 
as it was available from our vendor. We have equipped well over 3000 
GSM cell sites already. We have been testing since early March in two 
markets--Ft. Myers, FL on a Nokia GSM network and York County, PA on an 
Ericsson GSM network. Pre-deployment testing on the Nokia network 
completed last week, and GSM Phase 2 is now integrated with the PSAP in 
Ft. Myers. We expect our vendor to complete shortly the final pre-
deployment validation on one remaining component still under test in 
York County. We have begun rolling out GSM Phase 2 service on our Nokia 
GSM systems as rapidly as possible, to those thousands of pre-equipped 
cell sites.
    Vendor delays can sometimes challenge our short term progress on 
the milestones we committed to--this week, for instance, we will be 
providing the FCC with information on vendor delays in finalizing the 
operational software for GSM Phase 2 systems--but let me stress that 
AT&T Wireless has done everything possible, and will continue to do 
everything possible, to speed the delivery of Phase 2 on GSM. Though 
our schedule for PSAP integration is now severely compressed, we are 
working diligently with our vendor to solve remaining deployment and 
technical hurdles, and to stage our resources across the county to 
catch up on GSM as quickly as possible. We have GSM Phase 2 integration 
scheduled this month in 6 states with our partners in Public Safety, 
and in 12 additional states next month.
                            lessons learned
    I have three ``lessons learned'' to share with you, from our 
experience to date.
    First, AT&T Wireless and our vendors are getting very experienced 
at deploying Phase 2 systems. On TDMA, the speed of our network design 
and installation has been improving, so that the ``critical path'' 
issues are usually not the wireless location technology, but rather 
procedural and coordination issues--such as getting trunk orders 
processed by local exchange carriers, end-to-end integration testing, 
and obtaining permits for new antennas. Likewise on GSM, as our vendor 
breaks through the final technical barriers, procedural and 
coordination issues will become the critical path to deployment.
    Second, we find that state and regional leadership by Public Safety 
officials speeds Phase 2 deployment significantly. Kansas City is a 
good example. The Metropolitan Area Regional Council (MARC) prepared 
for a long time, and when we were ready to hook up and test our Phase 2 
system, MARC officials had over 30 PSAPs scheduled and ready. Likewise, 
in Indiana, state leadership--in this case by both elected officials 
and Public Safety--provided key leadership in education and funding. 
Other states, such as Texas, North Carolina, California, Tennessee, New 
Jersey, Minnesota and Illinois are examples of widespread Phase 2 
implementation, due to the foresight of state Public Safety leaders in 
education, planning, coordination and fiscal management. State and 
regional leadership have made a big difference.
    Third, AT&T Wireless has seen significant progress result from the 
collaborative dialogue on technical issues sponsored by the Emergency 
Services Interconnection Forum's (ESIF). This is a neutral forum for 
industry and Public Safety experts to discuss solutions to technical 
issues. Though active for only a year or so, ESIF has already been a 
great help to Wireless E911 deployment efforts.
                               conclusion
    Finally, carriers & public safety together should do more to make 
deployments more efficient. Having done hundreds of successful Phase 2 
implementations, carriers and public safety should do more to apply our 
learning to the benefit of the remaining areas of the country. AT&T 
Wireless pledges the deployment experience of our engineers and 
technicians, and that of our vendors, to work with Public Safety 
experts in the states, and with national NENA & APCO experts, to 
establish pre-deployment teams. These pre-deployment teams could 
transfer knowledge, lessons learned and best practices to Public Safety 
agencies interested in having Wireless E911 service. We are ready to 
begin now to establish these teams. Perhaps we could have one pre-
deployment team per state. However we organize it, through the NENA 
SWAT process or state-by-state, I know from experience that Phase 2 
implementation will become more efficient as our collective efforts 
increase.
    Thank you for giving me the opportunity to share our experience 
with the Committee this morning and I look forward to answering any 
questions you may have for me.

    Mr. Upton. Thank you very much.
    Mr. Callahan.

                   STATEMENT OF JAMES CALLAHAN

    Mr. Callahan. Thank you. Good morning.
    My name is James Callahan. I am the President and Chief 
Operating Officer of MobileTel, headquartered in Larose, 
Louisiana. MobileTel provides wireless service to Lafourche and 
Terrebonne Parishes, which comprises roughly 3,300 square miles 
of mostly sparsely populated rural territory, located in 
Louisiana's Third Congressional District. I would also note 
that MobileTel was the first carrier in its market to deploy 
Phase I, ahead of all the national major carriers.
    I am honored to testify on behalf of MobileTel and also to 
represent the nearly 100 member companies that comprise Rural 
Cellular Association. RCA member companies provide services in 
more than 135 rural and small metropolitan markets where 
approximately 14.6 million people reside. For those of you 
unfamiliar with MobileTel, our service area is distinctly 
rural. Our subscribers in the general public benefit from our 
commitment to maintain a network that maximizes coverage in 
areas deemed commercially unattractive by other wireless 
service providers. It is important for Congress to hear 
directly from small rural carriers about an issue that has such 
implications for the future of public safety and wireless 
service delivery in rural America.
    The FCC's Phase II E-911 requirements have put many small 
carriers like MobileTel at a critical crossroads. In talking 
today about the challenges that face MobileTel and other small 
rural companies, the FCC's mandate, the theme you will hear is 
simple, but critical. Current FCC requirements are shaking the 
very foundation of our businesses in rural America. Many small 
carriers are now being forced to make choices that could mean 
their geographic areas will not expand to serve areas still 
unserved, and more importantly, in fact, service areas may well 
shrink, creating an even greater void in wireless service 
delivery in rural America. We are deeply concerned that already 
underserved consumers will lose out because of FCC policies 
that reflect little understanding of rural America.
    MobileTel recognizes and fully supports the public safety 
goals of the FCC's E-911 mandates. Safety concerns have always 
played a large part in MobileTel's network decisions. Like our 
relationship with our customers, MobileTel's relationship with 
the public safety community is local, direct and open. Small 
rural wireless carriers have been and are still working very 
hard in communities across this Nation to successfully overcome 
Phase II hurdles. These hurdles include geography which is 
unique to America, technological limitations, and the lack of 
adequate cost recovery for small rural wireless carriers. The 
technical and resource challenges of delivering Phase II 
services to rural America are so significant that the 
compliance is having a major impact on our viability and 
jeopardizes the ability of wireless services, including basic 
911 service, in many rural parts of this country. The FCC's 
mandates and schedule for compliance should be adjusted to fit 
the realities of the rural marketplace. If the Commission is 
unwilling to take this action, then Congress must step in to 
achieve the public policy goals of E-911.
    Like many rural carriers, our subscriber base is small. The 
capital requirements for meeting Phase II present a significant 
expenditure and one without an immediate economic return. Our 
system, like most rural systems, was designed with two goals in 
mind, efficiency and economy. Many current subscribers are able 
to enjoy the full benefit of our services because of the use of 
older three-watt analog phones. Within its decision matrix, our 
choice of technology to implement Phase II has been limited to 
a network-based solution, yet, I am not aware of a single rural 
service provider that has been able to secure a vendor's 
guarantee that deployment of its network solution in the 
carrier's market will meet the FCC's accuracy standards.
    I refer you to my written testimony for a more detailed 
outline of the geographic and technological obstacles that 
require more time for compliance. These issues do not lend 
themselves to a quick soundbite; yet it is important to note 
that technology is still a problem in the communities we serve. 
Technology problems could be eased if the FCC relaxed current 
accuracy requirements. The current accuracy standards are 
unrealistic in rural areas. A conclusion affirmed by the 
unwillingness of vendors to guarantee that their products will 
allow small carriers to meet the FCC accuracy standards. In 
fact, the FCC rules allow for averaging, and, in effect, it is 
an admission that the accuracy results will vary and may not be 
able to be achieved in rural areas like those we serve. Unlike 
the large carriers, small carriers cannot tap an urban market 
to use averaging to comply with the FCC rules.
    Cost recovery is also a critical issue for small carriers 
because of the expense of deploying technology and the very 
limited ability to recoup costs from subscribers. With such 
emphasis now on public safety, the Federal Government must 
ensure that funds are allocated for small wireless carriers to 
help meet critical public safety needs, without requiring us, 
by economic necessity, to reduce services now available to our 
consumers. This applies not only to E-911 Phase II, but also to 
any future mandates intended to enhance homeland security. The 
way the FCC has handled Phase II mandates for small carriers 
confirms the need for legislation that would require the FCC to 
scrutinize the cumulative impact of regulations on small rural 
wireless carriers. Such legislation should be introduced and 
passed by the 108th Congress.
    In conclusion, we ask that logic, common sense, and reason 
prevail. With changes in the requirements, rural communities 
can still benefit from enhanced public safety services. In 
short, we ask that the time lines for implementation be 
extended, the accuracy standards be relaxed, and the government 
funding be made available for small carriers to defer financial 
burdens not experienced by the larger national carriers.
    Thank you for this opportunity to have participated in our 
great democracy. I would refer you again to my detailed written 
testimony to give you a better understanding of the problems 
confronting small rural carriers, and I will be happy to answer 
any questions you may have. Thank you.
    [The prepared statement of James Callahan follows:]
 Prepared Statement of James Callahan, President & COO, MobileTel, LLC
    My name is James Callahan. I serve as the President and Chief 
Operating Officer (COO) of MobileTel, LLC, headquartered in Larose, 
Louisiana. MobileTel provides wireless service to LaFourche and 
Terrebone Parishes, comprising roughly 3300 square miles of mostly 
sparsely-populated rural territory. Putting this into another context, 
MobileTel provides services in Louisiana's 3rd Congressional District 
represented by the distinguished Energy and Commerce Committee Chairman 
Billy Tauzin. We at MobileTel are proud of our congressman and consider 
him not only an effective representative for the interests of the 
residents of our community, but also a good friend.
    First, let me express my appreciation for this opportunity to 
present testimony before the House Subcommittee on Telecommunications 
and the Internet on a subject as important as Wireless E-911 services. 
This is a critical issue confronting wireless carriers, especially 
small rural wireless carriers, as well as all Americans concerned with 
public safety. Second, I would suggest that this hearing represents a 
significant milestone for Congress to hear directly from small rural 
wireless carriers about an issue that has critical implications for the 
future of public safety and wireless service delivery in rural America. 
And third, I want to emphasize upfront that much of my testimony today 
may seem to focus on the ``hurdles'' that small rural wireless carriers 
have experienced since the FCC promulgated its current rules on Phase 
II E-911--and continue to experience today--as we seek to address the 
critical public safety needs of consumers in rural America.
    But frankly, the deployment of Phase II E-911 is about more than 
jumping ``hurdles'' for many small rural wireless carriers. The FCC's 
Phase II E-911 requirements have put many small rural wireless 
carriers, like MobileTel, serving geographic areas that may otherwise 
have no access to wireless services, at a critical crossroads. As a 
result of current FCC Phase II E-911 requirements, many small rural 
wireless carriers are now being forced to make choices that could mean 
their geographic coverage areas will not expand to serve areas still 
unserved. Our service areas may well shrink creating an even greater 
void in wireless service delivery for consumers living and working in 
rural America. We are deeply concerned that underserved consumers in 
rural America will lose out as a result of FCC policies that reflect 
little understanding of rural America.
    I am honored to have been asked to testify at this hearing today on 
behalf of MobileTel and also represent the nearly 100 member companies 
that comprise the Rural Cellular Association (RCA). As you know, RCA is 
a membership association representing the interests of small and rural 
wireless licensees providing commercial services to subscribers 
throughout the nation. Its member companies provide services in more 
than 135 rural and small metropolitan markets where approximately 14.6 
million people reside. The RCA was formed in 1993 to address the 
distinctive issues facing small and rural wireless service providers.
    small rural wireless carriers provide services in niche markets
    As a small carrier serving rural areas, MobileTel, like most other 
small rural wireless service providers still in existence today, is 
able to compete with the national telecommunications conglomerates only 
because it serves--and serves well--a discrete market niche. Unlike 
large carriers that may enter our markets, our coverage extends beyond 
the population centers and heavily-traveled highways to offer wireless 
services in more remote areas that also are in need of quality wireless 
services and would be served by no other carrier.
    For those of you unfamiliar with MobileTel, we are headquartered in 
Larose, located on Bayou Lafourche. Much of our service area is either 
fresh or salt water marsh, complete with alligators, nutria, and 
varieties of birds in the wild. Our service area covers the bayous and 
marshes, where you can experience a swamp tour, enjoy some of America's 
best salt water fishing, and travel ``down the bayou'' through Cajun 
villages to the Gulf of Mexico. In other words, our service area is 
distinctly rural. MobileTel's subscribers expect, and receive, a high-
quality signal throughout our service territory. Our subscribers and 
the general public benefit from our commitment to maintain a network 
built to maximize coverage in areas deemed commercially unattractive 
and unappealing by other wireless service providers.
                        promoting public safety
    MobileTel recognizes and fully supports the public safety goals 
reflected in the FCC's E-911 mandates. Safety concerns have always 
played a large part in MobileTel's network decisions. For example, well 
in advance of its legal obligation to do so, MobileTel proactively 
worked with PSAPs throughout its service area to deploy Phase I E-911 
technology. Similarly, law enforcement officials are well aware of 
MobileTel's availability and willingness to work with appropriate 
authorities on a real-time basis to provide assistance. Like its 
relationship with its customers, MobileTel's relationship with PSAPs 
and other public safety officials is local, direct, and open.
          phase ii e-911 services: standing at the crossroads
    Small rural wireless carriers have been and are still working very 
hard in communities across this nation to successfully overcome the 
Phase II E-911 ``hurdles'' to rural America's access to enhanced 911 
services. These hurdles include:

<bullet> Geography unique to rural America;
<bullet> Limits of technology which are not always adequately addressed 
        in discussions about Phase II services but that affect rural 
        markets uniquely; and
<bullet> The lack of adequate cost recovery for small rural wireless 
        carriers.
    The technical and resource challenges of delivering Phase II E-911 
services to rural America are so significant for small rural wireless 
carriers that many carriers are finding themselves at the crossroads 
having to make critical decisions that could have the effect of 
jeopardizing the ability of consumers in very remote parts of the 
country to have access to quality wireless services, like those now 
offered by MobileTel and the many other small rural wireless carriers 
operating across this country.
    The FCC's E-911 regulations and mandates and the schedule for 
compliance should be adjusted to fit the realities of the rural 
marketplace. If the Commission is unwilling to take this action, then 
Congress must step in if the public policy goals of E-911 are to be 
achieved and if we are to ensure that consumers in distinctly rural 
markets have real access to enhanced public safety services.
    Nearly all small rural wireless carriers would have their own story 
to tell this subcommittee today about the hurdles they have confronted 
to comply with the FCC's Phase II E-911 mandate. Although each story 
may be unique, all would fit a pattern. Each would convey a sense of 
frustration that the FCC has written rules that seem to be particularly 
burdensome for small rural wireless carriers and reflect a fundamental 
lack of understanding about rural America, telecommunications service 
delivery to rural America, the costs of providing services in remote 
parts of rural America, and the very special relationship--rooted in 
what is too often now viewed with cynicism as an old-fashioned 
commitment to service--that exists between a small rural wireless 
carrier and the communities they serve. As small rural wireless 
carriers, we still believe there is nothing old-fashioned about 
delivering exceptional customer services.
    As a rural wireless carrier, MobileTel, like other small wireless 
carriers serving primarily rural areas, has been working diligently to 
overcome the limits of technology, the lack of a cost recovery 
mechanism, and unique geographical characteristics that make compliance 
with the FCC Phase II E-911 mandate much more than a mere ``hurdle,'' 
but a federal regulatory requirement that has a major impact on a 
company's viability.
    So, today, I would like to tell you my story, but ask you to 
realize there are companies throughout this nation and serving some of 
the smallest rural communities in this nation that are experiencing 
similar challenges. Without a solution, services to consumers--who may 
be left with no access to wireless services, including basic 911 
services, from any other wireless carrier--could suffer.
    The FCC's Phase II E-911 requirement to provide PSAPs with location 
information within the specified accuracy standards presents MobileTel 
and other small rural wireless carriers with distinct and specific 
challenges. First, our subscriber base is small, and that translates 
into a competitive disadvantage when we have to either absorb the 
significant costs of Phase II E-911 or spread the costs to relatively 
fewer customers on a per capita basis.
    Second, as a small company with limited resources, the capital 
requirements for meeting the Phase II obligations present a significant 
expenditure, one without immediate economic return. That being the 
case, dedication of resources to a Phase II obligation limits our 
ability to improve or expand service, and potentially presents even 
more difficult decisions regarding service continuation.
    Third, as a niche market player providing quality service where it 
may not be available otherwise, we are highly sensitive to any 
diminution of our ability to provide service area-wide coverage. Our 
system, like most rural systems, was designed with two goals in mind--
efficiency and economy. Accordingly, the network was constructed to 
cover the most area with the fewest towers. Many current subscribers 
are able to enjoy the full benefit of our services because of their use 
of older, 3-watt analog phones.
    Within this decision matrix, our choice of technology to implement 
a Phase II solution has been limited to a ``network'' solution. Yet, I 
am not aware of a single rural service provider that has been able to 
secure a vendor's guarantee that the deployment of its network solution 
in the carrier's market will meet the FCC's accuracy standards. I 
understand that these standards are met only under ideal test 
circumstances, and, as yet, no real-world applications in hard-to-serve 
rural America bear out the promise of testing.
                      technology and vendor issues
    Many wireless carriers in rural areas utilize analog and TDMA 
technology. Consequently, like MobileTel, their Phase II E-911 answers 
rely on network solutions that generally utilize the triangulation of 
cell sites to obtain location information for wireless 911 calls. Where 
cell sites have been deployed to maximize efficiency (that is, 
utilizing antennas with service footprints overlapping only enough to 
allow call hand-off between the cell sites), this ``string of pearls'' 
configuration makes the determination of location impossible without 
the construction of additional tower sites and the acquisition of 
position determining equipment.
    Although there is an alternative to triangulation, so-called 
``Angle of Arrival'' or ``AOA'' technology, it is frequently the case 
that the existing towers in a ``string of pearls'' configuration will 
not support the additional weight of the required specialized AOA 
antennas and associated feed lines. Even where AOA antennas can be 
added to existing towers, additional sites still may be required in an 
AOA scenario to achieve even the predicted accuracy standard--let alone 
the real-world standard--because of the dense foliage or hilly terrain 
common in many rural areas. Adding additional cell towers is an 
extremely costly proposition for rural carriers as well as time-
consuming, potentially requiring far more than the available time frame 
for deployment mandated under current FCC rules.
    Under these and similarly difficult technical circumstances, 
relaxation of the current accuracy requirements would enable carriers 
to deploy a solution that meets the public safety needs of rural 
consumers. Moreover, relaxation of current requirements would still 
achieve the public policy objective of providing enhanced public safety 
services to consumers in rural America. Very recently, MobileTel was 
able to provide location information on a real-time basis to public 
safety officials who simply called for assistance. As a local company 
with direct ties to the community, including the immediate availability 
of senior, decision-making management on site, MobileTel's ability to 
react immediately and directly to community needs is one of its 
strengths. This characteristic is typical of small, local rural 
carriers.
    Small rural wireless carriers are not necessarily faring any better 
with the other technical solution--handset location capability--in 
which much of the location technology is included in a consumer's 
telephone. Currently, handset vendors have not developed a product that 
works with state-of-the-art GSM digital networks, TDMA digital 
networks, or the older analog technology. The large GSM carriers are 
choosing instead a network solution that apparently can be implemented 
with success in urban and suburban settings where population density 
characteristics generally require a network configuration that supports 
triangulation without significant additional cell site requirements.
    In addition, larger carriers can use their urban coverage areas to 
meet the FCC's accuracy standards because averaging of accuracy results 
is allowed under the FCC's rules. Thus, larger carriers can comply with 
the letter of the rules but offer no additional security for consumers 
in those rural territories that are part of their coverage areas. 
Bluntly, large carriers can provide no greater accuracy in rural areas 
than small carriers. However, small carriers, alone, are penalized 
because they are unable to conform to the FCC's accuracy guidelines. 
Small rural carriers do not have the urban base of customers that large 
carriers can rely on to place enough E911 calls that enable the larger 
carriers to use averaging as a way to meet the FCC's location accuracy 
requirements. This is yet another example of how FCC rules are simply 
unfair to small rural carriers and the rural consumers that MobileTel 
and the other members of RCA are committed to serve. Rather than 
promoting public safety in rural America, the FCC rules place undue 
burdens on small rural wireless carriers and reflect a basic lack of 
understanding of rural America, its geography, and its people.
    Moreover, small rural wireless carriers have been further 
disadvantaged by the simple fact of market size and economic potential 
when they try to secure vendor agreements to purchase technology to 
meet the FCC's current requirements. Business management principles and 
simple logic would suggest that vendors have less interest in working 
with small carriers and small carriers have less ability to influence 
the availability of products that will meet the FCC's requirements in 
rural America. But, more importantly, many small rural wireless 
carriers' experiences with vendors also reflect this fact of doing 
business in today's society.
    For example, for many carriers choosing network solutions, the 
experience with True Position, one of two vendors that offer a network 
``solution,'' has been frustrating at best. One RCA member providing 
service in Illinois' 19th Congressional district represented by 
Congressman John Shimkus has experienced a string of unkept promises, 
non-returned phone calls, and non-answered e-mails from the vendor. 
Although having budgeted $1.5 million for Phase II in 2003 and trying 
to position itself as the first carrier to offer Phase II services in 
the market, the small carrier is still without an agreement because it 
has been misled by a vendor. Now, this small wireless carrier must 
begin new discussions with Grayson, the other vendor, after more than a 
year of broken promises and unanswered questions. A year after 
committing orally to a contract but delaying in signing a contract, 
True Position now says its technology will not work in this particular 
market.
    Like many carriers, this RCA member company prefers a network 
solution because of the prohibitive cost of a handset solution. 
Additionally, the company wants to be able to provide public safety 
services to all customers, including the more than 500,000 yearly 
analog roamer calls now supported by the company.
    Unfortunately, this experience is not unique. Another RCA member 
providing service in North Carolina's 5th Congressional District 
represented by Congressman Richard Burr has been unable to secure a 
guarantee from Grayson that its network system would meet the FCC's 
accuracy requirements. Following this, the carrier spent more than a 
year attempting to work with TruePosition, which again failed to 
respond in a timely manner to repeated telephone calls and e-mails. 
Eventually, TruePosition responded but was not willing to execute a 
contract. The carrier already has received requests from local PSAPs to 
provide Phase II service. The carrier has now been forced to switch to 
a handset location solution in an attempt to meet FCC deadlines, and 
based upon a planned conversion to CDMA technology. The small carrier 
has successfully executed a contract with a Phase II handset solution 
vendor. However, it is highly probable that the company could have 
implemented a Phase II solution by now if many months were not wasted 
by vendors who initially offered the promise of a network solution but 
could not deliver on that promise in such a distinctly rural market.
    MobileTel has recently decided to make a technology change, which 
would make a handset solution a possibility. Nonetheless, to replicate 
our current coverage capability, we again face the specter of 
significant capital expenditures against a backdrop of limited 
resources and a small subscriber base. The rational business decision 
regarding modification of its technical approach at this point, 
however, is further complicated by considerations of timing obligations 
related to Phase II E-911 compliance. MobileTel's ability to meet the 
Phase II E-911 standard with handsets utilizing the new technology will 
not solve its concerns regarding its legacy customers, who prefer the 
older handsets and the extended geographic coverage that the older 
handsets provide. This concern is shared by a number of other small 
rural wireless carriers.
    While these issues have a huge impact on my company and its future, 
it is also clear that what affects our company--and all small wireless 
carriers across the rural communities of this nation--also affects our 
services, and ultimately affects the convenience and safety of the 
citizens who rely on and use our services. As all of us are now 
considering the issues of public safety and security in the light of 
the new realities that recently and sadly have been forced upon this 
county, MobileTel submits that matters which rise to the level of 
federal mandates for the purposes of promoting homeland and community 
security are worthy of federal funding allocations.
           cost recovery and the economics of phase ii e-911
    Cost recovery is a critical issue for small rural wireless carriers 
because of the expense of deploying the technology and the very limited 
ability to recoup costs from subscribers. Although some states have 
cost recovery mechanisms in place, these vary from state to state and 
will offer only limited opportunities for carriers to recover costs. 
Public safety is a critical issue for the nation--now more than ever. 
As Americans, vulnerable for the first time in our modern history on 
our own continental shores, we look to and expect the federal 
government to secure and protect our safety. Given the renewed 
importance of Phase II services, the federal government must be willing 
to take more responsibility to ensure that Phase II E-911 policy making 
includes the allocation of appropriate funding for small rural wireless 
carriers to help meet critical public safety needs without having to 
reduce the level and quality of wireless services now available to our 
consumers.
    We would sound an additional note of caution about any new mandates 
for public safety and homeland security that may evolve over time. 
Periodically, we hear rumblings in Larose, Louisiana, from this city on 
occasion that the FCC and other federal agencies want to look to 
wireless services as a priority means of communication in times of 
national emergencies. The emergence and expansion of wireless services 
creates new opportunities for this type of emergency communication 
capability. We in small rural communities have a unique understanding 
of how wireless services are a critical component of our communities' 
economies and infrastructure. But, small rural wireless carriers simply 
cannot afford additional public safety-related regulatory mandates that 
require additional significant expenditures of capital. Congress must 
be willing to appropriate money to fund any additional public safety 
mandates on small rural wireless carriers as part of any national 
initiative to protect and advance emergency communications and homeland 
security.
    In my discussion of the challenges that MobileTel and other small 
and rural companies face in meeting the FCC's current Phase II E-911 
mandate, the theme you've heard is simple, but critical. Small and 
rural carriers face distinct challenges, both financial and technical; 
small and rural carriers often provide service in areas where there is 
little or no competition; small and rural carriers are local and 
accountable within their communities. For small and rural carriers, 
funding is necessary to implement any Phase II E-911 solution within 
the currently required time frames. At a minimum, both implementation 
deadlines and technological shortcomings should be reviewed and 
examined critically by Congress as part of the policy making process.
                relaxing current fcc accuracy standards
    We believe the accuracy standards are unrealistic in rural areas 
and we suggest that the FCC's current rules that allow for averaging 
are, in effect, an admission by the FCC that accuracy requirements will 
vary and may not be able to be achieved in rural areas like those we 
serve. If there was not a problem with meeting the accuracy requirement 
in a rural area, then why would the FCC even offer averaging as a way 
to accomplish the public policy goal of enhanced 911 services? 
Averaging provides flexibility that helps large carriers comply with 
the FCC's accuracy requirements but it discriminates against the small 
rural carriers who cannot tap urban customers to fit a mathematical 
formula that has no bearing on meeting the public safety needs of rural 
consumers.
    In rural areas, the accuracy standard can be substantially lower 
than it is in urban areas without compromising public safety. I say 
this not only as the COO of a wireless telecommunications company 
delivering services in rural areas, but I say this also as a resident 
of a rural community charged with the responsibility of enhancing the 
public safety for my neighbors, friends, and family. With a relaxed 
standard, public safety personnel will still have as good of an 
opportunity to locate the calling party--certainly better than if there 
was no wireless service at all. Revised accuracy requirements for both 
network-based and handset-based technologies in rural areas should be 
adopted by the Commission after verifying the availability of location 
products and solutions that work, so that consumers in rural areas can 
have access to quality public safety services.
    If the Commission is unwilling to do this, then Congress should 
step into the void quickly so we can get about the business of 
improving public safety communications in rural America.
            fcc rules have a unique impact on small carriers
    Finally, we believe that the FCC should have more carefully 
scrutinized the types of problems that small rural wireless carriers 
would confront to deploy Phase II E-911 technology. Although we applaud 
the Commission's initiative that produced the Hatfield Report, it is 
the type of study that should have been initiated much sooner by the 
FCC.
    We recognize the public interest in focusing attention on national 
carriers and encouraging compliance on an expedited basis. However, the 
way the FCC has handled the Phase II E-911 mandates confirms the need 
for legislation that would require the FCC to scrutinize the impact of 
regulations that affect small and rural wireless carriers. This type of 
legislation was introduced in the 107th Congress and we would encourage 
its introduction and passage in the 108th Congress. Public law that now 
requires regulatory agencies to assess the impact of their rules on 
small businesses has simply failed to protect small businesses, such as 
MobileTel, and has failed to identify the true impact of FCC 
regulations on small rural wireless carriers.
    If such adequately protective legislation had been public law when 
Phase II E-911 regulations were first promulgated, the FCC would have 
been required to offer better direction and guidance to small rural 
wireless carriers and we--both collectively and as individual 
companies--could have saved the money, time, and other resources that 
we have expended to bring these issues to the attention of the FCC and 
other policy makers at the federal level. At a minimum, the FCC could 
have determined earlier in this process that small rural wireless 
carriers would need more time to comply with the Phase II E-911 mandate 
given the geographical obstacles for compliance, the lack of real-world 
tested technology that could meet the FCC's requirements in rural 
areas, and the capital costs of deployment that are shaking the very 
foundations of our businesses in rural America.
    It is important to note that small rural wireless carriers, like 
all telecommunications providers, are in the business of expanding 
services and improving service delivery. We do not like the fact that 
many of us now may be forced to reduce our service area in order to 
comply with an FCC mandate when our business and community instincts 
are to invest in our systems and our customers. We want to improve our 
services and ensure that rural America has access to all that wireless 
can offer. We are uniquely positioned in our markets to work to expand 
service delivery and we are committed to serve all parts of the rural 
communities that comprise the rural American marketplace--not just 
those that are most lucrative. But with limited capital budgets, 
federal regulatory mandates take a greater toll on our ability to 
expand services for consumers in rural America. What may have only 
limited financial impact on a large nationwide carrier can be 
economically devastating for companies, like ours, with such limited 
capital budgets.
    Too often, the FCC fails to recognize the cumulative impact of its 
mandates on our businesses--but even more importantly, on the 
consumers, both businesses and individuals, in rural America who rely 
on us for wireless services. For some small rural wireless companies, 
their very survival has been threatened by the additional costs 
associated with complying with cumulative FCC mandates.
                               conclusion
    Like all small rural wireless carriers serving communities across 
this country, MobileTel is committed to working with federal and local 
authorities to maintain and improve public safety. We commend the 
Subcommittee for holding this hearing. As we have tried to work with 
the FCC over the years on this issue, we stand ready to work with the 
members of this Subcommittee and the full Energy and Commerce Committee 
to speed deployment of enhanced 911 services.
    We simply ask that logic, common sense, and reason prevail. In 
short, we ask that the timelines for implementation be extended, the 
accuracy standards be relaxed, and government funding be made available 
for small rural carriers to defray financial burdens not experienced by 
the larger nationwide carriers.
    Thank you for this opportunity.

    Mr. Upton. Thank you.
    Mr. O'Connor.

                  STATEMENT OF MICHAEL O'CONNOR

    Mr. O'Connor. Good morning, Mr. Chairman and members of the 
subcommittee. And thank you for giving Verizon the opportunity 
to present its views on wireless E-911.
    My name is Michael O'Connor, Director of Federal Regulatory 
Affairs for Verizon, and in that capacity, one of my 
responsibilities is managing E-911 policy issues throughout the 
Verizon footprint. Additionally, I am a member of the National 
Emergency Number Association, and a participant in the NENA 
Strategic Wireless Action Team initiative.
    As an initial point, I would like to define the role of a 
local exchange carrier or LEC in enabling the provision of 
wireless E-911 capabilities. Simply, the LEC typically has two 
functions. One is to provide the connections and services 
necessary to get the E-911 information from the wireless 
provider to the PSAP. And the second function, historically, 
has been the LECs often serve as the project manager for 
wireless E-911, coordinating and facilitating the activities of 
the other participants. The Verizon telephone companies have 
established a reputation as an industry leader in supporting 
wireless E-911 implementation. During the recent E-911 
Coordination Initiative hosted by the FCC, Steve Marzolf, the 
Public Safety Communications Coordinator for the Commonwealth 
of Virginia stated, ``I would be remiss if I did not also 
mention the support and commitment we have received from our 
local exchange carriers, Verizon and Sprint.''
    Comments such as these are not isolated perspectives. 
Verizon local telephone companies have been able to attain and 
maintain a leadership position in wireless E-911 deployment 
through several corporate policy initiatives. Foremost among 
these initiatives, Verizon has created an internal wireless 
implementation team that works with PSAPs, CMRS carriers, and 
third-party providers in developing, implementing and testing 
wireless E-911. At the request of PSAPs or State 911 boards, 
this Verizon team has visited and provided expertise to more 
than 1,100 PSAPs in over 30 States. Verizon currently serves as 
the E-911 coordinator for approximately 2,000 PSAPs.
    Additionally, the Verizon telephone companies are currently 
ready to meet all regulatory deadlines for wireless E-911 
deployment. In 2002, then Chief of the Wireless 
Telecommunications Bureau Sugrue requested the largest local 
exchange carriers to provide information about their readiness 
to carry out their roles in wireless E-911 deployment. At that 
time, Verizon reported its ability to handle any PSAP or 
wireless carrier request for wireless E-911 service within the 
deadlines established by the FCC's rules.
    Last, Verizon has established a policy of safety first, 
tariffs later. Verizon believes that all E-911 system providers 
must be allowed a fair return on their investment. Nonetheless, 
we have established a policy that to the extent tariff 
modifications are necessary, Verizon will complete the 
implementation efforts for wireless E-911 deployment whether or 
not the tariff changes have made their way through the approval 
process.
    So that is what Verizon is doing to help deploy wireless E-
911, but the salient question for this morning is what can be 
done to move the process forward and achieve the goal of 
universal availability of wireless E-911? Verizon suggests the 
following principles are fundamental to achieving that goal: 
First, public funding should be used to support universal 
availability of wireless E-911. As many of the subcommittee 
members have noted and some of the panel members have noted, E-
911 service is not simply a useful option for wireline and 
wireless customers. It is widely acknowledged to be a public 
safety feature that benefits the entire community. Customers 
use E-911 service not only to report their own emergencies but 
also to report events that involve other persons such as 
accidents, health emergencies, crimes and natural disasters. In 
particular, all of society has an interest in a robust wireless 
E-911 system that is as capable as the wireline system of 
providing the information that PSAPs need to respond to 
emergencies.
    The effect of lack of funding cannot be ignored. The 
funding mechanisms for PSAPs involve local determinations on 
how to develop the financial means to implement and maintain 
the service. In the current economic environment, local funding 
for wireless E-911 is a serious concern. Taking funding out of 
the equation would promote wider and faster deployment of 
wireless 911 service.
    In most States, funding of E-911 implementation costs for 
PSAPs wireline carriers, and in most cases wireless carriers, 
is accomplished through surcharges on the wireless and wireline 
customer. This is not an optimum solution. Such surcharges 
inflate the prices for telecommunication services and lower 
demand. Verizon believes that development of public funding for 
E-911 service through general tax revenues rather than through 
additional telecommunications surcharges serves the public 
interest.
    As a second principle, Verizon advocates nationwide 
coordination for wireless E-911 deployment and policy, and 
supports Dale Hatfield's recommendation, noting that we believe 
the National 911 Program Office within the Department of 
Homeland Security supported by a Federal advisory committee 
would assist in addressing the policy issues concerning 
implementation for wireless 911.
    And as a final principle, Verizon advocates that all 
constituencies that provide wireless 911 functionality are 
allowed to recover costs. In the E-911 coordination initiative 
hosted by the FCC, Chairman Powell opened the meeting and had 
the following observation: ``. . . we must work together to 
move wireless carriers, manufacturers, consumers along the 
migration trail for E-911 capability while ensuring the 
necessary ILEC capabilities are made available in a timely 
manner on financially reasonable terms. Verizon believes that 
the capital expenditures necessary to achieve the goal of 
universal availability of wireless E-911 will be enhanced when 
the investors and the technologies be allowed an expectation of 
a reasonable return.
    That concludes my formal testimony. Thank you for giving me 
the opportunity, and I would be happy to answer any questions 
that the committee might have.
    [The prepared statement of Michael O'Connor follows:]
Prepared Statement of Michael O'Connor, Director of Federal Regulatory 
                            Affairs, Verizon
    Good morning Mr. Chairman and members of the Subcommittee. And 
thank you for giving Verizon the opportunity to testify and present its 
views on E911.
    My name is Michael O'Connor, Director of Federal Regulatory Affairs 
for Verizon. In that capacity, one of my responsibilities is managing 
E911 policy issues throughout the Verizon footprint. Additionally, I am 
a member of the National Emergency Number Association (NENA), and a 
member of the NENA Strategic Wireless Action Team (SWAT) initiative.
    As an initial matter, let me define my understanding of the term 
``wireless E911''. My view is that wireless E911 is the capability to 
determine the location, in terms of latitude and longitude, of a caller 
who dials 911 on a cellular telephone. This is sometimes referred to as 
wireless Phase II capability. To make this work, the wireless provider 
must transmit information sufficient to make this determination and the 
agency providing the 911 service must have the equipment required to 
use this information.
    One might ask, ``What is the role of a Local Exchange Carrier (LEC) 
in enabling the provision of wireless E911 capabilities?'' The LEC 
typically provides various connections and services to get the E911 
information from the wireless provider and the government agency 
operating the 911 service. These services include:

1) Links ordered by CMRS carriers to our E911 tandems (sometimes called 
        Selective Routers). Links ordered by Public Safety Answering 
        Points (PSAPs) to connect our E911 tandems to the PSAP 
        location.
2) Customer Premise Equipment (CPE) that allows PSAP personnel to 
        interpret location data.
3) Connections to wireless information databases that contain location 
        information.
    The LEC can also serve as project manager for wireless E911, 
coordinating and facilitating the activities of the other participants. 
This coordination and facilitation is critical to the timely deployment 
of the wireless E911 capability.
    The Verizon telephone companies have established a reputation as an 
industry leader in supporting wireless E911 implementation. This 
reputation was acknowledged during the recent ``E911 Coordination 
Initiative'' hosted by the FCC. Steve Marzolf, public safety 
communications coordinator for the Commonwealth of Virginia stated, ``I 
would be remiss if I did not also mention the support and commitment we 
have received from our local exchange carriers, Verizon and Sprint. 
They have been proactive with system upgrades.'' Steve Marzolf further 
stated, ``They (Verizon and Sprint) have been a strong member of the 
deployment team almost from the start of the project. I know many other 
states and PSAPs have complained. We've heard here today about problems 
with the local exchange carriers being an impediment to progress. I'm 
very pleased to say that's not been the case for us.''
    Comments such as these are not isolated perspectives. Verizon local 
telephone companies have been able to attain and maintain a leadership 
position in wireless E911 deployment through several corporate policy 
initiatives.
    Foremost among these initiatives, Verizon has created an internal 
wireless implementation team that works with CMRS carriers and third-
party providers in developing, implementing and testing wireless E911. 
At the request of PSAPs or state 911 boards, this team has visited and 
provided expertise to more than 1100 PSAPs. Verizon currently serves as 
the E911 coordinator for approximately 2000 PSAPs.
    One of the goals of these visits is to educate PSAPs about the way 
in which LEC and CMRS networks function. This education process 
includes providing descriptions of the different technologies used to 
provide wireless E911, reviewing call flow when the technologies are 
deployed, and explaining the activities PSAPs need to undertake to 
accomplish wireless E911.
    Additionally, the Verizon telephone companies are currently ready 
to meet all regulatory deadlines for wireless E911 deployment. In 2002, 
then Chief of the Wireless Telecommunications Bureau, Sugrue, requested 
the largest local exchange carriers to provide information about their 
readiness to carry out their roles in wireless E911 deployment. At that 
time, Verizon reported its ability to handle any PSAP or wireless 
carrier request for wireless E911 service within the deadlines 
established by the FCC's rules.
    Lastly, Verizon has established a policy of safety first, tariffs 
later. One of the often heard reasons for the delay in wireless E911 
implementation has been that the E911 system providers have been 
unwilling to deploy the technology until state tariffs for additional 
services have been established. Verizon believes that all E911 system 
providers must be allowed a fair return on their investment. 
Nonetheless, we have established a policy that, to the extent tariff 
modifications are necessary, Verizon would complete the implementation 
efforts for wireless E911 deployment, whether or not the tariff changes 
had made their way through the approval process.
    So, that is what Verizon is doing to help deploy wireless E911. But 
the salient question for this morning is ``What can be done to move the 
process forward and achieve the goal of universal availability of 
wireless E911 Verizon suggests the following principles are fundamental 
to achieving that goal:
    First, public funding should be used to support the universal 
availability of wireless E911. E911 service is not simply a useful 
option for wireline and wireless customers--it is widely acknowledged 
to be a public safety feature that benefits the entire community. 
Customers use E911 service not only to report their own emergencies, 
but also to report events that involve other persons, such as 
accidents, health emergencies, crimes, and natural disasters. In 
particular, all of society has an interest in a robust wireless E911 
system that is as capable as the wireline system of providing the 
information that PSAPs need to respond to emergencies. As such, public 
monies should be used to support the necessary infrastructure and 
operational expenses associated with providing the service.
    The roll-out of wireless E911 service is hindered in most areas by 
the lack of adequate funding and the use, in some states, of money from 
E911 cost recovery mechanisms for other public purposes. The FCC has 
addressed the issue of which types of costs must be borne by wireless 
carriers vs. PSAPs. However, the issue of PSAP funding has yet to be 
addressed.
    The effect of a lack of funding cannot be ignored. The funding 
mechanisms for PSAPs involve local determinations about how to develop 
the financial means to implement and maintain the service. In the 
current economic environment, local funding for wireless E911 is a 
serious concern. Taking funding out of the equation would promote wider 
and faster deployment of wireless 911 service.
    In most states, funding of E911 implementation costs for PSAPs, 
wireline carriers and, in most cases, wireless carriers, is 
accomplished through surcharges on wireless and wireline customers. 
This is not an optimum solution. Such surcharges inflate the prices for 
telecommunications services and lower demand.
    Verizon believes that the development of public funding of E911 
service through general tax revenues rather than through 
telecommunications surcharges serves the public interest.
    As a second principle, Verizon advocates nationwide coordination of 
for wireless E911 deployment and policy. The evolving nature of 
technology and new types of communications services, such as voice over 
the Internet, will require closer coordination for the efforts of 
government and private entities.
    Verizon recommends that the Congress focus on two areas--creation 
of a National 911 Program Office within the Department of Homeland 
Security, and creation of a Federal advisory committee. The National 
911 Program Office should coordinate state and local emergency 
activities within the context of nationwide security planning. The 
advisory committee should include representatives of all stakeholders, 
including trade associations, carriers, vendors, and federal and state 
regulatory agencies. The advisory committee would be a resource for 
collecting information and providing analyses to assist the DHS in 
addressing policy issues concerning the implementation of E911 services 
for wireline carriers, wireless carriers, and new, emerging 
communications media, such as handheld computers and voice over 
Internet technologies.
    As a final principle, Verizon advocates that all constituencies 
that provide wireless E911 functionality are allowed to recover costs. 
In the aforementioned ``E911 Coordination Initiative'' hosted by the 
FCC, Chairman Powell opened the meeting and had the following 
observation, ``. . . we must work together to move wireless carriers, 
manufacturers, consumers along the migration trail for E911 capability 
while ensuring that the necessary ILEC capabilities are made available 
in a timely manner on financially reasonable terms.''
    Verizon believes that the capital expenditures necessary to achieve 
the goal of universal availability of wireless E911 will be enhanced 
when investors in the technologies be allowed an expectation of a 
reasonable return.
    This concludes my formal testimony. Thank you for giving me the 
opportunity today to share Verizon's views on wireless E911. I would be 
happy to answer any questions that the committee may have.

    Mr. Upton. Thank you very much.
    Mr. Amarosa, welcome.

                  STATEMENT OF MICHAEL AMAROSA

    Mr. Amarosa. Good morning Mr. Chairman and members of the 
subcommittee.
    My name is Michael Amarosa. I am the Senior Vice President 
of TruePosition. I would like to start by thanking you and 
Representative Markey and other subcommittee members for their 
leadership on this important public safety issue of wireless E-
911.
    The recently established Congressional E-911 Caucus, which 
Representatives Shimkus and Eshoo chair in the House, is a 
further source of support for this critical effort. In recent 
months, wireless E-911 implementation has made great progress. 
Carriers are pursuing their responsibilities forthrightly. 
Several States and local governments have under consideration 
legislation that will address the challenges of modernizing 911 
communication centers, public safety answering points, PSAPs, 
to receive the location information. The combination of focused 
and stable responsibilities that are seriously enforced with 
clear requirements for carriers and funding assistance for 911 
communication centers is a major source of progress.
    Timely and effective emergency response means getting the 
right people with the proper equipment to an emergency 
expeditiously. I spent 24 years working in public safety, 
including managing the largest 911 center in the Nation in New 
York City's Police Department. During my tenure, the NYPD 
undertook and completed major upgrades of the system supporting 
911.
    More recently, my role at TruePosition has given me the 
opportunity to work with the full range of 911 communication 
centers. The challenges the systems face today in implementing 
E-911 parallel past efforts to bring modern technology to 
emergency response. TruePosition has made a substantial 
investment to develop and provide commercially available 
location technologies that fully comply with the FCC 
requirements to find any phone, anywhere. TruePosition's 
research, development, testing and implementation have made E-
911 a reality. We continue to work with the public safety 
community and with the carriers both large and small to bring 
about pervasive E-911.
    TruePosition provides location technology today to wireless 
carriers in 37 markets. For example, TruePosition has deployed 
its technology in over 5,200 of Cingular cell sites. The 
implementation agreed upon by Cingular and the FCC was met and 
Cingular continues to use our technology to fulfill new 
requests for 911 communication centers for location information 
that meets the FCC's accuracy rules. The action by Cingular and 
TruePosition is a distinct and tangible demonstration that E-
911 is a reality.
    TruePosition's system works in almost any environment--
indoor, outdoor, urban, suburban or rural. It provides nearly 
100 percent yield and is not affected by obstructions as tall 
buildings or concrete walls. This accuracy in precision is 
critical for emergency responders as almost 55 million calls to 
911 are made annually from wireless phones. The discovery 
development and evaluation phase for wireless E-911 technology 
is largely complete. For progress to continue, it is important 
that the FCC's principal regulations be maintained with respect 
to implementation, timing, location, accuracy as that it 
technology is available for deployment. Wireless E-911 is a 
systems problem, resulting from the reality that different 
components of the system are independently controlled.
    The key to successful deployment lies in speeding up the 
lagging factors rather than slowing the leading ones. This 
means assuring investment in PSAP infrastructure and 
delineating the responsibilities of private interest carefully. 
Constant change to E-911 deployment deadlines and accuracy 
requirements are counterproductive. Public investment in 
ensuring the 911 communication centers are able to receive and 
use 911 and other information is a critical part of improving 
homeland security and should be considered a national priority 
deserving of financial assistance. Congress should buildupon 
its actions earlier this year in the Wartime Supplemental 
Appropriations Act, which recognized the relationship between 
E-911 deployment and homeland security by funding PSAP 
infrastructure improvements.
    The individuals who staff the local 911 centers are the 
first of the first responders, a citizen's contact when facing 
an emergency. Confronting the challenge of improving homeland 
security by improving the efficiency of our 911 centers will 
provide tangible improvements toward getting the right 
emergency help to an incident sooner.
    The current PSAP infrastructure faces the challenge of 
integrating various technologies to bring about an automatic 
number and automatic location information. Without an increased 
investment, the current PSAP infrastructure would be 
constrained in its ability to bring 911 to all Americans.
    Investment must be directed to upgrading the internal PSAP 
infrastructure so that that location information and other 
caller information now being provided by wireless carriers can 
be transmitted efficiently and effectively to 911 communication 
centers. Funding assistance should be first predicated upon 
specific objective of modernizing customer premise equipment of 
the 911 centers so that their infrastructure is capable of an 
effective and efficient receipt of an automatic number, 
automatic location, and other information via wireline, 
wireless and emerging forms of communications technology. 
Funding should also be available to train personnel to operate 
the upgraded systems. Second, present funding structures for 
911 communications remain a very serious problem. There are 
numerous circumstances where money is assessed against wireless 
phone use, ostensibly for the purpose of E-911 and other 
emergency communications service cost recovery, are much too 
often diverted to fund other programs or cover State and local 
government fiscal shortfalls. Any financial assistance should 
address and correct this problem.
    I commend the subcommittee's leadership in bringing forth 
nationwide enhanced 911 systems. E-911 will help individuals in 
need. It will save lives and property and make all of us more 
secure. TruePosition values this opportunity to appear before 
you today, and I thank you for the time that you have allotted 
to me.
    [The prepared statement of Michael Amarosa follows:]
     Prepared Statement of Michael Amarosa, Senior Vice President, 
                           TruePosition, Inc.
    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Michael Amarosa and I am Senior Vice President of TruePosition, Inc. 
It is a privilege to appear today as part of the Subcommittee's 
continuing oversight regarding implementing E911 Emergency Calling 
Systems. Enhanced 911 or E 911 is the technology that locates 
individuals calling for help from a wireless phone. The technology 
saves lives, protects property, and contributes to a more secure 
America.
    In recent months wireless E911 implementation has made great 
progress. Carriers are pursuing their responsibilities forthrightly. 
Moreover, several states and local governments have under active 
consideration legislation that will address the challenges of 
modernizing 911 communications centers--public safety answering points 
(PSAPs)--to receive location information. Just as significantly, 
Congress has passed legislation that integrates E911 with homeland 
security initiatives by making funding available to local communities 
as part of this National priority. The combination of focused and 
stable responsibilities that are seriously enforced with clear 
requirements for carriers and funding assistance for 911 communications 
centers is a major source of the progress.
    TruePosition is particularly proud that Cingular Wireless has 
implemented location capability in more than 5200 cell sites across the 
country with TruePosition technology. It highlights that TruePosition 
technology complies with the accuracy and other requirements (``Phase 
II requirements'') of the Federal Communications Commission (FCC). This 
result brings tangible meaning to E 911; those making calls on these 
networks can be located by PSAPs able to receive the information. The 
delivery of this capability to the American public, in conformance with 
the FCC's rules, brings a strong impetus to all interests pursuing 
implementation. It reflects that the FCC's requirements are reasonable 
and reachable.
    TruePosition commends the Subcommittee, Chairman Upton and 
Representative Markey, and other members for your lasting leadership on 
this important public safety issue. Much progress can be traced to the 
Committee's conviction that E 911 brings faster emergency response to 
all areas of the country, rural, urban and suburban, and that E 911 
should be a reality. The recently established Congressional E 911 
Caucus, which Representatives Shimkus and Eshoo chair in the House, is 
a further source of support to this critical effort.
    Timely and effective emergency response means getting the right 
people with the proper equipment to an emergency expeditiously. I spent 
24 years working in public safety and was honored to manage the largest 
911 center in the Nation, that of the New York City Police Department 
(NYPD), as Deputy Commissioner for Technological and Systems 
Development. A fundamental principle of the NYPD was to bring to public 
safety technologies that speed police, firefighter and emergency 
medical service response to the citizen needing help. During my tenure, 
the NYPD undertook and completed major upgrades of the systems 
supporting 911. This effort included obtaining funding, designing the 
system upgrades, and implementing the upgrades operationally. This 
endeavor reflects a microcosm of the ongoing national effort to deploy 
wireless E 911. Since leaving the NYPD, my role with TruePosition has 
given me the opportunity to work with the range of 911 communications 
centers, large and small, urban, rural and suburban. The challenges the 
system faces today in implementing E911 parallel past efforts to bring 
modern technology to emergency response.
    TruePosition's very existence evolves from wireless location 
technology. We have made a substantial investment to develop and 
provide commercially available location technologies that comply fully 
with requirements established by the FCC. TruePosition's research, 
development, testing and implementation have made E 911 a reality. We 
continue to work with the public safety community and with carriers, 
both large and small, to bring about pervasive E 911. The result, not 
only of our efforts, but those of government and carriers, is that we 
now see a tangible demonstration of what E911 brings to emergency 
response.
    TruePosition is providing location technology to wireless carriers 
in 37 markets. TruePosition's relationship with Cingular Wireless LLC 
represents the most definitive and extensive rollout of E 911 to date. 
Recently, TruePosition and Cingular Wireless expanded their 
relationship to encompass Cingular's GSM network. The agreement 
reflects TruePosition's extensive expertise, testing and experience in 
providing location solutions across the United States for the full 
range of wireless technologies.
    TruePosition has deployed its technology on over 5200 of Cingular's 
cell sites. The implementation schedule agreed upon by Cingular and the 
FCC was met, and Cingular continues to use our technology to fulfill 
new requests from 911 communications centers for location information 
that meets the FCC's accuracy rules. The action by Cingular and 
TruePosition is a distinct and tangible demonstration that E 911 is a 
reality.
                           trueposition, inc.
    TruePosition's systems work in almost any environment be it indoor, 
outdoor, urban or suburban, ``Anyphone, Anywhere'' <SUP>1</SUP>. The 
TruePosition system provides nearly 100% yield and is not affected by 
obstructions such as tall buildings or concrete walls. This capability 
is critical for emergency responders, who depend upon accurate and 
precise information regarding the location of the individual needing 
help.
---------------------------------------------------------------------------
    \1\ ``Anyphone, Anywhere'' is a registered trademark of 
TruePosition, Inc.
---------------------------------------------------------------------------
    When a person calls 911 from a traditional wireline phone, public 
safety agencies typically can automatically determine the individual's 
location; if the same person calls from a wireless phone, a public 
safety agency, historically must rely on the caller to provide an 
accurate location. As almost 55 million wireless calls to 911 are made 
annually from wireless phones, the continued rollout of E 911 is 
critical.
    TruePosition's technology is network-based; there is no 
modification necessary to consumer handsets; nor will consumers need to 
purchase new GPS-equipped handsets as is required by other E 911 
solutions. This means that TruePosition's system can locate any mobile 
phone, new as well as old. All existing phone sets can be located on 
the TruePosition system within the requirements set by the FCC, as soon 
as the wireless carrier completes deployment. There is no need to wait 
years as consumers slowly replace their handsets. Our technology 
encompasses the four major wireless air interfaces: automatic message 
processing system (AMPS), code-division multiple access (CDMA), time-
division multiple access (TDMA) and Global System for Mobile 
communications (GSM).
    The TruePosition system determines a wireless phone's geographical 
location by collecting and processing the RF signals transmitted by the 
phone. When a signal is transmitted--when a phone call is placed--the 
system gathers information about the signal from nearby mobile base 
stations. The data are transmitted to a processor that analyzes the 
information and computes the position of the caller by using 
TruePosition's patented Time Difference of Arrival (TDOA) and Angle of 
Arrival (AOA) algorithms. For a 911 call, the TruePosition system then 
determines the location of the call and delivers the information so 
that the appropriate PSAP can dispatch assistance to the caller.
    Recently, TruePosition's technology, U-TDOA, one of three high-
accuracy wireless location technologies, has been formally standardized 
by the Third Generation Partnership Project (3GPP), the official 
governing body for development and standardization of GSM and UMTS 
networks. The 3GPP decision provides wireless operators with the 
assurance that TruePosition's technology will have seamless 
interoperability between various vendors' equipment and that the 
technology will be widely accepted and maintained. It is another 
indication of the reality of E 911.
          the federal communications commission e 911 mandate
    Wireless telephone carriers are required to provide Automatic 
Location Identification (ALI). Under the FCC's rules there are separate 
accuracy requirements and deployment schedules for network-based and 
handset-based technologies. The FCC has also developed different 
timetables depending on carrier size. FCC enforcement actions have led 
to several of the largest carriers committing to specific deployment 
schedules.
    The FCC's efforts have been ongoing since 1994. The principal 
requirements have been in place since 1996. The FCC's policies and 
enforcement actions demonstrate substantial judgment and commitment, 
and encompass expertise in engineering, economics and law. It has 
comprehended the investment that must be made and the evolving 
technology. It has resolved difficult issues and struck a careful 
balance between the critical need for location information by the 
American public, while affording carriers and providers adequate time 
to come into compliance. Through its action, the FCC has made clear how 
critical E 911 is; it can be the difference as to whether assistance 
can arrive in time.
    TruePosition's network technology network is not only effective but 
also fully compliant with the FCC accuracy standards. The FCC has 
scrutinized carrier progress. It has also sought to define the 
parameters of responsibilities among the various interests so as bring 
accountability to the entire process. Overall, the FCC has pursued a 
``results-oriented, cooperative approach'' where tangible displays of 
good faith are viewed as legitimate efforts to meet the objective of 
pervasive E 911.
    Recognizing the range of interests that must join together in this 
effort, and the need to emphasize the public policy that E 911 be a 
reality, the FCC held a productive forum addressing E 911 
implementation. At the forum, the various interests--government 
agencies, carriers, and public safety organizations--participated in 
day long discussions addressing how to achieve pervasive E 911. The 
FCC's commitment toward bringing about E 911 to all Americans is 
demonstrated by the leadership role it has shown.
                         the 911 infrastructure
    The discovery, development, and evaluation phase for wireless E 911 
technology is largely complete. Technology unquestionably capable of 
providing the level of accuracy mandated by the FCC is available. 
Installation is largely accomplished in several major markets 
demonstrating what can be accomplished with reasonable effort.
    For progress to continue, it is important that the FCC's principal 
regulations be maintained with respect to implementation timing and 
location accuracy, as that technology is available for deployment. The 
progress that has been made, and that which will follow, can be 
attributed to delineating clearly the responsibilities of each of the 
interests that needs to cooperate to implement E 911. The respective 
obligations of carriers, local exchange carriers and public safety 
agencies must continue to be unmistakable.
    In the context of the 911 communications centers, wireless E 911 
deployment is a systems problem, resulting in part from the reality 
that different components of the system are independently controlled. 
In my experience, the key to successful deployment in this situation 
lies in speeding up the lagging factors rather than slowing the leading 
factors. As a practical matter, this means assuring investment in the 
PSAP infrastructure, and delineating the responsibilities of private 
interests (i.e. the carriers) carefully. The obligations of the 
wireless carriers, the local exchange carriers, and the other entities 
that contribute to E 911 effectiveness must be spelled out and they 
must be stable. Constant changes to E 911 deployment deadlines and 
accuracy requirements must be recognized as counterproductive.
    There is reason for optimism. The recent progress in E 911 
deployment carries a very important implication for how soon E 911 
becomes universally available. The deployment of E 911 systems that has 
begun will produce vast and increasing amounts of relevant information 
as an inevitable by-product. That information is likely to prove 
invaluable to all of the wireless E 911 stakeholders--consumers, public 
safety agencies, PSAP service providers, wireless carriers, technology 
companies, and regulators. TruePosition believes that it will affect 
public demand for wireless E 911 service; demonstrate best practices 
with respect to design, deployment, and operation of wireless E 911 
equipment and service; and provide benchmarks against which to judge 
progress and performance.
    Again, my experience in public safety counsels that once there is 
tangible evidence of a service, and how it can speed emergency 
response, the public comprehends the importance and advocates its 
priority. Once embraced by a community's political leadership, the 
financial challenges to finding the public investment necessary to 
enhance the emergency response infrastructure moves toward resolution.
                     funding the 911 infrastructure
    Public investment in ensuring that 911 communications centers are 
able to receive and use E 911 and other information is a critical part 
of improving homeland security and should be considered a National 
priority deserving of financial assistance. The individuals who staff 
the local 911 centers are the first responders a citizen contacts when 
facing an emergency. Confronting the challenge of improving homeland 
security by improving the efficiency of the Nation's 911 centers will 
provide tangible improvement toward getting the right emergency help to 
an incident sooner.
    The current PSAP infrastructure, the communications centers that 
receive 911 calls, face the challenge of integrating the varying 
technologies that bring about automatic number information and 
automatic location information that are the fundamentals of E 911. 
Without increased investment, the current PSAP infrastructure will be 
constrained in its ability to bring E 911 to all Americans. Investment 
must be directed to upgrading internal PSAP infrastructure so that the 
location information and other caller information now being provided by 
wireless carriers can be transmitted efficiently and effectively to the 
911 communications center. Fostering investment in the PSAP 
infrastructure is a critical element in bringing E 911 to the public. 
It will enhance the quality of emergency response.
    The funding issue encompasses at least two elements. The first is 
providing adequate funding that allows each community to make the 
necessary upgrades to receive E 911 information. The second is to 
analyze present funding mechanisms to determine whether monies are 
appropriately directed.
    We begin with one advantage. The formal institutional structures 
are in place. There is no need to create a new significant governmental 
apparatus to provide what is needed. State and local governments have 
built and managed 911 communication centers effectively. The centers 
are an important part of providing core public safety services to their 
communities. In a very real way, 911 communications centers are 
instrumental in providing the most basic government service and their 
performance is a measure of how well government is responding to its 
citizens.
    Funding assistance should be predicated on the specific objective 
of modernizing customer premises equipment of the 911 centers, 
including design and modification so that the 911 communication center 
infrastructure is capable of effective and efficient receipt of 
automatic number, automatic location, and other information via 
wirleline, wireless and emerging technology forms of communication. 
Funding should also be available to train personnel to operate the 
upgraded systems.
    In this latter regard, the ongoing educational efforts of the 
National Emergency Numbering Association (NENA) has significantly aided 
both small and large PSAPs in understanding the FCC's rules and what 
must be undertaken to meet the formal requirements for making a valid 
request to a carrier for wireless location information. These efforts 
should continue and will assist in ensuring that funds are properly 
directed to meet the goal of a nationwide E 911 capability.
    In an important related issue, present funding structures for 911 
communications centers remain a very serious problem. There are 
numerous circumstances where the monies assessed against wireless phone 
use, ostensibly for purposes of E 911 and other emergency 
communications service cost recovery, are much too often diverted to 
fund other programs or cover state and local government fiscal 
shortfalls. Any financial assistance should address and correct this 
problem. TruePosition believes that this will ultimately be corrected. 
As wireless location is implemented, it will produce material 
improvements in safety of life and property. As dramatic episodes of 
the technology's effectiveness come to light, it should create a public 
demand for installation in every community, making the diversion of 
funds less likely. In the meantime, however, it is a practice that 
should be actively discouraged.
    An indication of progress is that several state legislatures in 
their current sessions have under active consideration proposals that 
will establish or reform funding mechanisms for PSAP implementation of 
E 911. These important endeavors, when combined with Congress' action 
in the Wartime Supplemental Appropriations Act, signed by the President 
on April 16, 2003, which recognized that modernizing 911 communications 
centers so E 911 information can be received is an integral part of 
homeland security, and makes available resources to state and local 
governments, reflects significant progress.
                                summary
    E 911 is a reality. Its place in providing a more secure homeland 
by providing more expeditious response to the citizen as a critical 
tool for the Nation's first responders is demonstrated by the progress 
made since the Subcommittee's last hearing. TruePosition continues to 
work closely with large and small public safety agencies and the 
dedicated associations and individuals that represent them, to best 
integrate our system into the 911 communications centers that receive 
emergency calls. We have also worked closely with wireless carriers in 
their significant cooperative effort toward the goal of E 911 
deployment. We think that an emphasis on those circumstances where 
challenges remains, such as the need for investment to upgrade the 
nation's 911 communication centers, while maintaining the principal E 
911 schedules and accuracy standards, is the most direct and timely 
path to pervasive wireless E 911.
    We commend the Subcommittee's leadership in bringing forth 
nationwide Enhanced 911 systems. E 911 will help individuals in need. 
It will save lives and property and make all of us more secure.
    TruePosition values the opportunity to appear before you today.

    Mr. Upton. Again, we appreciate all of your testimony this 
morning. At this point we will begin questioning from the 
members that are here.
    The bottom line is this is a national priority. We have had 
a number of hearings on this issue, and I can recall that 
virtually every member of this panel had made a 911 call using 
their cellular phone. There was some frustration for those 
calls that didn't come through. Mr. Engel raised the case of a 
very tragic situation earlier this year, those four young kids 
on the river. And while I have called for the establishment of 
a national E-911 office in the Homeland Security Department, as 
Mr. Hatfield had recommended in his report, I was interested in 
Mr. Green's comments, and I don't know whether Homeland 
Security is the best place.
    Maybe particularly Mr. Hatfield, you are here today as a 
private citizen but as the former Acting Administrator of NTIA, 
what are your thoughts between those two as to where it might 
go?
    Mr. Hatfield. Thank you, Mr. Chairman. I don't want to 
start out by ducking your question.
    Mr. Upton. I am not going to let you.
    Mr. Hatfield. But, quite frankly, as I said in my 
testimony, I just don't know all the dynamics now among the 
different agencies here that have responsibility in this area. 
I would say you mentioned NTIA. Historically, NTIA in the very 
beginning played a very active role in getting the original 911 
out. So perhaps that would be a possibility but basically I am 
afraid I am ducking your question because I just don't feel I 
have my hand on the pulse of what is going on here.
    Mr. Upton. You agree that we need someone at the Federal 
level to ride herd on the States? Particularly frustrating, to 
I am sure every member of this panel, is the fact that some 
States have a record of diverting the funds collected. Some 
States don't even have a State Coordinator, and even those that 
do, some of them are not all that efficient and may just be a 
name plate on the door with really no power to work with the 
counties or the local first responders.
    Any other comments on the panel in terms of where the 
national office might fit? Any recommendations or thoughts?
    Mr. Melcher. Well, I think from a public safety 
perspective, we wouldn't exactly have a target for you, but the 
input we would like to give you is that it should make up 
expertise that deals with what we are dealing with. Homeland 
Security may or may not be the best place. It is really a 
telecom/public safety issue, as I mentioned earlier, and as you 
have the appropriate expertise from the appropriate 
constituents that are involved, I think you have the model for 
success.
    One of the things that we may be able to deliver to you is 
the consensus recommendation on where that should go and that 
is what is going on with the SWAT initiative right now with all 
of the players, and while I don't want to preempt the outcome 
of that because we are still in the process to which we are 
very committed, perhaps that might be one of the deliverables 
that you could ask us for, and we might be able to give you 
some recommendations, as a group, of consensus.
    Mr. Upton. Mr. Muleta, you are not volunteering the FCC; is 
that right?
    Mr. Muleta. Yes. I think in order for the FCC to do what I 
think you are proposing, which is sort of ride herd of all of 
the stakeholders, I think there would have to be sort of both 
explicit funding and authority associated with that. So the 
FCC, in the alternative, has taken on this Coordination 
Initiative. We have established electronic data bases that have 
information. So one of Professor Hatfield's recommendations is 
that we, through some mechanism, become a national 
clearinghouse of information so that the stakeholders can all 
keep track of where they are with each other. So we are 
achieving that. We have the Coordination Initiative in which we 
brought all the stakeholders and are trying to figure out what 
have been positive success stories and how those can be 
translated into places where they haven't been working. So I 
think the FCC is actually playing in that role, absent explicit 
authority to ride over--ride herd, as you say, over the various 
stakeholders.
    Mr. Upton. Mr. Korsmo, explain to me as a consumer, when I 
send my check in for my service and there is a fee attached for 
E-911, follow for me where my dollars go because we have the 
fingers pointing at the PSAPs, at the wireless, the State 
level. We want the job done. Where is the money going when I 
write out my check and how is it disbursed to the LECs, to the 
PSAPs, to the States? How do you do that and how does it vary 
from State to State?
    Mr. Korsmo. I am sure Mr. Melcher can help me on the 
distribution part of that.
    Mr. Upton. What do we need to do to make sure that all of 
the money collected goes for the purposes that it was intended, 
so that we can get to Phase II in every county?
    Mr. Korsmo. When we act essentially as a tax collection 
point for the States, when we put a 911 tax on our bill, that 
money does not go to us. It is passed through to the States, as 
any other tax would be passed through to the States. From there 
the States do various things with it. It really depends, State 
by State, on the administrative apparatus that has been set up, 
and what we notice is it depends very much, as I said in my 
testimony, on the leadership within that State how strong the 
leadership has been in the public safety interest as to how 
that money is used. In some States, that money, for example, is 
flowed fairly directly to public safety agencies, and in some 
States, there is even cost recovery given to wireless carriers 
to incent wireless carriers and give them compensation for 
deploying E-911 quickly. In other States, that money goes 
places where frankly it probably is not benefiting E-911.
    Mr. Upton. Mr. Melcher, and I know my time is expiring 
rapidly here, but is there such a thing as a State by State 
analysis of what has happened to the dollars collected? So we 
can look at what has happened at Michigan versus New York 
versus Florida?
    Mr. Melcher. Yes, sir, we can help you with that. We would 
be glad to provide that to you in writing, but I believe in all 
50 States, we have a breakdown of how the funding is spent. A 
lot of it is geared toward how it gets to the locals. A good 
example, in Texas there are two different ways of 
administering, actually three but one is more local and 
regional in nature and the other is through the large councils 
of government. In the State of Texas, people like Mr. Korsmo's 
company send the money to our State Controller. They distribute 
the money based on the population to the districts, there are 
communication districts, like our own, which are regional 
programs or to the studies that administer their own, but for 
the Councils of Government Program they are run by the State 
911 office and they are subject to legislative appropriation. 
And in the last two sessions the State has not appropriated 
that wireless money to those programs. So you have the 
``haves'' and the ``have nots'' even in one State, but NENA 
will be glad to give you a breakdown of our observation of 
funds distribution.
    Mr. Upton. Thank you very much. The next member is going to 
be Mr. Engel, recognized for 5 minutes.
    Mr. Engel. Thank you, Mr. Chairman.
    And the testimony has been very, very good. I want to start 
asking the questions of the two people on the panel that sound 
like me from New York. Let me start with Mr. Amarosa. You spent 
24 years with the NYPD?
    Mr. Amarosa. That is correct.
    Mr. Engel. And that is quite an accomplishment in itself, 
and I realize that you are now on the outside, but I would like 
you to comment, if you can from your own perspective, as to why 
the NYPD is so far behind in deploying technology for E-911.
    As I mentioned in my opening statement, according to NENA, 
there is not one PSAP in the Bronx equipped to handle a 
wireless 911 call. I think you have a unique perspective on 
that and I am wondering----
    Mr. Amarosa. It is difficult to say. I have been away from 
it for over 5\1/2\ years, and I think what you have to look at 
is how they are equipped to handle the information once it came 
in. They have been working very hard to try to get their CAD 
system, the computer aided dispatch, up to speed in order to 
actually get that information and allow it to be blown into the 
system directly. They have been working with the wireless 
carriers to have location technology available in New York 
City. At this point in time, and only up until recently as you 
know, the 70 cent surcharge that was collected did not come to 
the city of New York. And that is something that we have been 
fighting for a lot of years. So part of it became a funding 
issue. A lot of that was sent upstate of that 70, and only 
recently was there any money added on for the city. So I think 
it is a combination of issues that have occurred. Some of it is 
the plant equipment that they have, the customer premise 
equipment I should say that they have. Some of it, I think, is 
the ability of funding in order to do that because the 
surcharge, the 35 cent surcharge that was instituted back in 
the early 1990's to fund the 911 system that we have today, was 
strictly to maintain the wireless system as it is today without 
the E-911 component added on at that point in time.
    So it is a funding, it is an equipment issue. I think they 
have their arms around it. From what I have been told today, 
they do have their arms around it. They are working with the 
local exchange carrier. They are working with the wireless 
companies that are in New York City to bring this forward, and 
I think you are going to see it very, very shortly.
    Mr. Engel. Thank you. I appreciate the answer because you 
really answered even the follow-up question that I had in mind 
about what is happening today; so I thank you for that.
    Let me turn to the other New Yorker, Mr. O'Connor. And in 
Professor Hatfield's report he found that LECs are an integral 
part of the E-911 equation but that there remain technical 
hurdles to integrate wireline and wireless systems. Verizon, 
obviously, is a very large provider of both services. So could 
you just tell us, enhance a little bit, what has your company 
done to overcome these technical hurdles? I know you touched on 
it in your testimony.
    Mr. O'Connor. Yes, I did Mr. Congressman. Fundamentally, it 
is actually creating an--it is an IT team that understands 
exactly how the data bases and the links work between the 
mobile carrier switch, the selective router that the LEC has, 
the links between those selective routers in the PSAP 
locations, and then the back-door channel for the location 
technology, which goes from the mobile switch to generally a 
third-party provider, and then from the third-party provider 
through the data bases and into the PSAP. So that the PSAP 
position, the dispatcher, gets a married set of information 
that shows a telephone number, and it shows a location, either 
an address or in the case of Phase II, a latitude and 
longitude. So in the Verizon companies, we devoted a whole team 
to that expertise and used that team, Boston-located team with 
a very different accent than I have, and sent them around the 
country. So that when a PSAP begins to think of the process how 
would I upgrade, we will go there and we will help them 
understand all the piece parts.
    This is what you need to do to your customer premise 
equipment. This is what the mobile carriers are going to need 
to do. Here is how it would work. And that coordination role 
has served us well.
    Mr. Engel. Thank you. I am wondering, Mr. Hatfield if you 
have any comment on that?
    Mr. Hatfield. I think it is important to draw a distinction 
between the technology that is employed today and the steps 
that need to be taken to make it work today and some of the 
longer-term issues. As I expressed in my report, I am concerned 
with the ability of the current system to scale. I think John 
Melcher essentially said the same thing. A lot of the stuff, 
unfortunately, is still analog equipment in a digital world. So 
as I said in my report, I think it is a real compliment to the 
engineers, and so forth, that have developed the system that we 
have, but I am worried long-term whether it can scale and 
evolve into what we need to provide--meet the requirements in 
the future.
    Mr. Engel. Thank you.
    Mr. Melcher, would you agree with that and could you also 
comment since I mentioned before my question to Mr. Amarosa 
that NENA had stated that there is not one PSAP in the Bronx 
equipped to handle a wireless 911 call?
    Mr. Melcher. I think the sheer volume of technology that is 
out there now that has to be either replaced or upgraded, or 
even in some cases the amount of equipment needs to be reduced, 
is a huge challenge. As Mr. O'Connor mentioned, a lot of the 
times the public safety folks look to the local exchange 
carrier as their system integrator. They may not be possessed 
of the technical skills or the coordinating skills, and they 
look to their vendor to handle that for them. There has been 
only recent regulatory relief, and there needs to be some more 
regulatory relief to get rid of so many of these switches. We 
don't need 800 to do the job, but also it is the interfaces 
amongst carriers. It has taken a while to get some of these 
interface issues resolved, and we are still working on some of 
those through our partnership with ATIS and the standards 
community. I think what you will find, though, is if we can 
accelerate deployment and it is going to require some seed 
money--we are not talking a huge delta here, but our findings 
are that we think this is going to be somewhere between an $8 
to $10 billion-issue over the next 5 years, but before you gasp 
and grab your chest, we are trying to figure out exactly how 
much money is being raised today, and so we don't think the 
delta that is going to be that huge, but if we can get some a 
little bit of congressional input, some seed money out there, I 
think you will see the models develop that can be quickly 
replicated successfully throughout the country, and we are 
looking at a much more short-term resolution as opposed to 
long-term.
    Mr. Engel. Thank you, Mr. Chairman. He has been very 
generous with my time and I thank him for that.
    Mr. Upton. Thank you, Mr. Engel.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I am going to take 
the liberty of quoting a letter that Mr. Addington wrote, 
actually to Bob Goodlatte. I am not going to submit it for the 
record because I haven't gotten any of these guys' permission 
to do that.
    Mr. Amarosa, I am not trying to put you on the spot, but 
this is just what he writes. ``Unfortunately, technology has 
not kept up with our business plans.'' He goes at great length 
of how they are trying to make this rollout. ``Both network 
solution providers that I am aware of, TruePosition and 
Grayson, have been and continue to be unable to offer a 
solution for our Motorola network platform, and I have been 
trying to obtain a solution for over a year.''
    The question is not to you, Mr. Amarosa. But, Mr. Hatfield, 
did you encounter much of anecdotal evidence and that is what 
this is, about these types of problems during your inquiry?
    Mr. Hatfield. I am sorry. I am a little confused about the 
context. What technology is this referring to? What area 
interface?
    Mr. Shimkus. Well, they have the Motorola platform, and 
they are trying to get the location device. They are having 
difficulty. And the question really pertains to the ability to 
have available technology to do this rollout and really the 
issue of vendors.
    Mr. Hatfield. I assume that this relates probably to some 
of the technology that is being phased out. I assume either 
analog or TDMA technology that is being phased out and there 
may not be readily available technological solutions from some 
of the rural carriers. I would guess that that is the context.
    Mr. Shimkus. Let me then actually move this to Mr. 
Callahan, who is a rural provider, and have his comments on 
this or other hurdles, especially on the vendor issue first and 
then anything else.
    Mr. Callahan. Certainly on the vendor issue, basically we 
have experienced and a lot of our RCA members what you are 
basically alluding to there, is that the vendors are not 
willing to commit in writing that they can meet the FCC 
accuracy standards when you have only a rural market.
    When you have many cell sites that are border cell sites, 
when you have a small market, you are not able to triangulate 
which the network solutions are generally based on 
triangulation. So first off, I would tell you what I believe 
the gentleman from your area has experienced is an 
unwillingness from the network solution providers to actually 
sign a contract and say that it will meet those needs. I 
believe that is where he currently is, based on conversations I 
have personally had with him.
    As far as other issues there, relative to rural if you 
don't mind----
    Mr. Shimkus. Yes.
    Mr. Callahan. I would just comment the realities are 300 
meters or 1,000 feet. Right here in Washington, DC that is a 
very large measure, if you will, because somebody could be on 
the tenth floor, ten blocks away, how are you going to find 
them? You just don't have those situations in a rural 
environment. And I am not prepared to say what the standards 
should be. I am simply saying the standards could be possibly 
relaxed to the point that the technology that is out there was 
usable. We may have a more workable solution, although we would 
still have many cost hurdles. Because today, in order to 
accomplish this, we would simply have to remove cell sites to 
legally meet the mandates of the FCC, as we understand the 
technology from the vendors.
    Mr. Shimkus. And that is the benefit of having them here, 
so they can hear some of these concerns. I know that he also 
addresses the whole issue of a string of pearls, where because 
of rural areas, you want to place the cell sites along a major 
road. You don't get the benefit of triangulation, and this is 
all at a cost.
    Mr. Amarosa, I am going to give you a chance to respond but 
because cost is such a big issue in this for all the different 
aspects, whether the PSAP has the money to make the application 
or whether the cellular company is ready to provide the 
information, I really want our friends at the FCC--and I 
understand how local number portability has evolved. It has 
evolved through a regulatory body interpreting the Telecom Act, 
which I wasn't a member when it was passed. I am not sure that 
the members here, that that was part of their intent; however, 
you have been somewhat successful in defending that in court; 
so it is coming, and I don't think any of us has problems with 
it coming. The problem we have is we have tremendous capital 
constraints right now to meet all the requirements from all the 
folks who want to implement enhanced 911. And before we try to 
take some legislative action, we are really in essence asking 
the FCC to help us before we have to try to move legislation on 
delaying the November deadline because we have got to set 
priorities. And do we want to have enhanced 911 ubiquitously 
across the country, or do we want to have local number 
portability? What is the real priority that we should 
establish? And I would think the FCC would want to establish 
enhanced 911 for safety issues.
    So please carry that back just because in the quote, we 
talk about TruePosition. And let me just say, before I give you 
a chance to respond, that what I found is being Chairman of the 
Enhanced-911 Caucus is that at first there are a lot of people 
who want to point the finger and blame different groups. The 
reality is different areas of the country are at different 
positions and different times, and we are just trying to get 
everybody to work together to get this to happen. So had he not 
mentioned you, I wouldn't have mentioned it, but I wanted to 
quote it accurately. So Mr. Amarosa, if you want to give any 
response as far as the vendor issue with my friend from my 
district, Mr. Addington.
    Mr. Amarosa. Sure. We have been working with Terry 
Addington and with the RCA group on this for quite a while. As 
you come across the country, there are some switches that are 
nonstandardized. The marketplace has changed in some respects. 
Where we used to use control channel capability to do location, 
where now it is voice channel that is being used in some of the 
voice channel capability is not adaptable to a particular 
switch. So we are working with Mr. Addington's particular 
manufacturer, switch manufacturer, at this point to try to 
overcome that problem so that there is a plan that is out there 
to try to address this. Whether that is going to come to 
fruition or not I can't tell you, but it is not for a lack of 
effort by all of the parties, and not just TruePosition but all 
of the parties that are involved in this effort.
    So it is something that we are on top of, and we have been 
working with them for a while.
    Mr. Shimkus. I thank you, and it just brings up another 
hurdle that we have in moving this forward.
    Mr. Chairman, of course you were very kind with my time 
also, and I thank you and yield back.
    Mr. Upton. Thank you. Mr. Towns.
    Mr. Towns. Thank you, Mr. Chairman. I guess I would direct 
this to Mr. Melcher and Mr. Hatfield. A number of States 
including my home State, New York, have taken funds collected 
for E-911 deployment and used them for other purposes. How has 
this affected E-911, and should the Congress act to prevent 
this kind of stuff from happening?
    Mr. Melcher. Well, I think that as you probably well know, 
Congressman, that that is almost a loaded question but it is--
--
    Mr. Towns. Almost.
    Mr. Melcher. It is truly a terrible situation when 
technology is available and funding is not. And this is really 
not rocket science anymore. A few years ago when we were 
talking about this before this very committee, some questions 
still remained to be answered about technology.
    Now, technology is not the issue. It is really a matter of 
political will and of funding, and where the former exists in 
earnest, the latter should surely follow.
    Unfortunately, I think that the temptation in recent 
economic times has been overwhelming for some of these 
legislative bodies. And they have seen this bank account built 
up over the years to prepare for the availability of this 
technology and the PSAP community may or may not have been 
completely ready, and so they took the funds and used them for 
other purposes.
    Obviously, being a public servant whose life is charged 
with saving lives, I find this to be reprehensible. But I also 
understand the political realities in tough economic times. I 
think the true answer to your question is what I think this 
body is trying to do, establish and affirm that 911 must be our 
top priority.
    We have many demands on us today. And the telecom industry 
has a lot of mandates and regulations. Public safety has all 
kinds of constraints and new trials and tribulations. But I 
think the establishment and the affirmation and the enforcement 
of 911 as being a top priority is truly the answer to the 
dilemma that you describe.
    Mr. Towns. Thank you. Mr. Hatfield.
    Mr. Hatfield. I would just echo, I think, basically what 
John says. I think it is a little difficulty--I'd have a little 
difficulty saying that I would apply my judgment over the 
judgment of locally democratically elected people in making 
decisions of how revenues should be allocated and for what 
purposes. But having said that, I think it is very clear to me 
that the public is being misled when they see the item on their 
bill thinking it is going to one purpose and being used for 
something else. So that really does trouble me and offends me, 
quite candidly.
    Mr. Towns. Let me just follow up on that. You know, some 
folks are saying that the States should establish a trust fund 
or the Federal Government should do it. You know, what is your 
reaction to that? Because I agree with you. I mean, if it's 
indicated that this should go for a purpose, then it should go 
for that.
    Mr. Hatfield. I probably should back up a little bit here.
    See, I think most economists would argue that it would be 
better to support the sort of thing through a broader-based, 
broader-based tax revenues, so that you don't distort prices in 
the marketplace. So I would start with that. I think that's 
probably the preferable solution. But having said that, if the 
second best solution then is, I think, the sort of surcharge 
that you are talking about, and I think you can tell from the 
tone of my testimony that I feel that 911 is a very, very vital 
service to the public and probably increasingly so going 
forward. And therefore, I would support the second best 
solution which is a fund of some sort dedicated to that 
purpose.
    Mr. Towns. Mr. Melcher.
    Mr. Melcher. Actually, I think that that's a good role for 
the Federal Government to play in making up that difference. We 
are finding through our survey work that so much of 911 
calling, especially from wireless devices, is not related to 
your own personal emergency, but you are reporting something 
that's happening to someone else. In the old days, you know you 
used to crank the phone and say, Sarah, get me the sheriff in 
Mayberry. You were reporting on something that personally 
affected you or a member of your family. Now, there is a great 
percentage of these calls that are for someone other than 
yourself. So it really does kind of boil down to a public good 
as opposed to a personal good. In the beginning it was user 
pays. If you have got dial tone or its equivalent, you were the 
user, so you should pay a fee. And these were surcharges, not 
taxes rather. But in the event that now we have more people 
benefiting from the service, I think it does warrant some 
broader look at how it is funded.
    But I think if you leave the basic funding mechanisms in 
place, make sure there are some carrots and some sticks. Most 
people don't realize that EMS the paramedic program in this 
country was really started by a DOT effort through NTSA, and 
they gave seed money out to upgrade ambulances because they 
used to be just the hearses with the red lights on top, and if 
you died on the way to the hospital, well, you would make a 
left instead of a right, and, you know, the provider is still 
happy. But through seed money out there, they created standards 
for ambulances, and they created standards for training of 
paramedics and said, if you actually have the right equipment 
on board, can we save some lives and let that go for a few 
years, and they found that they could.
    And so we morphed to where we are today, and they said, if 
you don't have a State program in place that has standards in 
place for EMS, then we are going to cutoff your highway funds 
and that got the attention of many Governors who were lagging 
at the time and some State legislatures. So there are some 
examples out there about carrots and sticks that allow us to, I 
think, apply them to today's dilemma.
    Mr. Towns. Thank you very much, and thank you, Mr. 
Chairman.
    Mr. Upton. Thank you, Mr. Towns.
    Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman.
    I want to go, I think, to Mr. Callahan on the issue of 
rural areas and accuracy. Can you detail for me a little more 
in terms of what the requirements are that you are under? I 
represent a district larger than any State this side of the 
Mississippi River, so it is a long way between cell towers. 
Sometimes that's okay. My cell phone doesn't work, and that can 
be a relief. But tell me what this means for a rural area?
    Mr. Callahan. Are you speaking to the current standards?
    Mr. Walden. Current standards, the costs that you would 
face, or a provider would face, to meet the current standards 
in a rural area.
    Mr. Callahan. Well, first off, we are not convinced based 
on negotiations with the vendors that we can actually meet 
those standards the way our system is configured today with the 
coverage we have today.
    In our case, where we cover virtually all of the terrain at 
least with a three-watt analog phone, the only way we think we 
could make that 95 percent of the time accuracy within 300 
meters, would be literally to pull out cell sites and remove 
service, and, of course, that's the last thing we want to do. 
We are local for a reason and that's our advantage.
    So we would be, you know, hard pressed to try to meet those 
requirements because we don't think there is a technical 
solution. If one were available, we then run across the issue, 
certainly, of funding and what's the greater good here? For us 
to roll out a solution would be approximately the same cost of 
what we will spend per year for the next 4 years rolling out a 
new technology? So it is the equivalent of the whole year of 
capital spending putting out a new technology. So it's 
extremely substantial to us.
    Mr. Walden. And there is an issue between analog and 
digital? Or is it just the new standards? Or is it the number 
of towers you have so you can triangulate the signals?
    Mr. Callahan. With a network based solution, which is what 
would be required for analog or amps, TDMA--GSM, in its current 
flavor, I don't think has any phones that are able to do 
anything other than network base. For any network based 
solution, you are pretty much going to have some form of 
triangulation to figure out about where that unit is. In our 
case, we don't think that we are going to be able to get there 
95 percent of the time with the technology that's there. I 
would agree that the technology, as I understand it, can get 
there if I also served New Orleans and I served my local area, 
because then I'd have so many subscribers in the New Orleans 
market and in some of the areas of our market, that we could 
locate more than 95 percent of the time.
    You know, we don't know where the best solution is other 
than we think we have to keep talking about either relaxing the 
standards or looking technically at certain cell sites, 
possibly, which is just an idea that just kind of popped in my 
head just now. But, you know, looking at specific cell sites 
and determining those cell sites would not be able to meet 
those requirements and maybe that would be a way around it for 
rural areas or those standards for those cell sites could be 
relaxed. Somewhere along those lines, we should be able to 
meet.
    Mr. Walden. Well, I have to think my constituents would 
rather have you come close than not be there at all. Isn't that 
really what you are telling me, is that you can't afford to be 
there if you have to meet these standards, so you might have to 
just pull service?
    Mr. Callahan. Absolutely. Basically, as I testified, basic 
911 service in many of the communities where we serve and even 
more communities in many of our brethren RCA companies would be 
effected to the point that they will definitely be pulling back 
service, and there will be no service in those areas.
    So you won't get a basic 911 call off. It just seems 
ludicrous that the rules would basically force us into pulling 
sites back, but as we understand the way they would work today, 
for us to be in compliance, we would have to do that.
    Mr. Walden. And is that something the FCC then is going to 
enforce?
    Mr. Callahan. That is my understanding.
    Mr. Walden. Can you address how this will work in a rural 
area?
    Mr. Muleta. Yes. We are, first of all, we have extended 
timelines for mid and small-sized carriers, rural carriers, in 
terms of their implementation of this technology. I think what 
we are also looking at is based on our continuing dialog with 
our carriers, such as Mr. Callahan's, is to try and think 
through these issues and trying to manage the issue of as you 
said, you know, having something that is available, but maybe 
not as strict, versus not having it at all.
    So we are very concerned with this issue, and we are 
looking into it and trying to find appropriate solutions. We 
are also working with new vendors that are coming in, having 
technology more specific to those markets.
    Mr. Walden. Okay. Because I really wouldn't say that--I 
understand why you need to know which building in a city and 
how you have all these cell towers and you can do all that, but 
I am telling you, you get out in a district like mine or in 
Montana or in Wyoming, you may go an hour before you see 
another vehicle, and so I hope you will be understanding one 
size isn't going to fit every shoe, and yet we want to get 
there with the 911. I guess I sat here listening to the funding 
issue knowing my State had a fund of $10 million that they are 
now going to do something else with, and they have got enormous 
budgets problems, and I respect their local decisionmaking 
authority. But are you telling me that on the bill it says 911 
tax, that that is what it says, and they are collecting it 
for--well, how are they not committing mail fraud then by 
sending out a bill saying here is what you are paying? Because 
that's what I get asked when I go out there. What are all these 
fees and things I am paying for? And I say, well, that's paying 
911 and this is that. How is that not simply mail fraud? 
Because if I send out a letter that says I am collecting money 
for one purpose and use it for another, aren't you I--I mean, 
not that I do that, but isn't that mail fraud? Don't you be 
looking at all those letters Mr. Markey, but no, I mean, 
seriously. We have got to quit perpetrating frauds on 
taxpayers. It's no wonder none of us has any credibility. 
Government does this all the time, and yet it's your companies 
that have them on your bills mandated, I assume, by some level 
of government. And so I know Mr. Markey has a lot of 
credibility personally. I heard that. But you know what I am 
saying. We used to have a dollar tax on tires to get rid of the 
surplus tires that were being recycled. And when the Department 
of Environmental Quality told us they were doing that, 
everybody made a scramble for that buck a tire tax to spend on 
something else. And I was in a position to say no, and we 
stopped it because how do you ever restore credibility if you 
don't do what you say you are going to do? So I ask that 
rhetorically.
    Maybe, Mr. Hatfield, you are the professor outside of the 
private sector here that maybe tells us how do we get at that? 
Do we mandate that if you are going to put a 911 tax on a bill, 
then that can be all it is allowed to be used for?
    Mr. Hatfield. I am not sure that an academic is the 
appropriate answer to that. It seems that's probably even 
more--but I agree as I said before. There is sort of a truth in 
labeling here that seems ought to apply. And I think that's--I 
am not an academic, I am just sort of a private citizen thing. 
If there is a line on there that says one thing, it seems to me 
that you ought to have some assurance that that's what it's 
going to go for.
    Mr. Walden. Yeah. Mr. Callahan.
    Mr. Callahan. Yeah. My quick comment to that would be that 
I agree the way it comes out in the papers for most areas it is 
fraud. As far as whether or not it is mail fraud, the reason I 
think it probably isn't mail fraud is I, as a carrier, am 
charging it and simply passing it through, and I am actually 
remitting it to a government entity, in my case a local 
government entity that then--who then, to my knowledge, is 
actually spending the money properly.
    I might add, we don't have that concern, other than we 
don't have a Phase II funding mechanism. We only have Phase I 
and that has worked great. We have a great relationship with 
our PSAPs.
    Mr. Walden. Yeah, I appreciate that.
    Thank you, Mr. Chairman.
    I will yield. I have no time to yield back.
    Mr. Upton. Thank you. Mr. Markey.
    Mr. Markey. Thank you. Now, some people have made 
references to the wireless local number portability which will 
allow wireless consumers to switch wireless companies, but 
retain their same wireless phone number. Now, a lot of 
consumers, me included, have come to believe that our number is 
our number. That's our number. If we switch companies, we take 
our number with us. And I think most people who are watching 
this believe the same thing, that that's a sacred number. It is 
my number. And we want the companies to help us to take it with 
us, no matter where we go throughout our lives. I remember when 
I was a boy and one of the earliest things your mother did with 
you is say, in case you ever are in an accident, your number 
is, for me, MA4-0815. I remember that conversation because I 
had it over and over again. If you are ever in a accident--and 
by the way, make sure you change you underwear every day in 
case you are ever in an accident. You know, and so when I did 
get run over by a car, and I am up in the emergency room, you 
know, there is two things. I remember it. My number is MA4-0815 
to the doctor. She's on the phone now with the doctor. And the 
doctor saying, your boy is here, we need permission to operate. 
And the other thing is, you know, I know I haven't changed my 
underwear this week, you know what I mean. I am 5 years old and 
I am a boy. So I have got big problems. And all these thoughts 
are going through my brain.
    Well, there is a lot of wireless carriers who are saying, 
oh, my God. It is so hard to do E-911 and local portability at 
the same time. You know. It is like running a wireless network 
and chewing gum at the same time is so complicated. We don't 
know if we can do both. You know what I mean. Now, I know at 
age five, I could keep all of that in my brain. I am operating 
on these different levels of my phone number, my underwear, you 
know. My mother will kill me. And all these things are all 
running through my brain. But many of these companies they have 
a hard time in thinking in terms of multi-tasking, you know. So 
I would point out that, right now, there are absolutely no 
implementation problems when it comes to their billing 
operations, these conditions. Many wireless companies have 
already implemented a process which today has millions of 
consumers already paying monthly fees for both E-911 and for 
the wireless portability capacity, neither of which, in many 
instances, exist. But the billing system is up and it is 
modern, it is technologically perfect, and I am sure there is 
some person that is moving right up the corporate ranks in each 
company that's keeping that billing system up with the modern 
information technology.
    So that means, over the course of this year, the consumers 
will be paying hundreds of millions of dollars for wireless 
number portability to certain wireless carriers, even as some 
of those carriers lobby Congress and the FCC for yet another 
delay. One estimate I saw put the number at almost $2 billion 
that would be collected from consumers as an extra fee over a 
12-month period.
    So I appreciate that both E-911 and wireless number 
portability costs money, and I know that some carriers are 
fearful of the repercussions to their companies bottom line if 
consumers are finally permitted to keep their phone numbers 
while shopping around for better service or lower rates. But 
public safety and consumer protection are not competing goals. 
They are not alternatives, choose one or the other for the 
wireless companies. And I think many consumers resent hearing 
that a wireless carriers has the temerity, while collecting 
hundreds of millions of dollars in fees to even suggest to 
policymakers that they should choose between public safety and 
consumer protection. I don't want to see E-911 fees diverted by 
States. I also don't want wireless local and number and 
portability fees diverted to a carrier's general revenue with 
consumers never seeing the benefit. That's not right. And I 
expect the FCC to uphold the public interest and see that both 
E-911 and wireless local number portability are implemented on 
schedule.
    So I have a brief question for Mr. Hatfield. In your 
recommendations, Mr. Hatfield, you have suggested the creation 
of a national E-911 program office as part of the Homeland 
Security Department. Recognizing that E-911 is something that 
States and localities implement, could you expand on what role 
you believe a Federal national office could play in this area? 
Is it as a clearing house of information, as an advocate within 
the Federal Government for greater funding for first responders 
and public safety needs? Or some combination of all of these 
functions?
    Mr. Hatfield. I think all of the things that you mentioned 
are possible, and I want to make it clear. When I was talking 
about earlier, I was reflecting here sort of the classic 
separation of powers issue, the commission has certain powers 
and authorities, and I think what the commission is doing with 
this latest coordination effort and so forth, things that John 
talked about are all wonderful steps. But it seems to me that 
there is an executive branch responsibility here because of the 
nature of this in terms of the--of national defense and 
security and so forth. So it was in leadership in that role, 
the Federal Government leadership in that role that I was 
talking to. And that includes funding in support for some of 
these, like the advisory committee that looks at this from a 
bigger standpoint, from a more national standpoint that I was 
referring to in my report. And as I said, I am still very much 
in favor of something like that, whether it is housed in the 
Department of Homeland Security or something is a little bit 
hard for me to say being such a distance from Washington now.
    Mr. Markey. Thank you very much. And please, at the FCC, do 
what you can with these wireless carriers, you know, because 
you know, it is a sad state of affairs when they are pleading 
technological incompetence. I mean you just hate to hear it at 
this advanced stage of the industry. So whatever you can do we 
would appreciate it.
    Thank you Mr. Chairman.
    Mr. Upton. Thank you, Mr. Markey. I want to thank all of 
the panelists for your testimony your responses. Again, I 
remind you that some members may actually submit some questions 
in writing. We are looking forward, Mr. Melcher, to getting the 
information back on a timely basis. And I just want to, again, 
reconfirm the importance of this technology going forward, and 
us all working together on the same page so that when someone 
makes a call, whether they be in the rural part of Oregon or 
Michigan or I don't know if they have any rural parts in 
Massachusetts, maybe in the big dig. Is that still rural? 
Anybody using that yet?
    Mr. Markey. I know it sounds hard to believe that 50 
percent of Massachusetts is trees, but after you get outside of 
Boston, as anyone who has been there knows, it is a long ride 
to New York City. And just as surprising to people, that's why 
we have Berkshire Day at Finley park and a Maine Day at Finley 
park because everyone feels like it is a long ride in from this 
otherwise, you know, tree enshrouded world in which we live in 
New England.
    Mr. Upton. Well, we want this done so that when people 
punch that number, they know that help is the on the way.
    Mr. Markey. Can I say this though? Although I will admit 
that the only relationship to rural America that we have in my 
district are the three stuffed cows in front of the Hilltop 
Steak House on Route 1, okay. So I do admit that in the urban 
area, it is not that--excuse me.
    Mr. Upton. Is that why you supported the dairy subsidies?
    Mr. Markey. Can I tell you the truth about those dairy 
subsidies? My father was a milkman for the Hood Milk Company. 
So we were always at the retail end of the milk chain, okay? 
And my father, privately, while working for the Hood Milk 
Company, was always pointing out how the price of milk to our 
family would be much higher if he didn't get, as my mother 
always said to us, the special discount that your father gets 
for being a milkman for the Hood Milk Company. But he would 
always be pointing out how much the price of milk is for 
everybody else in the neighborhood than it should be, although 
since we worked for the Hood Milk Company and our income came 
from the Hood Milk Company, we were all bound by the code of 
Omanta on this subject. Okay. So I will admit that having a 
great deal of knowledge about this subject, but the retail 
perspective on those dairy subsidies is a lot different from, I 
guess, your perspective on them. And that's why I think David 
Stockman came out against dairy subsidies back in 1981. But his 
mother, a dairy farmer, advised him that it was probably a big 
mistake for him.
    Mr. Upton. Yeah. They still have their barn.
    Mr. Markey. They have the barn and the dairy subsidy.
    Mr. Upton. No. But they don't have--the dairy subsidies 
went down so they don't have the cows anymore.
    Mr. Markey. Aw.
    Mr. Upton. But when we punch in that number, we want to 
make sure that our first responders get there as well because 
they care about all the people that they serve, just like the 
milkmen do.
    Appreciate all of you. We are now formally adjourned.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
